<html>
<title> - REVIEW OF RESOURCES, PRIORITIES AND PROGRAMS IN THE FISCAL YEAR 2017 STATE DEPARTMENT BUDGET REQUEST</title>
<body><pre>[Senate Hearing 114-779]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-779
 
                   REVIEW OF RESOURCES, PRIORITIES AND
                    PROGRAMS IN THE FISCAL YEAR 2017
                    STATE DEPARTMENT BUDGET REQUEST

=======================================================================

                                HEARING



                               BEFORE THE


                        SUBCOMMITTEE ON WESTERN
                       HEMISPHERE, TRANSNATIONAL
                       CRIME, CIVILIAN SECURITY,
                        DEMOCRACY, HUMAN RIGHTS,
                       AND GLOBAL WOMEN'S ISSUES



                                 OF THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                           APRIL 26, 2016

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       




                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                         
             U.S. GOVERNMENT PUBLISHING OFFICE
             
 30-219 PDF          WASHINGTON : 2018                               
                         


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator from Florida.....................     1

Boxer, Hon. Barbara, U.S. Senator from California................     2

Hogan, Elizabeth, Acting Assistant Administrator, Latin America 
  and Caribbean Bureau, USAID, Washington, DC....................     3
    Prepared statement...........................................     5

Palmieri, Francisco, Principal Deputy Assistant Secretary, Bureau 
  of Western Hemisphere Affairs, U.S. Department of State, 
  Washington, DC.................................................    10
    Prepared statement...........................................    11

Malinowski, Hon. Tomasz, Assistant Secretary, Bureau of 
  Democracy, Human Rights, and Labor, U.S. Department of State, 
  Washington, DC.................................................    13
    Prepared statement...........................................    15


              Additional Material Submitted for the Record

Responses to additional questions submitted by Senator David 
  Perdue to Elizabeth Hogan......................................    36

Responses to additional questions submitted by Senator Marco 
  Rubio to Francisco Palmieri....................................    42

Responses to additional questions submitted by Senator David 
  Perdue to Francisco Palmieri...................................    44

Responses to additional questions submitted by Senator Marco 
  Rubio to Tomasz Malinowski.....................................    51

Responses to additional questions submitted by Senator David 
  Perdue to Tomasz Malinowski....................................    56




                             (iii)        

  


                  REVIEW OF RESOURCES, PRIORITIES AND



                    PROGRAMS IN THE FISCAL YEAR 2017



                    STATE DEPARTMENT BUDGET REQUEST

                              ----------                              


                        TUESDAY, APRIL 26, 2016

                               U.S. Senate,
 Subcommittee on Western Hemisphere, Transnational 
Crime, Civilian Security, Democracy, Human Rights, 
                         and Global Women's Issues,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
chairman of the subcommittee, presiding.
    Present: Senators Rubio [presiding], Gardner, Cardin, 
Boxer, Kaine, and Markey.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Good morning. This is a hearing of the 
Subcommittee on the Western Hemisphere, Transnational Crime, 
Civilian Security, Democracy, Human Rights, and Global Women's 
Issues.
    The purpose of this hearing is to review the resources, 
priorities, and programs in the fiscal year 2017 budget request 
from the President and the U.S. Department of State's Bureau of 
Western Hemisphere Affairs and the Bureau of Democracy, Human 
Rights, and Labor, as well as the USAID's Bureau for Latin 
America and the Caribbean.
    We will have an official panel with three witnesses: Mr. 
Tom Malinowski, who is the Assistant Secretary of State for 
Democracy, Human Rights, and Labor; Mr. Francisco Palmieri, who 
is the Principal Deputy Assistant Secretary of State for 
Western Hemisphere Affairs; Ms. Elizabeth Hogan, who is the 
Acting Assistant Administrator for Latin America and the 
Caribbean at the U.S. Agency for International Development. And 
I want to thank all of you for being with us today, and we 
appreciate your time and commitment to furthering the important 
work of this committee. And I also want to thank your staff for 
working with the committee and members of my staff to making 
this hearing possible.
    Today is an opportunity to learn more about the 
administration's priorities in the western hemisphere and in 
promoting democracy and human rights around the world.
    There are many challenges that we need to collaborate on in 
order to make U.S. programs maximally effective. Building 
strong democratic institutions and promoting human rights 
around the world is in the moral and strategic interest of the 
United States and should continue to be one of our top 
priorities.
    I believe it is important for U.S. programs to be aligned 
with our strategic priorities and not just in the western 
hemisphere but throughout the world.
    It is also important that U.S. taxpayer dollars are not 
wasted but instead are used to address significant challenges 
related to our national security interests. I believe Congress 
can continue to work in a constructive way to enhance the 
Department's efforts.
    I hope you address these issues today in your testimonies.
    And with that, I turn it over to our ranking member, 
Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Mr. Chairman, thank you so much.
    This is an important hearing, and I want to extend my warm 
welcome to our guests and witnesses. It is an opportunity to 
examine in more detail the Department's budgetary priorities.
    Our subcommittee is a very important one. It has 
jurisdiction over a range of matters, including the countries 
of the western hemisphere, as well as global responsibility for 
democracy, human rights, and women's issues.
    While we face numerous challenges in the western 
hemisphere, ranging from narcotics trafficking to assisting 
countries in the wake of natural disasters, the region is 
making tremendous progress and it is rife with opportunity, due 
in large part to the support of the United States.
    I know my chairman and I--we are friends but we disagree 
strongly on Cuba. So I will just say that President Obama's 
decision to change a failed policy was welcome news for me, and 
I hope it will turn out to be so for the Cuban people and the 
human rights activists there. It is an unprecedented moment, 
and I hope the Cuban people make the most of it and that the 
government understands that they have got to change.
    We have also witnessed progress in Colombia, due in large 
part to the support of the U.S. negotiations between the 
government and the FARC that continue to move forward.
    And we can look at Argentina where the United States is 
poised to build stronger ties. I visited Argentina a couple 
years ago and was so depressed and disgusted, frankly, with 
what I saw in that Kirchner government, and I really have hope 
now. And I really believe, as we see the new government saying 
yes, they are going to pay back the bonds and make investors at 
least partially whole and maybe whole, it is an important 
point.
    In Mexico, we continue to build upon and reinforce our 
relationship with our close neighbor. Our ties are very 
important.
    And I am very concerned about threats posed by the spread 
of the Zika virus. And I think we are going to be heard more 
and more on that on the floor of the United States Senate. This 
is an emergency. We should not be quibbling about it. It is an 
emergency, and our people are going to get sick, really sick. 
And we already have I know in Florida, I have heard, 99 cases 
of the Zika. And it is going to happen as sure as we are 
sitting here and in short order.
    So we need to lead on that, and we need to lead the world. 
I know it is very difficult. There are no sure answers. We are 
going to stumble and we are going to fall, but as they say, 
what is important is how do you get back up. Have you learned 
the lessons? Are you ready to make sure that we do not repeat 
those mistakes? Because in any kind of human relations, let 
alone foreign relations, we make mistakes.
    So I support funding for programs that support human rights 
defenders and civil society organizations, those that promote 
religious freedom, strengthen accountability, and the rule of 
law.
    And I thank again my chairman.
    Senator Rubio. Thank you.
    We will begin with the testimony from our panelists. As you 
are aware, we will have a vote at 11:00. We have your 
statements for the record, so if you could summarize them so we 
can get into the question rounds, that would be great. Thank 
you. Ms. Hogan?

 STATEMENT OF ELIZABETH HOGAN, ACTING ASSISTANT ADMINISTRATOR, 
      LATIN AMERICA AND CARIBBEAN BUREAU, U.S. AGENCY FOR 
          INTERNATIONAL DEVELOPMENT, WASHINGTON, D.C.

    Ms. Hogan. Mr. Chairman, Ranking Member Boxer, and 
distinguished members of the subcommittee, thank you for the 
invitation to testify today. I am pleased to present USAID's 
plans for fiscal year 2017.
    Our request of approximately $970 million will promote the 
interests of the United States while also significantly 
improving the quality of life for those we help.
    We have identified five priorities to focus our assistance 
where we can have the greatest impact: prosperity, good 
governance, and security in Central America; promoting a 
sustainable and equitable peace in Colombia; long-term 
development in Haiti; advancing democracy and human rights 
across the Americas; and addressing environmental threats to 
livelihoods.
    One of our highest priorities is Central America, 
particularly in the countries of El Salvador, Guatemala, and 
Honduras.
    We see prosperity, improved governance, and security, the 
objectives of our Central America strategy, as interdependent. 
We know that opening doors for citizens, especially youth at 
risk of gang recruitment, will bolster our efforts in security 
and lead to freer, more prosperous societies. That is why our 
prosperity programs include efforts to support small businesses 
and entrepreneurs, encourage private investment, train youth in 
job skills, and improve agricultural productivity. These 
efforts to grow prosperity are only sustainable in an 
environment where democratic values and institutions flourish, 
human rights are respected, and civil society and the media can 
play their rightful roles.
    To that end, our governance programs are aimed at reforming 
institutions to root our corruption, strengthening civil 
society's ability to hold governments accountable, fostering a 
culture of respect for human rights, especially for 
historically marginalized groups, and improving fiscal 
transparency. These are important programs, but ultimately it 
will be difficult for our prosperity and governance efforts to 
take root in societies that are plagued by insecurity.
    Therefore, we are using tested approaches in the most 
violent-prone communities to create safe community spaces, 
provide job and life skills training, and build trust between 
police and residents. With sustained commitment on the part of 
the United States and host governments, we will help the 
Northern Triangle develop into a safer, more prosperous region 
for all those who live there.
    Such sustained commitment yields results, as we have seen 
with the notable strides made in Colombia. In 2017, USAID is 
requesting $187 million to expand upon current programming to 
help the Colombian Government establish a stronger presence in 
former conflict zones, provide post-conflict reconciliation and 
justice, promote inclusive rural economic growth, and 
sustainably manage the country's vast natural resources. These 
programs will build upon current successes especially for 
marginalized populations.
    Along with Central America and Colombia, Haiti remains a 
high priority for USAID. Our fiscal year 2017 request will 
continue our efforts to help Haiti grow into a stable and 
economically viable country. We remain focused on promoting 
economic growth, job creation and agricultural advances, 
providing basic health care and education services, and 
improving the transparency of government institutions and their 
responsiveness to citizens. While much more remains to be done, 
we are committed to supporting the Haitian people as they build 
a more prosperous and secure future.
    Throughout the region, our democracy and human rights 
programs address fundamental issues, including anticorruption, 
promotion of press freedoms and the rule of law, and support 
for civil society. USAID works to ensure that government 
institutions are open and accountable, they use public funds 
responsibly and effectively, and deliver critical services to 
citizens. We are also committed to supporting human rights 
everywhere we work. Underpinning all of these efforts is 
support and protection for a strong and vibrant civil society 
that can hold governments accountable.
    Another challenge facing the region is the negative impact 
of extreme weather events. Our mitigation and adaptation 
efforts help reduce devastation to life, property, and economic 
activity. We are also speeding the development and deployment 
of advanced clean energy technologies and helping to create 
favorable legal and regulatory environments.
    We have one goal in mind with everything that we do to 
empower countries to assume responsibility for their own 
development and grow beyond the need for international 
assistance. We use science, technology, innovation, and private 
sector partnerships to find new solutions and scale up what 
works. For every dollar we spent in the region in 2014, we 
mobilized five times that in private sector resources.
    We take our responsibility to the United States taxpayer 
seriously, and we are committed to accountability, 
transparency, and oversight of our programs. We use a full 
range of monitoring and evaluation tools to track our progress 
and ensure that our programs are meeting goals and delivering 
high impact results.
    With sustained commitment from countries in the region to 
advance their own development goals and our government's 
support, we are well placed for success.
    Thank you to the committee for your attention and I look 
forward to your questions.
    [Ms. Hogan's prepared statement follows:]


        Prepared Statement of Elizabeth Hogan, Acting Assistant 
        Administrator for Latin America and the Caribbean, USAID

    Chairman Rubio, Ranking Member Boxer, and members of the 
subcommittee, thank you for the invitation to testify today. I am 
grateful for the Committee's support for the United States Agency for 
International Development's work in Latin America and the Caribbean, 
and am pleased to have this opportunity to present our plans for Fiscal 
Year (FY) 2017.
                              introduction
    For more than fifty years, USAID has led our nation's efforts to 
advance dignity and prosperity around the world, both as an expression 
of core American values and to help build peaceful, open, and 
flourishing partners for the United States. This is particularly 
important in those countries closest to our shores: the nations of 
Latin America and the Caribbean. Peaceful, stable, democratic societies 
make for good trading partners and strong allies, helping us to be more 
prosperous and secure here at home. Further, when we help countries in 
our hemisphere reinforce basic rights and encourage civic 
participation, foster conditions that improve prosperity and citizen 
security, or protect precious natural resources, we are being good 
neighbors.
                          development context
    Many Latin American and Caribbean nations have experienced 
monumental growth and change in the past several decades, and USAID has 
partnered with these countries to make important progress. Despite the 
global financial crisis, the region averaged a three percent annual 
increase in economic growth between 2000 and 2012. Health indicators 
have greatly improved in the region: infant mortality has declined from 
43 to 16.2 deaths per 1,000 live births since 1990; maternal mortality 
fell from 140 to 81 deaths per 100,000 live births in the same time 
period; and the number of malaria cases decreased by 60 percent between 
2000 and 2012.
    Spurred by unprecedented engagement by ordinary citizens demanding 
transparency and respect for basic freedoms and rights, governments 
have begun significant reforms to improve the administration of 
justice, enhance transparency, and promote better access to justice for 
typically marginalized populations. And countries that once were only 
on the receiving end of assistance, such as Brazil, Chile, Colombia, 
and Mexico, are emerging as donors eager to share their expertise, 
resources, and experience with developing nations around the world.
    While these are impressive gains, the region still faces 
significant challenges. Latin America and the Caribbean continue to 
have some of the highest rates of income inequality in the world and 
economies have slowed in the face of weaker commodity prices for key 
exports, reduced domestic demand and investment, and worsening fiscal 
balances. Severe, chronic drought threatens lives and livelihoods, 
particularly in Haiti and parts of rural Guatemala and Honduras. 
Regional progress in health masks inequalities between and within 
countries, with the health status in select populations matching that 
of countries in sub-Saharan Africa. Crime and violence have risen 
dramatically in parts of the region over the past decade; according to 
the United Nations' 2013 Global Study on Homicide, seven of the ten 
countries with the highest murder rates in the world are in Latin 
America and the Caribbean. And, despite democratic progress, some 
countries are witnessing troubling backsliding, including constraints 
on civil society, limits on media and freedom of the press, and 
increasing executive overreach.
    USAID's FY 2017 request for Latin America and the Caribbean 
continues our long-term efforts to help the region overcome these 
challenges. USAID's assistance of approximately $970 million in FY 2017 
funds--a 15 percent increase over the FY 2015 enacted level of $846 
million--promotes the interests of the United States while also 
significantly improving the quality of life for those we help. We 
actively seek out local partners who understand the context on the 
ground, harness the expertise of the private sector and civil society 
to set the stage for efforts to continue after we are gone, and develop 
innovative and flexible approaches that bring new solutions to 
longstanding challenges. With sustained commitment, we are confident 
that the region will make strides that enable it to develop beyond the 
need for United States government assistance.
                            central america
    One of our greatest areas of focus is Central America, particularly 
the Northern Triangle countries of El Salvador, Guatemala, and 
Honduras. These countries are plagued by gang violence and 
transnational crime, deep-seated social and economic inequity, lack of 
economic opportunity, and high rates of unemployment. In addition, weak 
government capacity and corruption continues to undermine efforts to 
improve security and advance prosperity. We see the consequences of 
this insecurity and lack of opportunity at our own border when children 
and families complete the dangerous, irregular journey to the United 
States.
    We are acutely aware that this problem requires a strategic and 
sustained endeavor to help Central American governments, private 
sector, and civil society create an environment in which all of their 
citizens thrive. We are grateful for Congress's support for the U.S. 
Strategy for Engagement in Central America. The Strategy outlines 
interdependent prosperity, governance, and security efforts designed to 
address the root causes of migration. The State Department and USAID's 
FY 2017 $750 million request is part of the Administration's $1 billion 
interagency request in support of the Strategy. And we have seen 
promising signs of the Northern Triangle governments' commitment to 
this same effort, outlined in their Alliance for Prosperity. The 
Alliance for Prosperity lays out the governments' shared pledge to grow 
their economies, create employment, improve public safety and enhance 
access to the legal system, and improve social services for their 
citizens, particularly the poorest and most vulnerable. We are 
encouraged that the governments passed budgets totaling $2.6 billion to 
support the Alliance for Prosperity in 2016.
    To spur greater prosperity in the Northern Triangle, USAID plans to 
increase our support for successful broad-based economic growth 
programs designed to expand business, employment, and educational 
opportunities for the poor and those most likely to migrate. We plan to 
continue successful efforts and invest in new initiatives to promote 
good governance and transparency, including anti-corruption programs 
that address chronically low tax revenue collection, improve fiscal 
transparency, strengthen human rights protections for vulnerable 
groups, empower civil society to hold governments accountable, and 
expand justice sector reform throughout the region.
    However, it will be difficult for our prosperity and governance 
efforts to take root in societies plagued by insecurity. The heart of 
our security work is youth-focused, as we invest in programs that reach 
those most at risk for gang recruitment, crime, and violence. To 
accomplish our goals to reduce and prevent crime and violence, USAID is 
partnering with communities, civil society, governments and the private 
sector to develop crime prevention plans, invest in municipal crime 
observatories, create safe community spaces, expand after-school 
activities, provide job and life skills training, and build trust 
between police and residents. In some of the most violent areas and 
neighborhoods of these countries, our efforts are amplified by close 
coordination with the Department of State's Bureau for International 
Narcotics and Law Enforcement Affairs (INL) through our shared Place-
Based Strategy, which pairs community-based prevention work with 
interventions to improve the effectiveness of law enforcement.
    We are seeing results in these three areas of strategic focus. For 
example, our agriculture-related prosperity programs in Honduras have 
been successful in reducing extreme poverty: with USAID's help, the 
incomes of small-scale farmers and families have increased by nearly 55 
percent for more than 180,000 of the poorest individuals between 2011 
and 2015. With USAID support, the Guatemalan judicial system, Office of 
the Attorney General, High Impact Court, and National Forensics Lab 
have made progress combatting impunity. And in El Salvador, analysis of 
our crime prevention activities points to a drop in homicides of more 
than 60 percent in the 76 communities where USAID targets its 
programming.
    With sustained commitment on the part of the United States and host 
governments, we will build on and expand these successes into more 
communities and municipalities and help the Northern Triangle develop 
into a safer, more prosperous region for all those who live there, not 
just the privileged few.
                                colombia
    Sustained commitment on the part of the United States and host 
governments can be successful, as we have seen with the notable strides 
made under Plan Colombia. Begun in 2000, when Colombia was plagued by 
an active civil conflict, corruption scandals, and widespread drug 
cultivation, Plan Colombia was a strategy developed by the United 
States and the Government of Colombia to help eradicate the drug trade 
and bring peace and prosperity to that country. Thanks to the gains 
made under this strategy, a result of years of strong bipartisan 
support from the U.S. Congress, committed work and strategic patience, 
the Government of Colombia and the Revolutionary Armed Forces of 
Colombia (FARC) are expected to sign historic peace accords in 2016.
    To provide post-accord support, in February 2016, President Obama 
announced Paz Colombia (Peace Colombia), a collection of programs 
already in progress or planned to begin when the peace accords are 
signed. In FY 2017, USAID will manage $187 million--a 41 percent 
increase over the FY 2015 enacted level of $133 million--to expand upon 
current programming to help Colombian government institutions to 
establish a stronger presence in former conflict zones, seek post-
conflict reconciliation and justice, promote inclusive rural economic 
growth, and sustainably manage the country's vast natural resources.
    These programs will build upon several successes achieved to date. 
For example, thanks to USAID-funded work to implement rule of law and 
human rights policies, there has been a 61 percent increase in the 
number of cases decided by land restitution judges, and mobile justice 
houses have been deployed to 95 remote communities in conflict zones. 
To help improve prospects for traditionally marginalized groups, USAID 
provided workforce training to more than 9,150 urban Afro-Colombian and 
indigenous persons; more than 8,150 have now graduated and begun a six-
month formal employment phase. USAID programs are also improving 
livelihoods while reducing deforestation, including by introducing more 
sustainable approaches to cattle ranching, agroforestry systems, and 
ecotourism; our efforts have helped to improve natural resource 
management and protect nearly 37,000 hectares of important biodiversity 
and ecosystems.
    We are hopeful that our programs will reach a wider group when the 
peace accords are signed and the Colombian people vote to approve the 
accords. USAID is in negotiations with the Government of Colombia to 
take advantage of this key opportunity and expand our presence into 
twenty new municipalities.
                                 haiti
    Along with Central America and Colombia, Haiti remains a high 
priority for USAID. The country, which is ranked 163 out of 188 on the 
United Nations' 2015 Human Development Index, suffers from high 
unemployment, political instability, and growing food insecurity due to 
prolonged drought. In addition, more than half of Haitians live below 
the World Bank's international extreme poverty line of $1.90 per day. 
These challenges are severe, but we continue to be optimistic that if 
we find sufficient political will in Haiti, we will be able to help the 
country lift itself out of extreme poverty.
    Funds requested for FY 2017 will continue our efforts to help Haiti 
grow into a stable and economically viable country. Our assistance 
strategy targets key development issues and specific areas of the 
country where we can be the most successful. We remain focused on the 
long-term reconstruction that has helped the country begin to turn the 
corner after the 2010 earthquake by promoting economic growth, job 
creation, and agricultural advances; providing basic health care and 
education services; and improve the transparency of government 
institutions and their responsiveness to their citizens.
    We have seen encouraging signs that our assistance is improving 
lives. To help build the economy from the ground up, USAID facilitates 
access to finance, which is one of the major constraints to economic 
development in Haiti. Thanks to USAID's work with local micro-, small-, 
and medium-sized enterprises, we have helped to create close to 10,000 
jobs due in large part to equity financing in the form of matching 
grants or training in topics such as product quality control and 
business development services. In addition, many of these companies and 
others now have access to bank credit due to loan guarantees that we 
have provided under our $57 million Development Credit Authority. 
Moreover, we have recently awarded more than $11 million for capacity 
development services and small grants to local Haitian organizations.
    Our progress extends into other areas, as well. The 10-megawatt 
power plant USAID helped build near the Caracol Industrial Park in the 
North connects more than 8,000 households, businesses, and government 
institutions to reliable power; this is the first time in history many 
of those affected have ever had dependable electricity, and small 
businesses are flourishing there. USAID is helping the Government of 
Haiti make this electric utility financially sustainable, which will 
lead to a public-private partnership for its ongoing operation and 
maintenance. In agriculture, we worked with small-scale farmers and 
helped to double the income of 60,000 farmers through an increase in 
productivity, better yields, and the introduction of new technology. 
And we are identifying where we can successfully work with Haitian 
Government ministries so that they can better serve their citizens. For 
example, we work closely with the Ministry of Health to help them 
provide quality health care. One area of collaboration is the 
rehabilitation of critical health infrastructure. As part of this 
effort, USAID is helping to construct a new maternity and pediatrics 
ward at Justinien Hospital in Cap Haitien and reconstruct the National 
Campus of Health Sciences in Port au Prince.
    Haiti's political environment continues to be challenging; for 
progress to continue we need demonstrated political will, stability, 
and good governance. We are eager to see the presidential elections 
completed as soon as possible. We will maintain our engagement with 
Haiti through various efforts, including by working with the Haitian 
diaspora who bring unique skills and knowledge to projects and 
technical sectors. The course of Haiti's future ultimately depends on 
Haitians themselves. While much more remains to be done, we are 
committed to supporting the Haitian people as they build the more 
prosperous and secure future they deserve.
                 encouraging democracy and human rights
    Our programs will only be sustainable under conditions where 
democratic values and institutions flourish, citizens can depend on 
basic social services, impunity is reduced, and civil society and the 
media can play their rightful roles. Increasing violence and citizen 
insecurity in Latin America and the Caribbean have eroded citizens' 
confidence in democratic institutions and practices. Weak judicial 
institutions, often plagued by corruption, have historically 
contributed to impunity and public frustration. The region is host to 
several ``closed spaces''--countries where governments generally are 
duly elected and populist, but ultimately prove to be anti-democratic. 
And illicit actors like transnational criminal organizations and gangs 
also limit fundamental freedoms, primarily with threats and violence 
against journalists, human rights defenders, and other civil society 
actors.
    USAID's democracy and human rights programs address issues that are 
fundamental to democratic societies, including anti-corruption efforts, 
promotion of press freedoms and the rule of law, and support for civil 
society. To address corruption, USAID is working at national and local 
levels to ensure that government institutions are open and accountable, 
use public funds responsibly and effectively, and deliver critical 
services to citizens. Our assistance includes security and justice 
reforms, passage and enforcement of key anti-corruption and 
transparency legislation, and financial management strengthening. For 
example, in Paraguay, USAID assisted the National Procurement Agency to 
develop an Open Data Portal, which allows citizens to view the status 
of all competitive procurements, including how much ministries are 
spending on contracts and vendor details, thus enabling citizens to 
hold the government accountable. We are committed to supporting human 
rights everywhere we work, including in Cuba and other closing spaces 
where citizens are arbitrarily detained, threatened, harassed, and 
beaten for peacefully exercising their fundamental rights. In a region 
where journalists face violence and intimidation from government 
authorities and criminal elements, USAID runs regional press freedom 
programs and supports freedom of information activities across the 
region. To shore up the rule of law, we work with police organizations 
to improve effectiveness and professionalism, foster a culture of 
respect for human rights, and instill a community-oriented approach. 
Underpinning all of these efforts is support and protection for a 
strong and vibrant civil society that can hold governments accountable.
    Despite challenges, there are notable accomplishments attributable 
to our work. Throughout the region, our programs have assisted 
journalists' efforts to expose mismanagement of Latin American 
government projects; nearly half of these investigative journalism 
reports have resulted in a government policy response. For example, in 
Ecuador in 2014, an investigative report on child trafficking led to a 
National Assembly vote to fund an awareness campaign to ``Say No to 
Risky Migration.'' Thanks to our efforts to improve effectiveness and 
professionalism of the police in Jamaica, where USAID has worked with 
the Jamaica Constabulary Force for more than 15 years, reports of 
police soliciting bribes declined by almost 40 percent from 2006 to 
2012. And to ensure that civil society remains able to operate freely, 
we supported the Government of Mexico's National Protection Mechanism 
for Human Rights Defenders and Journalists, providing assistance to 
approximately 400 activists and journalists seeking protection from 
threats of violence and harassment.
            addressing environmental threats to livelihoods
    In nations throughout Latin America and the Caribbean, USAID is 
also working to mitigate the effects of changing climate patterns and 
build the resiliency of the people with whom we work by helping them 
implement risk-reducing practices and use climate information in their 
decision making. The region is home to countries that are significant 
greenhouse gas emitters, as well as nations with glaciers and coastal 
regions that are at significant risk from extreme weather events and 
natural disasters, and tropical forests, including the Amazon Basin, 
that act as valuable natural resources.
    USAID programs reduce the devastation to life, property, and 
economic activity caused by environmental threats by helping vulnerable 
groups withstand and cope with catastrophic weather events, droughts, 
and other climate impacts. Prevention programs are also an efficient 
use of development resources. Indeed, evidence suggests that every 
dollar spent on disaster preparedness prevents an average of seven 
dollars in economic losses due to disasters.
    We work to reduce deforestation and greenhouse gas emissions by 
investing in forest conservation, efforts to combat illegal logging, 
and promotion of sustainable land use. This kind of programming can be 
a helping hand that lifts people out of poverty. For example, USAID 
assistance in Guatemala helped small- and medium-sized enterprises and 
community-based organizations in the Maya Biosphere Reserve achieve 
environmental certification on more than 270,000 hectares, and maintain 
certification for nearly 500,000 hectares of forest products. At the 
same time, we helped these organizations foster relationships with 
United States and European businesses that put a premium on sustainably 
sourced products. These efforts reduced deforestation and resulted in 
nearly $26 million in total sales of certified forest products, 
creating almost 4,000 jobs.
    We are speeding the development and deployment of advanced clean 
energy technologies and helping to create favorable legal and 
regulatory environments. In this way, we help to attract private 
investors from the United States and elsewhere to maximize the use of 
renewable energy resources. By cutting down on imported fossil fuels, 
these actions will lower greenhouse gas emissions and move the region 
toward greater energy independence. Economic growth that is more energy 
efficient will be cleaner, reduce dependency on scarce foreign 
resources, and contribute to increased prosperity.
                       doing business differently
    We have one goal in mind with everything that we do: to empower 
countries to assume responsibility for their own development and grow 
beyond the need for international assistance. To this end, we are using 
science, technology, innovation, and private sector and trilateral 
partnerships to find new solutions to longstanding problems and scale 
up existing solutions in a more sustainable and efficient way. Our 
partnerships with the private sector help us to marshal the resources, 
innovation, technology, markets, and expertise of the business 
community to accelerate development. In FY 2014 alone, USAID's 
partnerships in Latin America and the Caribbean leveraged an estimated 
$189 million in private sector resources for development; for every 
dollar we spent in the region in 2014, we mobilized five times that 
amount in private sector resources. These partnerships help to connect 
small-scale farmers and businesses to valuable markets; provide 
training, education, and employment to at-risk youth; and help to 
increase incomes, move communities out of poverty, and improve food 
security for the most vulnerable.
    We are increasingly employing the latest science and technology to 
improve health practices; introduce low-cost, high-impact seed 
varieties and irrigation techniques; and improve public safety. For 
example, in partnership with Microsoft, Cisco, Universal Service Fund, 
and the Jamaican Ministry of Science, Technology, Energy and Mining, we 
are experimenting with ``TV White Space,'' a new technology that taps 
unused television broadcast frequencies. This will extend high-speed, 
wireless internet access to remote parts of the country, improving 
connectivity for public service provision and training in rural areas 
of Jamaica.
    Finally, we use innovative financing models to unlock private 
capital for non-traditional partners, many of which drive the region's 
economy. Through our Development Credit Authority (DCA), we help share 
risks and incentivize lending from financial institutions to micro-, 
small- and medium-sized enterprises in Colombia and Central America, 
for example. During FY 2015 alone, seven new DCA guarantees mobilized 
nearly $140 million in private capital to support these efforts in 
Latin America and the Caribbean. As part of these efforts, guarantee 
agreements with three Colombian banks will mobilize up to $120 million 
in lending to borrowers in targeted rural regions of the country.
                               oversight
    USAID takes its responsibility to the United States taxpayer 
seriously, and we are committed to accountability, transparency, and 
oversight of our programs. To do so, we use a full range of monitoring 
and evaluation tools, including survey data, performance indicators, 
analyses, studies, and external evaluations. Our Missions are guided by 
five-year strategic plans and their individual Monitoring, Evaluation, 
and Learning Plans. These tools enable us to establish baselines and 
track the pace and status of implementation, ensure that programs are 
meeting goals and delivering high-impact results, and provide the 
flexibility needed to accommodate new needs and realities. Monitoring 
and evaluation tools also feed valuable data on new and effective 
approaches, which later inform new program designs. For example, our 
post-earthquake strategy in Haiti calls for port services in the North 
to help build viable economic centers outside of Port-au-Prince. Our 
initial plan was to construct a new port, but after extensive due 
diligence revealed economic and environmental challenges with this 
approach, we shifted to our current effort to rehabilitating the 
existing Cap Haitien port. The project is underway, with a projected 
completion date of 2020.
    We are also helping partner governments to develop monitoring 
mechanisms and ensure the same oversight for assistance they receive 
from us. For example, our Mission in Colombia developed, and turned 
over to the Government of Colombia, a Consolidation Index--a 
combination of 41 indicators that track institutional presence, good 
governance and citizen participation, and regional integration--to 
track whether USAID and the Government of Colombia are achieving goals 
in increasing state presence and capacity to deliver services in 
critical regions. This Index provides USAID with important information 
related to its program performance and also provides similar relevant 
information directly to the Government of Colombia.
                               conclusion
    With sustained commitment from countries in the region to advance 
their own development goals, and our government's support, we are well 
placed for success. Political will, in combination with improved local 
capacity, leveraged resources and new partnerships, will allow us to 
help regional governments become more peaceful and prosperous. We would 
like to thank this Committee for its interest in and support for our 
work, and look forward to collaborating with you to address long-
standing challenges and new opportunities for reform.
    Thank you for your time; I look forward to your questions.


    Senator Rubio. Thank you.
    Mr. Palmieri?

  STATEMENT OF FRANCISCO PALMIERI, PRINCIPAL DEPUTY ASSISTANT 
     SECRETARY, BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. 
             DEPARTMENT OF STATE, WASHINGTON, D.C.

    Mr. Palmieri. Chairman Rubio, Ranking Member Boxer, Senator 
Kaine, thank you for the opportunity to testify on the fiscal 
year 2017 foreign assistance request for the western 
hemisphere. And thank you for your ongoing support of our 
diplomatic and assistance efforts in the hemisphere.
    The administration's approach to the region improves 
security, strengthens the rule of law, promotes democracy and 
human rights, advances partnerships, and promotes prosperity 
and inclusive growth for all its citizens. U.S. assistance is a 
critical tool that supports these goals.
    In our requests for Central America and Mexico, we seek to 
address the underlying conditions driving migration from 
Central America through Mexico and to the United States. The 
request also includes increases to support Colombia's 
implementation of an expected peace agreement marking the end 
of the hemisphere's longest running conflict. The request 
maintains support for key partnerships with Peru, Haiti, and 
the Caribbean.
    The fiscal year 2017 foreign assistance request for our 
strategy in Central America continues support for prosperity, 
governance, and security, particularly for Central America's 
Northern Triangle, in recognition of the acute challenges these 
countries face. U.S. assistance through the strategy 
complements the investments Northern Triangle governments are 
making through their own development plan, the Alliance for 
Prosperity. They plan to spend $2.6 billion this year on their 
own plan.
    Continued U.S. support will be vital to Colombia's success 
as it seeks to implement a peace accord.
    Our partnership with Mexico remains an important priority 
for the United States and includes a range of issues that 
benefit both countries, including trade and investment, energy, 
and security. The Merida Initiative continues to provide the 
framework for our bilateral security cooperation at both 
Federal and State levels.
    Our request also includes essential democracy assistance 
for Cuba and Venezuela where the United States will continue to 
provide assistance that advances universal human rights and 
supports vibrant civil societies. Promotion of democratic 
principles and human rights remains at the core of U.S. 
interests in Cuba.
    Our request for Haiti continues investments in 
infrastructure, agriculture, economic growth, basic education 
and health, expanded governance, democracy activities, and 
security. A sustained U.S. commitment is essential to build on 
the past gains of U.S. efforts in Haiti and to build its 
capacity to respond to citizens' needs.
    Improving security and development in the Caribbean 
directly benefits U.S. interests. The Caribbean Basin Security 
Initiative complements Caribbean efforts to reduce crime and 
violence, strengthen the rule of law, and address the factors 
that put youth and marginalized communities at risk of 
insecurity.
    U.S. counternarcotics assistance complements investments 
made by the Government of Peru and maintains our strong 
partnership in eradication and alternative development to coca 
cultivation.
    I urge the U.S. Congress to fully fund this request for the 
western hemisphere as it advances our national security and 
wisely invests our resources where they can have the most 
significant impact.
    I look forward to your questions.
    And, Senator Kaine, I just wanted to point out there is a 
great group of students from Richmond, Virginia here today at 
the hearing.
    [Mr. Palmieri's prepared statement follows:]


Prepared Statement of Francisco L. Palmieri, Principal Deputy Assistant 
        Secretary of State, Bureau of Western Hemisphere Affairs

    Chairman Rubio, Ranking Member Boxer, and members of the 
subcommittee, thank you for the opportunity to testify on the Fiscal 
Year 2017 foreign assistance request for the Western Hemisphere.
    The administration's approach to the region advances partnerships, 
seeks to strengthen democracy and human rights, improves security and 
strengthens the rule of law, and promotes prosperity and inclusive 
growth for all citizens. U.S. assistance is a critical tool that 
supports these goals.
    In our requests for Central America and Mexico, we seek to address 
the underlying conditions driving migration from Central America 
through Mexico and toward the United States. The request includes 
increases to support Colombia's implementation of an expected peace 
agreement marking the end the hemisphere's longest running conflict. 
The request maintains support for key U.S. partnerships with Peru, 
Haiti, and the Caribbean. The request also supports essential democracy 
and human rights efforts in Cuba and Venezuela.
    The Fiscal Year 2017 request of $1.7 billion includes $750 million 
for the U.S. Strategy for Engagement in Central America (the Strategy) 
and $391 million for the Department and USAID for Colombia. Our request 
targets challenges and opportunities that impact U.S. interests. 
Flexibility in our assistance allows us to achieve the best return on 
investment for the United States. We urge the U.S. Congress to fully 
fund the request for the Western Hemisphere.
    The Department and USAID's FY 2017 $750 million request is part of 
the Administration's $1 billion interagency request in support of the 
Strategy. Central America continues to have high levels of poverty, 
weak institutions, and heightened levels of insecurity, all of which 
have direct implications for the United States.
    The FY 2017 foreign assistance request for the Strategy continues 
support for prosperity, governance, and security, particularly for 
Central America's Northern Triangle, in recognition of the acute 
challenges those countries face. El Salvador faces a skyrocketing 
homicide rate; Guatemala's new government is seeking to capitalize on 
the anti-corruption momentum that led to reform after historic 
elections; and Honduras is taking the first steps to implement its 
anti-impunity mechanism--the OAS-sponsored Mission Against Corruption 
and Impunity in Honduras. Addressing these challenges and achieving 
lasting change will require sustained commitment from the United 
States, the governments of Central America, and the international donor 
community. U.S. assistance through the Strategy complements the 
investments Northern Triangle governments are making through their own 
development plan, the Alliance for Prosperity. They plan to spend $2.6 
billion this year on the plan.
    The Strategy request also includes $305.3 million for the Central 
America Regional Security Initiative (CARSI) to fund models proven to 
improve security and prevent crime and violence. The balance of the 
Strategy request includes support to expand programming to improve 
economic prosperity and governance.
    During the visit of President Santos, President Obama announced a 
new framework for bilateral cooperation in the event of a peace accord: 
Peace Colombia. Peace Colombia will focus U.S. assistance under three 
pillars: consolidating and expanding progress on security and 
counternarcotics while supporting disarmament, demobilization and 
reintegration; expanding state presence and institutions to strengthen 
the rule of law and rural economies, especially in former conflict 
areas; and promoting justice and other essential services for conflict 
victims. The $391.3 million bilateral request will support Colombia's 
implementation of a peace agreement and counter-narcotics. While 
negotiations continue, including on the mechanism for final approval of 
a peace accord, Colombia has taken significant and important steps 
toward a achieving a just and sustainable peace that ends its decades-
long conflict with the FARC. The Government of Colombia has built 
capacity to provide security and services for its people, but continued 
U.S. support will be vital to Colombia's success as it seeks to 
implement a peace accord. In particular, rapid progress to extend 
civilian security and prosperity into more municipalities during the 
critical early post-accord phase will be key.
    U.S. assistance to the government and people of Colombia will help 
bring meaningful justice to victims; extend the rule of law and improve 
government services; promote economic development in former conflict 
areas; and maintain security gains. The request will continue expansion 
of technical assistance to additional municipalities, further 
strengthen justice and security institutions at the national level, 
significantly expand demining efforts, including civilian-military 
coordination and address the counternarcotics threat. Strengthening 
respect for the human rights of all citizens in Colombia is a goal both 
our countries share.
    Our partnership with Mexico remains an important priority for the 
United States and includes a range of issues that benefit both 
countries, including trade and investment, energy and climate 
cooperation, and security. The Merida Initiative continues to provide 
the framework for our bilateral security cooperation at both federal 
and state levels. The $117.1 million Merida request emphasizes 
technical assistance, capacity building, and expands support to 
additional Mexican states, consistent with Mexican government 
priorities, including its transition to an adversarial justice system 
and its southern border strategy. The United States and Mexico continue 
to jointly identify projects of mutual interest that further our shared 
security priorities.
    The FY 2017 request also includes democracy assistance for Cuba and 
Venezuela, where the United States will continue to provide assistance 
to advance universal human rights and support vibrant civil society. 
The request for Cuba continues direct support for civil society. 
Promotion of democratic principles and human rights remains at the core 
of U.S. assistance to Cuba. Assistance for Venezuela supports human 
rights and a diverse civil society.
    The $218 million request for Haiti continues investments in 
infrastructure, agriculture, economic growth, basic education, health, 
expanded governance and democracy activities, and security. Haiti is 
suffering from a destabilized economy, rising food insecurity, drought, 
and public health threats, among other issues. A sustained U.S. 
commitment is essential to build on the past gains of U.S. efforts in 
Haiti and to build the Government of Haiti's capacity to respond to 
citizens' needs for services, promote economic opportunity, and advance 
the rule of law and security.
    Improving security and development in the Caribbean directly 
benefits U.S. interests. The FY 2017 request includes $48.4 million for 
the Caribbean Basin Security Initiative (CBSI) to complement Caribbean 
efforts to reduce crime and violence, strengthen the rule of law, and 
address the factors that put youth and marginalized communities at-risk 
of insecurity. The request focuses on training and professionalization 
within the police, security services, and rule of law institutions, and 
builds on prior year investments. CBSI emphasizes regional cooperation 
with our Caribbean partners, and seeks to increase the capacity of 
Caribbean countries to more effectively work together to define and 
meet current and emerging regional security challenges.
    The $81.1 million bilateral request for Peru supports continued 
counter-narcotics and alternative development cooperation in strong 
partnership with the Peruvian government. Peru remains one of the 
world's largest cocaine producers and the largest source of counterfeit 
U.S. currency. U.S. counter-narcotics assistance complements 
investments made by the government of Peru. The United States 
anticipates continuing this cooperation with the next president of 
Peru, whomever Peruvian voters choose.
    We also continue to maintain and expand important cooperation with 
other countries of the hemisphere, such as Paraguay, Argentina, Chile, 
and Brazil. While bilateral assistance levels to these countries may be 
small, our partnership with these nations is an important tool to 
advancing our shared priorities in the hemisphere, of prosperity, 
democracy and human rights, and security for all.
    I look forward to your questions.


    Senator Kaine. Can I ask are they Maggie Walker students?
    Voices. Yes.
    Senator Kaine. Hey, congratulations on ``We the People!'' 
You guys are fantastic. Two of my boys went to that high 
school.
    Senator Rubio. Secretary Malinowski?

 STATEMENT OF HON. TOMASZ P. MALINOWSKI, ASSISTANT SECRETARY, 
 BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT 
                   OF STATE, WASHINGTON, D.C.

    Mr. Malinowski. Thank you, Senator Rubio, Senator Boxer, 
Senator Kaine. It is a pleasure to be here. I will say a few 
words about our global programs to support people who are 
struggling for advances in democracy and human rights around 
the world.
    And I will start by acknowledging that this is obviously 
not an easy time to be doing this kind of work. It is a time, 
as we can all see from the headlines, when authoritarian 
governments beginning with big powers like Russia and China are 
striking out with great ferocity against freedoms of 
expression, association, and the press. There is the horrible 
war in Syria and the terror of ISIL, the mass migrations of 
refugees, and the fear that all of this insecurity creates even 
in democratic countries with all of the impact on our politics 
that we have seen.
    Now, all of that should disturb us. I do not think it 
should surprise us. After all, freedom has advanced in waves 
over the last few decades. It has been followed by the advances 
in the Internet and the global civil society, which have 
allowed people in just about every closed society in the world 
to know exactly what they are missing and to connect with each 
other and with people around the world to build effective 
movements for social change.
    People often say to me that human rights is a soft issue. I 
think it is the hardest hard power issue there is because its 
advance is a threat to some of the most dangerous people in the 
world. If you are trying to steal an election or to stay in 
office for life or to profit from corruption, then of course 
you are going to be threatened by NGOs and by journalists who 
try to expose those abuses of power. Of course, you are going 
to fight back and you are going to fight hard and you are going 
to fight dirty. And that is what we are facing in many parts of 
the world.
    But as I look around the world, I find that the good guys 
are still winning as many victories as they are losing, 
particularly when we are there to help them. Just in the last 
year, look at the historic elections that took place in Burma, 
in Nigeria, in Sri Lanka, even in Venezuela where the people 
have not won but they were able to manifest their enormous 
desire for change through an election.
    So the lesson I take from that is that if we have patience 
and determination, if we stick with these efforts and with 
these programs, we are going to win more victories than the 
defeats that we face.
    And that is where the funding that you provide my bureau, 
DRL, through our human rights and democracy fund comes in. It 
is not a lot of money. It is about $85 million this year. We 
like to think of it as our venture capital fund for freedom. We 
are using it to get news, knowledge, and even entertainment 
into North Korea, an effort that we know is changing minds and 
awakening expectations in the most closed society on earth.
    We are using it to support the legal defense of activists 
and dissidents in multiple countries where they are being 
persecuted.
    We are using it to support former political prisoners in 
Burma so that they can contribute to building democracy there 
and to fight the religious hatred that threatens their 
democracy.
    We are using it to develop and deploy cutting-edge 
technologies that break through China's great firewall and to 
protect activists in dozens of countries from cyber attacks and 
cyber intrusions.
    We are using it to help organizations defending freedom of 
expression in Latin America. One of our programs recently 
supported a campaign that saved Ecuador's number one press 
freedom watchdog.
    We are using it to keep civil society organizations alive 
in Syria where groups we funded have negotiated ceasefires, 
documented the crimes of the Assad regime, and organized 
communities to stand up to ISIL and Al Nusra.
    We are using it to prevent atrocities, for example, setting 
up early warning systems in remote areas of the eastern Congo 
so that people there can call for help when they are threatened 
by armed groups and in Nigeria, to protect people from Boko 
Haram.
    We are using it to help women who have escaped ISIL 
captivity in northern Iraq.
    We are using it to support organizations that try to build 
trust between Muslim communities and the police in eastern 
Kenya so that they can unite against Al Shabaab.
    We are using it to get help to people who need it faster 
than I think any other agency in the U.S. Government. Our 
emergency grant programs can get small but sometimes lifesaving 
amounts of money to activists and NGO's under threat in as 
little as 48 hours. We are using these programs right now to 
provide protection and assistance to some of the bloggers and 
others who have been threatened in Bangladesh, one of many 
examples.
    And to save the best for last, from a fiscal standpoint at 
least, let me say that we also use it to support the work of 
NGO's and journalists that expose corruption around the world. 
This work has contributed to almost $3 billion in confiscations 
and fines, including over $1 billion in Justice Department 
seizures, which is a petty good investment for your DRL funds I 
would say.
    So I want to thank you for the very strong support that 
this committee and the Congress has shown our programs over the 
years. And I pledge to you that with continued support, we will 
continue to do work that I think not only does our country 
proud but that makes us safer, more secure, stronger in the 
long run. Thank you very much.
    [Mr. Malinowski's prepared statement follows:]


      Prepared Statement of Tom Malinowski, Assistant Secretary, 
                Democracy, Human Rights and Labor Bureau

    Chairman Rubio, Ranking Member Boxer and members of the committee, 
thank you for this opportunity to describe how the Democracy, Human 
Rights and Labor Bureau (DRL) works to promote human rights and 
fundamental freedoms in closed societies. We are grateful for the 
continued encouragement and support from this committee.
    As you know, Secretary Kerry recently released the annual Country 
Reports on Human Rights Practices, which provides an assessment of 
human rights conditions in countries around the world. When releasing 
the report, Secretary Kerry noted that we have seen important 
democratic gains in such countries as Vietnam, Tunisia, Nigeria, Sri 
Lanka, and Burma, though in each there are challenges that still need 
to be overcome. He also pointed out, however, that in many countries in 
the world, there are still major challenges. Seventy-two countries saw 
increased persecution of civil society, crackdowns on freedom of 
expression, and restrictions on the rule of law. Members of religious 
minorities are persecuted for their faith. Human rights activists are 
harassed, detained, abducted, and even killed for speaking out. 
Physical threats by state and non-state actors against journalists and 
editors reporting on corruption and other abuses are on the rise.
    As daunting as these challenges are, countless human rights 
defenders and civil society organizations are courageously working to 
push back. We must continue to support them. DRL supports these efforts 
in large part through the Human Rights and Democracy Fund (HRDF) within 
the Democracy Fund account. HRDF has grown from $8 million in FY 1998 
to $88.5 million in FY 2016 thanks to the generous support of Congress, 
including this committee. Our annual global HRDF budget request is not 
broken down by region. That is deliberate. DRL reacts to target 
democratic opportunities and challenges as they arise. By looking at 
our funding historically, you can see that we do operate in closed or 
restricted societies in all regions of the world. This past year we 
managed nearly 350 grants totaling almost $500 million that benefit 
civil society and activists around the world in their struggle for 
freedom and dignity.
    DRL has adjusted operating procedures and applied lessons-learned 
to our approach in light of ongoing repression of civil society 
worldwide. Doing so has enabled us to continue our work even in the 
least hospitable environments. We employ methods aimed at protecting 
the identity of our beneficiaries. Our programs are overt, are notified 
to Congress, and we acknowledge them publicly. But what we try to avoid 
is doing anything that would help an authoritarian government take 
repressive actions against or punish our partners or beneficiaries.
    Our key priorities in FY17 include work in authoritarian states 
such as Russia and China, and in transitioning countries such as Burma 
and Tunisia. We promote freedom of religion and conscience, fight 
corruption and cronyism, work to break strangleholds on access to free 
and credible information, combat threats against labor activists and 
journalists, promote worker rights and inclusive economic growth, 
respond to gender-based violence, promote citizen participation in 
electoral processes, and address the shrinking space for civil society. 
These initiatives are an important tool to promote long-term stability.
    The majority of DRL programming is implemented in repressive, 
authoritarian, or transitioning countries, including where the United 
States has no diplomatic presence. The HRDF functions like a ``venture 
capital fund for freedom.'' DRL administers programs that enable us to 
be flexible, adaptable, and responsive to complex and changing 
situations on the ground.
    Thirty governments and private sector donors now help to fund our 
human rights initiatives, including aiding embattled frontline NGOs, 
countering cyber-attacks on activists, and assisting vulnerable 
populations. These unique partnerships not only expand available 
funding, but generate broader, coordinated diplomatic support for 
activists. We also make sure that our programs are well coordinated 
with USAID and NED. USAID participates in DRL's proposal review panels.
    Some of our key programming efforts include:
Internet Freedom
    One of our major HRDF programming areas is Internet freedom. 
Governments in countries such as China, Cuba, and Russia devise new 
ways of tracking and blocking online expression. In response, we 
support programs to assist those seeking to exercise their rights 
online with the tools and capacity to communicate securely and freely 
with one another and the outside world.
    Since 2008, DRL has programmed over $105 million in grants that 
defend and promote a free and open Internet worldwide. These Internet 
freedom programs have helped millions around the world. The battle for 
Internet Freedom is now being waged on a global stage between those who 
support an open Internet and those who see it as a tool of control. In 
recent months, the cold war between these two sides has reached a 
critical tipping point. Those who oppose a free and open Internet are 
devoting extraordinary technical and financial resources to further 
exert their control over cyberspace.
    DRL has developed a high impact, low cost approach to increase the 
free flow of information and to deny a government's ability to track, 
censor, and disrupt communications. We support the development and 
distribution of technology that provides uncensored access to content, 
tools that increase the digital security of activists, advocacy 
resources for human rights defenders, and research on where and how 
Internet controls are being applied. This approach also helps to hold 
accountable those who perpetrate and facilitate abusive activities.
Supporting Marginalized Populations
    DRL has programs that provide direct assistance to members of 
religious minorities, women, persons with disabilities, and the LGBTI 
community.
    In Nigeria, DRL supported the creation of a network of religious 
leaders from among the Catholic, Protestant, and Muslim communities who 
collaborate to encourage peaceful, interfaith coexistence and 
reconciliation. Through media campaigns, trainings, performances, and 
town hall events, the program has empowered thousands of community 
members to become active leaders with knowledge of conflict de-
escalation strategies. As a result, former partisans with a history of 
engaging in sectarian violence have become peer educators and advocates 
for intercommunal tolerance. These young men and women have documented 
cases in which their action has prevented the kind of violent 
interactions that lead to loss of life, community instability, and 
reprisal attacks.
    We also support efforts to combat anti-Semitism. For example, our 
funding supported coalition building and advocacy training with 
Hungarian NGOs to create a consolidated voice in advocating against 
anti-Semitism. This coalition was partof a broad, successful effort to 
oppose the erection of a statue to honor Balint Homan (the notorious 
anti-Semitic minister of religion and education, who co-sponsored 
legislation that stripped Hungarian Jews of their citizenship rights 
leading to mass deportation to Auschwitz). They continue the fight 
against anti-Semitism and all forms of hate.
    The Gender Based Violence Emergency Response and Protection 
Initiative (GBVI) provides urgent assistance to survivors of egregious 
forms of gender-based violence. It helps provide critical medical, 
psychological, and social support as well as shelter and legal 
assistance. The Initiative also supports integrated training for 
governments, the judiciary, and key elements of civil society in 
implementing laws that address GBV. In 2016, trainings will be 
conducted in Thailand, the Philippines, South Africa, and Turkey.
    In response to the kidnapping of 276 girls by Boko Haram, through 
the GBVI we funded an Early Warning System in Northern Nigeria, which 
uses communications technology to reduce response times to rebel 
attacks on villages from several days or weeks to within hours of 
threats and outbreaks. In Iraq, the GBVI provided emergency assistance, 
including medical, psychosocial support, and livelihood assistance to 
145 survivors, including Yezidi, that were formerly held captive by 
Da'esh.
    Our work through the Global Equality Fund is also supported by 20 
like-minded governments and private sector partners to support civil 
society organizations promoting the human rights of LGBTI persons 
around the world. This support has helped over 120 LGBTI human rights 
defenders who are under threat be able to continue their courageous 
work. Nearly 500 activists received training to enhance their ability 
to respond to the violence affecting LGBTI communities.
Rapid Response
    DRL has the ability to respond to issues in a matter of days. We 
have vastly expanded our capacity to assist threatened human rights 
activists and organizations by providing them small infusions of 
support--to allow them to continue their work in safety. Emergency 
assistance to human rights activists attacked or under threat includes 
paying the costs of temporary relocation, installation of surveillance 
cameras, and medical, legal, psychosocial, and other support services. 
Since 2007, DRL rapid response/emergency assistance programs have 
assisted more than 3,300 people and organizations in more than 98 
countries.
    Five years ago we launched the Lifeline: Embattled Civil Society 
Organizations Assistance Fund to offer emergency grants to civil 
society organizations advancing human rights. Sixteen other governments 
and two foundations have since provided support for the Lifeline Fund. 
It has provided emergency assistance to more than 800 civil society 
organizations in 88 countries and territories. For example, in Kunduz, 
Afghanistan, the Taliban specifically targeted independent radio 
stations. The fund provided emergency assistance to stations that had 
been looted and destroyed, allowing almost ten stations to get back on 
the air and continue their broadcasts.
Anti-Corruption
    People around the globe demand greater governmental transparency 
and accountability. In partnership with USAID, DRL supports the Open 
Government Partnership, which is a global initiative that aims to 
secure concrete commitments from governments to promote transparency, 
empower citizens, fight corruption, and harness new technologies to 
strengthen governance. Since 2011, OGP has grown from eight countries 
to 69, including Sri Lanka and Tunisia where new governments are 
developing national action plans in partnership with civil society to 
advance public sector integrity and key reforms.
    DRL is also supporting transparency and anti-corruption watchdogs 
and cross-border investigative reporting that exposes emblematic cases 
of corruption. Our programs operate at both the national and the 
regional levels, connecting activists and journalists to facilitate the 
flow of best practices.
    In Central America, a regional program trains journalists' to 
investigate failures of government accountability and instances of 
corruption. Journalists who participated in this program went on to 
expose embezzlement and had their stories picked up by several media 
organizations.
    In Pakistan, we support the efforts of courageous journalists who 
work in the tribal areas, where the most extreme militants are active. 
Our program has trained journalists on how to conduct credible national 
security investigations, while at the same time protecting their 
personal security. In addition, we have been able to help local human 
rights organizations expand their documentation of egregious human 
rights abuses by security forces. As a result of our efforts, local 
efforts to hold Pakistan security forces accountable for human rights 
violations stand on firmer ground.
Transitional Justice & Atrocity Prevention
    Around the world, legacies of atrocities cast a shadow on 
transitions from repressive regimes to participatory and democratic 
forms of governance. As part of the Department's commitment to 
Presidential Study Directive 10 and the interagency efforts on Atrocity 
Prevention, DRL has developed a number of tools to contribute to U.S. 
efforts in this regard. To address impunity for past atrocities, DRL 
created the Global Consortium for Justice, Truth, and Reconciliation 
(the Consortium). The Consortium creates programs to address local 
needs. For example, a $1.6 million project enables Iraqi civil society 
to document human rights violations and abuses and violations of 
international humanitarian law committed by all sides of the current 
conflict with Da'esh. It establishes protocols and a repository that 
collects, organizes, preserves, and analyzes evidence gathered to serve 
a wide range of future transitional justice purposes. It also connects 
local documentation efforts with the Iraqi judiciary and traditional 
justice practices. To date, 29 representatives from Iraqi civil society 
organizations participating in the project have collected over 600 
narratives from victims and witnesses of atrocities committed in Iraq. 
The Consortium can also respond rapidly to emerging needs in post-
conflict contexts. For example, partners have responded to requests for 
rapid technical assistance to address issues of missing and disappeared 
persons in Ukraine and now Colombia.
    DRL's grantee focusing on mass graves excavation has designed a 
refresher training course to strengthen the ability of partners from 
the Iraqi Ministry of Martyrs and Anfal Affairs, the Medico-Legal 
Institutes, criminal investigative and judicial agencies to recover and 
process human remains in accordance with international standards. This 
training package has been delivered in Erbil, allowing the relevant 
Kurdistan Regional Government officials to deploy to Sinjar, where many 
of Da'esh's atrocities took place, and begin work. DRL grantee staff 
will mentor and support the process.
    In the eastern Democratic Republic of the Congo (DRC), a DRL-
supported Early Warning System received reports that helped foil rebel 
attacks on villages that are home to approximately 150,000 people. The 
early warning system demonstrates how communications technology can 
reduce response times from several days or weeks to within hours of 
threats. It can also ensure that respondersdeliver coordinated and 
comprehensive assistance. The provincial government in this area of the 
DRC is now funding and managing the system on its own.
China
    In China, the Communist Party's monopoly on power remains absolute. 
Growing numbers of people seek justice, an accountable and transparent 
government, and the ability to express themselves freely and to 
peacefully assemble and associate. The Chinese government has expanded 
its crackdown on human rights lawyers and their associates, civil 
society organizations and activists, friends and relatives of 
activists, everyday people expressing themselves online or seeking to 
practice their faith free of state control, and even foreigners and 
foreign organizations working on human rights issues. In Tibetan and 
Uighur areas, authorities have increased restrictions on fundamental 
freedoms.
    DRL funds targeted projects that bolster civil society 
organizations seeking to improve respect for human rights in China. For 
example, DRL programs build the capacity of public interest lawyers. 
Other programs work to protect persons belonging to religious and 
ethnic minorities and persons with disabilities, and those pressing for 
government adherence to international human rights. Additionally, DRL 
programs in China strengthen the advocacy skills of grassroots civil 
society groups, and take advantage of technological developments to 
enable greater freedom of expression.
Russia
    The United States' commitment to engaging Russian civil society 
remains firm despite the enactment of laws and practices in Russia that 
restrict fundamental freedoms. Although the Russian government imposed 
restrictions on civil society organizations receiving international 
support, Russian organizations continue to express a desire to engage 
with the United States. As a result, the Administration is developing 
new ways to increase direct interactions between Russians and 
Americans. These include establishing peer-to-peer and other regional 
programs that support exchanges of best practices on civil society 
development. We remain committed to supporting the people of Russia in 
their pursuit of democracy, justice, and human rights, including 
fighting corruption and creating a more pluralistic and participatory 
society with viable, independent, and accountable institutions.
    As part of our government's efforts to counter Russian intervention 
in Eastern Europe, DRL programs assisted people in the southern and 
eastern parts of Ukraine by facilitating their access to objective and 
accurate information about Russia's occupation of Crimea, Russian 
aggression in eastern Ukraine, attempts to destabilize the new 
Ukrainian government, and the elections. Over 200 Ukrainian and foreign 
journalists working on Crimea had better access to impartial and 
accurate information about the situation in the peninsula. They also 
had a safer workplace for preparing their materials and filing them to 
their editors. In addition, 59 media outlets in the eastern and 
southern regions received small grants and produced 857 media reports; 
105 journalists received needs assessments and digital security 
training to allow them to continue their work safely and securely.
Burma
    The United States policy of principled engagement in Burma 
encouraged leaders to undertake democratic reforms. Since May 2013, DRL 
support has enabled the Assistance Association of Political Prisoners 
to provide mental health counseling to more than 1,000 released 
political prisoners, family members, and victims of torture in Burma. 
Helping these courageous people reintegrate into Burmese society has 
furthered their continued participation in Burma's political 
transition. A strong civil society must serve as Burma's moral compass 
as the country confronts challenges of bigotry and prejudice. These 
lessons apply to other authoritarian environments. The dividends from 
our assistance may not show immediately, but can deliver meaningful 
long-term change.
Tunisia
    During my trip to Tunisia last year, one of the key needs my 
interlocutors identified was strengthening the parliament. 
Parliamentarians, who have no staff, sought access to the resources and 
expertise they need to draft and review legislation. We are in the 
process of establishing a new program to provide members of parliament 
non-partisan and credible resources to further democratic reforms, 
including in the areas of human rights and rule of law. The program 
will ensure that parliamentarians have access to a library of country-
specific materials, including fact sheets, briefing materials, research 
papers, statistical profiles, and other forms of short, written 
analyses, to enhance their ability to effectively engage on key 
reforms.
    The 2015 Nobel Peace Prize was awarded to the Tunisian National 
Dialogue Quartet, comprised of the Tunisian General Labor Union (UGTT), 
the Tunisian Confederation of Industry, Trade and Handicrafts, the 
Tunisian Human Rights League, and the Tunisian Order of Lawyers. The 
award cited its ``decisive contribution to the building of a 
pluralistic democracy in Tunisia in the wake of the Jasmine Revolution 
of 2011.'' The Quartet's work demonstrates the important role trade 
unions can play in helping to build and maintain democratic 
institutions. The labor movement in Tunisia, and UGTT in particular, 
played a critical role moving Tunisia from dictatorship to democracy. 
It effectively promoted and mediated peaceful dialogue between 
citizens, political parties, and authorities. DRL supported the UGTT's 
Women's Committee campaign and its efforts to increase women's 
representation in decision making union structures. UGTT women 
activists played a prominent role in get out the vote campaigns for the 
national elections. A current DRL supported program in Tunisia aims to 
formalize Tunisia's large informal sector so that workers might access 
decent work and government-mandated protections.
Western Hemisphere
    The Western Hemisphere presents new opportunities as well as 
longstanding challenges. Throughout the region, despite restrictions on 
freedom of expression and association, citizens have used the 
democratic process to change the status quo. The people of Argentina 
chose a new government committed to supporting human rights and 
democracy in the hemisphere. We look forward to working with the new 
government of Argentina on the most pressing issues in the region. The 
Venezuelan people used their parliamentary elections to overwhelmingly 
reject the course their ruling party had set. We urge the Maduro 
administration to cease its efforts to restrict the powers of the 
National Assembly and instead to enter into a dialogue with it. The 
release of political prisoners would be a welcome preliminary step. The 
people of Bolivia voted to reject removing term limits from the 
constitution. We believe these democratic manifestations have been 
possible in part due to the strong support the United States has shown 
for those in each of these countries who have worked to counter efforts 
to undermine democratic institutions. And that effort must continue, 
including in Ecuador, where criminalizing dissent is a frequent 
strategy for silencing opposition.
    Across the hemisphere, people have also exercised their right to 
peacefully assemble and demand an end to corruption and impunity. In 
Guatemala, public outcry supported the efforts of the Public Ministry 
and the Commission to Combat Impunity in Guatemala that led to criminal 
corruption charges against the now former president and vice president. 
Current corruption and impunity challenges in Guatemala are 
intrinsically linked to past human rights violations and abuses. A DRL 
program supported the identification of 97 victims of Guatemalan 
atrocities. This information was used as principal evidence in the 
unprecedented arrest of 14 military officers for crimes against 
humanity, including those involving enforced disappearance, murder, and 
torture.
    DRL strengthens the capacity of local organizations to record and 
report threats and violence against human rights activists, including 
labor leaders. In Guatemala and Honduras, DRL programs have bolstered 
national networks of labor unions, rural worker organizations, and non-
governmental organizations. This has generated coordinated mechanisms 
for identifying violent incidents and demanding government responses. A 
DRL-supported project in Guatemala is assisting a major coffee company 
in mapping its supply chain. After conducting over 300 interviews of 
internal migrant workers, the project implementer is providing the 
company with increased visibility into the coffee supply chain, its 
associated workforce, and recruitment abuses by tagging ``red flags'' 
that will be linked to specific labor brokers and suppliers.
    We are also committed to supporting the people of Cuba as they seek 
the basic freedoms that their government denies. During his visit to 
Cuba in March, President Obama spoke openly to Cubans about the 
importance of freedoms of expression and peaceful assembly. He called 
for free and fair elections, and pledged U.S. support for these aims. 
He also met with many brave activists who are struggling to promote 
democracy and human rights on the island. He emphasized that Cuba's 
future is for the Cuban people to design.
    Consistent with this message, DRL programs in Cuba respond to the 
needs and wishes of the Cuban people, by promoting human rights, 
facilitating the flow of uncensored information, and strengthening 
independent civil society. Cuban government restrictions on civil and 
political rights increase the degree of difficulty of program 
implementation. But despite these challenges, DRL has been able to 
sustain consistent support to Cuban civil society for the past 10 
years, and we will continue to do so with your support. As the 
President has made clear our new approach to Cuba is not based on the 
premise that the human rights situation there has improved; rather it 
is based on the belief that we will be better able to support the 
demands of the Cuban people if we keep the focus on the Cuban 
government's policies rather than allowing the regime to blame American 
policies for its problems.
Conclusion
    When taking stock of the challenges at hand, some fear democracy is 
in retreat. I would argue, however, that these challenges are a 
reaction to the rising demands of people from every culture and region 
for governments that answer to them.
    Governments that protect human rights and fundamental freedoms are 
more stable, successful, and secure than those that do not. American 
workers are better off when their counterparts abroad can stand up for 
their basic rights. The United States finds its strongest partners in 
governments that act in the broad interests of their own people, rather 
than the narrow interests of the few.
    We must continue supporting civil society and pressing governments 
to halt arbitrary detentions and uphold freedom of expression.
    This is the work of decades, not days. But, we must also seize 
opportunities to make an immediate difference for democracies under 
threat or in countries in transition. As the 2015 National Security 
Strategy affirms, ``America is uniquely situated--and routinely 
expected--to support peaceful democratic change.'' Careful stewardship 
of the resources allocated to DRL enables us to advance U.S. foreign 
policy priorities in this regard, and we stand ready to do our part.


    Senator Rubio. Thank you.
    Secretary Malinowski, my first question is on the issue of 
human rights and the President's visit last week to Saudi 
Arabia. There are in particular two cases: Raif Badawi and 
Waleed Abu Al-Khair. Do you know if either one of these cases 
were raised in those meetings, and what are we doing to 
pressure? There was a bipartisan letter--a group of Senators--
last week urging the President to make human rights a priority 
during his meeting with the king. Were these cases raised 
during that meeting, and if not, what else are we doing 
regarding these two people that are jailed unjustly?
    Mr. Malinowski. These cases have been raised, including at 
the very highest levels, more than once with the Saudi 
Government. And I know that the President in his meeting with 
the king had an extensive conversation about human rights in 
Saudi Arabia. I think you may have seen some stories about how 
intensive that conversation was.
    We will, I can pledge to you, continue to raise those cases 
and others both privately with the Saudi Government and 
publicly where appropriate until people who are unjustly 
detained for peaceful expression, as these individuals are, are 
released.
    Senator Rubio. Recently the administration made its 
countries of particular concern designations. Notably absent 
from the list was Pakistan. A recent example of religious 
intolerance was the horrific Easter attack in Lahore. What 
would have to happen in your view for Pakistan to be designated 
as a country of particular concern?
    Mr. Malinowski. I think there are a lot of tough calls when 
the Secretary makes these decisions. I think the test is not 
simply whether there are significant abuses of religious 
freedom in a particular country but whether we feel that there 
is a commitment within the government to try to something about 
it. And it is an evaluation that the Secretary makes on a case-
by-case basis. We added a country this year. We added 
Tajikistan because after a lot of diplomatic efforts with the 
government, we were simply not getting a sufficient or 
acceptable response from that government to our requests for 
action on certain issues. With respect to Pakistan, the 
Secretary made the judgment that the government is committed to 
trying to deal with this violence.
    Senator Rubio. The Secretary recently made his genocide 
designation. What steps has the Department taken to prioritize 
especially vulnerable communities like the ancient Christian or 
Yazidi communities which have found themselves in the 
crosshairs of ISIS?
    Mr. Malinowski. This has been a burning priority for many 
of us since this conflict with ISIL began. I was in northern 
Iraq about a month ago, Mr. Chairman. I visited the main Yazidi 
religious shrine in Lalish just a few miles north of the front 
line with ISIL. As I mentioned in my testimony, we have a lot 
of programs that we are funding to provide direct support, not 
just humanitarian assistance, but also psychosocial support for 
people who have faced violence, escaped captivity on the part 
of ISIL. As you know, the first shots that we fired in this war 
to liberate territory in Iraq from ISIL were fired to protect 
the Yazidi people on Mount Sinjar when they were surrounded by 
the terrorists. And I think that this is something that we need 
to think about with particular focus in the next stage of the 
military campaign as it focuses more closely on Mosul and the 
Ninawa plain.
    I think many, many Members of Congress rightly urged us to 
look at the genocide determination and to call what was 
happening to the Christians, to the Yazidis, to other 
minorities by its name, but using the terminology is the easy 
part. The important thing is that we find a way to liberate 
these historical home lands of these people in a way that not 
only defeats ISIL, not only drives away the terrorists, but 
that enables these communities to go home with dignity and with 
security. And frankly, that is going to take resources, and I 
think we are going to be working with you and reaching out to 
you to talk about what it is going to take to do this in the 
right way so those people can go home.
    Senator Rubio. When you say it takes resources, what 
additional budget resources are necessary to----
    Mr. Malinowski. I am probably not the best person to ask 
what the total cost of the----
    Senator Rubio. What kind of programs?
    Mr. Malinowski. It is going to require support for, in the 
short term, IDPs. For example, as Mosul is squeezed, there will 
almost certainly be hundreds of thousands of people fleeing 
that city. There are 2 million people in Mosul, as you know. 
Those people are going to need to be cared for somewhere by 
somebody. It is going to require stabilization funds after the 
liberation of that area for rebuilding, for restoring 
institutions of justice. It is going to require training and 
support for local security forces, including I would say some 
of the local security forces that communities, including the 
Christian communities, have been forming in that area. We are 
already beginning to work with those folks. But I think if you 
look at the various appeals, including the U.N. appeal just for 
the humanitarian support, you will find that a lot more is 
needed.
    Senator Rubio. Secretary Palmieri, last year there were 
over 8,600 documented political arrests in Cuba. Cuba remains 
the only country in the Americas to be classified as not free 
by Freedom House, and groups such as Human Rights Watch provide 
details on the myriad of ways that basic rights and liberties 
are still not respected in Cuba. In light of all of this, why 
then would the administration request a reduction from the $20 
million that is provided annually in recent years in funding to 
democracy assistance for the Cuban people?
    Mr. Palmieri. Thank you for the question, Senator.
    The fiscal year 2017 request seeks to establish a 
sustainable level of democracy support in Cuba. We believe the 
human rights situation there merits continued attention, and 
our assistance is designed to work with independent civil 
society, promote democratic values, human rights, and advance 
fundamental freedoms. The level of funding is one that we 
believe we can execute on the ground there.
    Senator Rubio. So you are saying that we do not think we 
can spend $20 million. We cannot find programs to fund with the 
$20 million. So that is why you are asking for less? It is very 
unusual for a government agency to ask for less. That is why I 
am bringing up this point. Why would we ask for less?
    Mr. Palmieri. We believe that is the sustainable level of 
programming that we can carry out inside Cuba.
    Senator Rubio. But what does that mean ``sustainable''? The 
amount you can get funded in the future or sustainable like 
that is how much you can handle?
    Mr. Palmieri. It is a combination of the amount of money 
that we believe can be absorbed inside Cuba at this time.
    Senator Rubio. That was not the feeling 2 years ago? Is 
that a change in position? Because a couple years ago, the 
funding was at $20 million. So what happened with the 
additional money that was appropriated in those past years?
    Mr. Palmieri. I will have to get back to you on what 
happened to the previous funding, sir.
    Senator Rubio. Well, my point is you are saying that you do 
not believe the island can sustain $20 million of spending on 
democracy programs, there is not enough precedent to fund or 
that we can sustain $20 million. So that is why you are asking 
for less. But in past years, there has been more money. Are you 
saying that money was not spent? If you are spending less this 
year than you were in the past, something that you funded in 
the past is not getting funded now. Is that not correct?
    Mr. Palmieri. I am sorry, sir.
    Mr. Malinowski. Yes, we have spent slightly more than $15 
million in the past.
    I mean, I think what we face every time we make these 
requests, to be honest, is overall, as you well know, a 
diminishing pool of resources to do almost everything that we 
want to do around the world. The way I look at this, Senator 
Rubio, obviously, as the head of the Democracy and Human Rights 
Bureau, I always welcome as much spending as we can do in any 
country in the world that needs it. I have got, as I have 
mentioned, about $85 million globally for every single country, 
every single continent in the world to spend on democracy and 
human rights programs. And I could probably spend more in every 
single country where we are doing this kind of work. Cuba at 
this point, I think next to Iraq, is the country that receives 
the most human rights and democracy support of any country in 
the world. And it merits it, given the challenges, given the 
importance that this issue has to the United States.
    But I sometimes look at it and say, gosh, I would love to 
have more. Sometimes I look at it and say, you know, I would 
rather have more than $200,000 for a country in Africa or a 
country in Asia where that is all we have got to deal with 
these issues. So those are some of the choices I think----
    Senator Rubio. So this is basically a part of a 
reallocation of resources to be spent somewhere else within a 
limited budget.
    Mr. Malinowski. I think we have a very limited budget, I 
would say too far limited for democracy and governance around 
the world. You know the challenges that we have had overall in 
trying to maintain an adequate level of spending for democracy 
and governance in a lot of places that we all care about 
greatly. Cuba is one of them. So it is certainly not a 
reallocation away from supporting democracy and human rights, 
but we have hard choices to make within the limited amount of 
money that we have for that. Obviously, I would love us to be 
able to do more in a lot of places.
    Senator Rubio. Senator Boxer?
    Senator Boxer. Well, I would like you to be able to do 
more. I watched you do it in the nonprofit sector, and I think 
you could do it here as well.
    I want to get back to the Zika virus because I think this 
is an absolute threat to this country. So, Ms. Hogan, I am 
going to direct this question to you. There is no doubt the 
Zika virus is a public health emergency. It has infected 
thousands people in the western hemisphere, including over 300 
Americans. It causes severe birth defects in newborns, 
including brain damage and blindness. In adults, it is linked 
to Guillain-Barre syndrome which can cause paralysis.
    In the last few months, the World Health Organization 
described the Zika threat as, quote, one of alarming 
proportions. And earlier this month, an official from the 
Centers for Disease Control described the virus as, quote, 
scarier than we originally thought. Unquote.
    We also have learned that Zika is sexually transmitted.
    Now, in our country, the most endangered Americans are 
those who live in the Gulf States. It is clear that these types 
of epidemics know no boundaries. So we have to respond quickly.
    In February, the President requested a $1.9 billion 
emergency supplemental for Zika. A portion of this request 
would go to USAID to help fight the spread of the virus within 
the western hemisphere. Unfortunately and sadly and 
inexplicably, Congress has not provided the administration with 
the funding it needs to respond to this outbreak. And those who 
oppose it are going to be held accountable. It is as simple as 
that.
    Time makes a big difference in these kind of epidemics. The 
longer we wait, the more people get infected, the more lives 
are painfully altered forever. We have seen it. It is coming as 
sure as I am looking at you.
    So I am asking you with your limited funds what efforts is 
USAID already undertaking to combat the spread of the Zika 
virus in the western hemisphere.
    I am told by some of my Republican friends, some of whom 
support this, a lot of whom do not, take the money from Ebola. 
Well, swell. That is a whole other problem, and that is not the 
answer.
    So I want to know what you are doing with your limited 
funds and do you agree we have a great need for the funds the 
President asked for.
    Ms. Hogan. Thank you for that question and we share your 
deep concern about the potential impact of Zika in the region, 
including in the United States.
    As you know, in addition to the $1.8 billion supplemental 
that the President has requested, he has also sent forward a CN 
to repurpose $295 million from our Ebola account to deal with 
immediate needs. Thus far, USAID has conducted assessments 
around the region, particularly in those countries where health 
systems are weak, and we have developed a strategy which we are 
ready to launch. Our strategy would include social behavior 
change, communications, vector control, investing in new 
diagnostic techniques, investing in research and development.
    Senator Boxer. Excuse me for interrupting. Can we diagnose 
it? Is it easy to find out if someone is carrying the virus?
    Ms. Hogan. CDC is the expert in this area, but I know that 
they can diagnose it. To do it more rapidly and more 
inexpensively is what we are hoping to bring about through a 
grant challenge that USAID just issued last week to the private 
sector for $30 million to invest in innovative technologies and 
innovative approaches to do the kinds of things that I just 
mentioned in terms of diagnostics.
    Senator Boxer. Okay. So to sum it up, you are doing 
everything you can with limited resources, but it is a race 
against time. You know, Mr. Chairman, from my understanding, we 
have so much--and I know you are supporting taking action on 
this. I am so grateful to you. We do not even know how long the 
virus stays in your system, and since it is sexually 
transmitted, you know, couples planning to have children--they 
better know the situation, whether the man is infected and can 
pass it on. It is very problematical.
    I raise it here because it is one of those unusual 
situations where there is a direct impact for Americans that is 
going on in another part of the world. We have got to connect 
the dots. This is not some foreign policy matter. This is a 
health emergency. And I will be continuing to speak about it.
    Mr. Malinowski, over the last 14 years, Afghan women have 
made progress in education, health, and political 
representation. I have been engaged every time I can in meeting 
with the women. And while President Ghani is a strong partner 
on women's issues, it is clear that women continue to face 
grave barriers, especially in regard to their legal rights.
    Last year, for instance, a mob brutally killed a woman 
falsely accused of burning the Koran. This horrific murder 
happened in central Kabul in broad daylight in the presence of 
security officials. Disturbingly, the Afghan supreme court 
recently vacated the death sentences of four men charged with 
this murder and reduced the sentences of nine others. This is 
but one example of ways in which Afghanistan's legal system 
continues to fail Afghan women.
    How will the U.S. continue to work with Afghanistan to 
bolster the legal rights of Afghan women?
    Mr. Malinowski. Well, thank you for that question. I am 
sure I will not do justice to every aspect of it or everything 
that we are doing.
    With respect to the Afghan judiciary, one of the steps that 
President Ghani intended to take was to appoint the first woman 
or women to the Afghan supreme court. When I saw him last, I 
urged him to do that. He said that he was committed to it. He 
has been unsuccessful. His appointments there have been 
blocked.
    Senator Boxer. Well, wait a minute. Where are they learning 
how to block appointments to the supreme court?
    Mr. Malinowski. Their system I think----
    Senator Boxer. I am only kidding.
    Mr. Malinowski. Oh, sorry.
    Senator Boxer. That was a bad joke.
    Mr. Malinowski. I was heading toward the same joke.
    Senator Boxer. Okay. Never mind.
    Mr. Malinowski. I am resisting all kinds of ways of----
    Senator Boxer. Resist.
    Mr. Malinowski. At a lower level, but at a very important 
level, we have done a lot of work with local justice 
institutions in Afghanistan through training and other 
assistance programs to help them implement the new violence 
against women law, which has been one important advance in that 
country.
    We have a program out of my bureau which supports sending 
talented young Afghan women to a university for women in 
Bangladesh. We have established a really interesting and 
important program there. And the women who graduate from that 
program often then go back to Afghanistan and enter government, 
enter the justice system. So at a grassroots level, just 
encouraging more and more women to take up positions in the 
justice system has been an important priority for our 
programming.
    Senator Boxer. Thank you.
    Senator Rubio. Senator Gardner?
    Senator Gardner. Thank you to all the witnesses for your 
time and testimony today.
    Thank you, Mr. Chairman, for holding this hearing.
    Just a couple questions for you, Mr. Malinowski. I wanted 
to start with North Korea, if I could. The legislation that the 
Senate and House passed, signed by the President just a couple 
months ago requires designation of human rights violators in 
North Korea, an investigation of those human rights violators.
    Our of curiosity, how are those investigations going, and 
do you have any intention of naming people under the 
legislation passed by Congress? And if so, who and when?
    Mr. Malinowski. We are working very hard on identifying 
people. I have often spoken publicly about this. I think one of 
the most important things that we can do for human rights in 
North Korea is to send a message inside the system there to the 
mid-level people, to the camp commanders, to the people in the 
public security ministries who are responsible for the worst 
abuses that, guess what, we know who you are. We know your 
names. And some day when there is change on the Korean 
peninsula, you are going to be on a list that you do not want 
to be on if you are associated with those abuses.
    Figuring out who those people are is not always easy for 
reasons that I am sure you will understand. We are working with 
our partners, including with the South Koreans, to try to 
figure this out. We have made some progress.
    Yes, we do intend to use the sanctions authority. In fact, 
as you know, the President's executive order before the 
legislation passed created a human rights sanctions authority 
for the same purpose. I cannot tell you who because we are not 
there yet. The ``when,'' hopefully as soon as possible.
    Senator Gardner. Will you be looking at the highest levels 
of government, though, for these sanctions?
    Mr. Malinowski. We will be. We can look at individuals. We 
can also look at ministries. I will tell you my preference in 
terms of effectiveness, because I do not want to just say Kim 
Jong Un is a bad guy. We all know that. My preference would be 
to try to identify some of the people who are less well known 
in order to send that message that actually we do know who they 
are and there may be some consequence in the future if they are 
associated, for example, executions in the prison camp system 
and the rest.
    Senator Gardner. We did provide additional authorities 
under the legislation in order to communicate with the North 
Korean people to find ways to build cheap and efficient and 
effective communication channels in order to get the message 
out about the atrocities of the Kim Jong Un regime. And 
hopefully those authorities--Senator Rubio, Chairman Rubio, was 
a critical part of that--will be utilized and helpful in 
getting the word out about the acts that these people are 
carrying out.
    Mr. Malinowski. Absolutely, and I am grateful for that. We 
already have some very interesting and creative programming 
from old-fashioned methodology like radio broadcasting to newer 
ways of getting information to people in the North. There are 
about 3 million cell phone contracts amazingly in North Korea 
right now. So people are communicating with each other and also 
with people outside the country in surprising ways. And there 
are a lot of folks working on delivering content that will 
raise awareness, that will bring information to people in North 
Korea about simple things like what life is like outside of the 
country. We fund some of that out of my bureau, and I think 
there is room for a lot more.
    Senator Gardner. China in the past has had a policy of 
returning North Korea defectors to the regime. Are you in 
conversation with China about changing that policy? Is China 
still intending to change that policy? And how is that dialogue 
taking place?
    Mr. Malinowski. We have raised this many times with the 
Chinese Government, as have some other countries in the region. 
It has been a difficult conversation. I would note that there 
are some cases recently in which China has allowed people to 
move on who have sought asylum. I think there were some North 
Korean workers in Beijing recently who managed to get 
themselves to South Korea without objections from the Chinese 
Government. So we will have to see. But it is an important 
issue and one we continue to raise.
    Senator Gardner. Thank you, Mr. Malinowski.
    And a couple more questions. According to news reports, the 
week after President Obama visited--I will give you the quote 
from the news reports. The week after U.S. President Barack 
Obama's visit, things in Cuba have returned to normal. More 
than 150 activists were arrested on Saturday in demonstrations 
demanding the release of political prisoners. Is that an 
accurate assessment? How many political prisoners are there 
today in Cuba that we are aware of, and has there been an 
increase or a decrease in the number of these arrests and 
jailed since our policy change toward Cuba?
    Mr. Malinowski. The big distinction here is between long-
term political prisoners, most of whom have been released, and 
the short-term harassment, often violence that is inflicted on 
people who try to hold meetings, organize rallies, discussions 
to engage in the politics of the island. That has absolutely 
not let up. I think there were a couple of thousand of those 
short-term detentions in the first 3 months of this year. And I 
think it reflects both the highly repressive tendencies of this 
government which we know extremely well, but also I think their 
nervousness about the changes that are taking place in our 
relationship and the hemisphere.
    I think it was very interesting to see the reaction of the 
Cuban Government to President Obama's visit after the fact. 
Fidel Castro basically left his bed to deliver a speech 
denouncing President Obama. He said we do not need any gifts 
from the empire. President Obama's syrupy words about 
brotherhood and shared history were enough to give Cubans a 
heart attack he said. Raul Castro made similar statements. You 
know, it seems like the only argument these guys had for the 
last few years is the myth of American hostility towards Cuba, 
and we have completely destroyed that myth in the eyes of the 
Cuban people. And they have got nothing else, and I think they 
are extremely nervous and insecure as a result of that.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Rubio. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And if I could, I will just introduce you to these students 
who are here. Maggie L. Walker High School in Richmond is a 
school for governmental and international studies. It is in the 
neighborhood where I live. It was a vacant and abandon building 
when I got elected to the city council in 1994, and over the 
course of about 7 years, we worked with governments in the 
region to build it into this high school that is now commonly 
ranked as one of the 25 best public high schools in the United 
States. And these students are here as part of a constitutional 
competition that they have been participating in, and I am 
really happy to have them here. And with the school's focus on 
governmental and international studies, this is a good hearing 
to be at.
    I had the opportunity last week to ask some questions of 
both Ms. Hogan and Mr. Palmieri with respect to the Northern 
Triangle. And I am going actually focus more of my questions to 
Secretary Malinowski today on human rights issues.
    Yesterday, I had a wonderful meeting with Senator Baldwin 
and Senator Coons with an inspirational city council woman in 
Istanbul, Sedef Cakmak, who is here. She founded the Istanbul 
Pride Parade in 2003, and there were 30 marchers. By 2014, 
there were over 80,000 marchers, and last year the Turkish 
Government used water cannons to shut the march down and 
disperse everyone after it had grown so large.
    She was here visiting us to talk about ways in which the 
United States could be helpful. And when Senator Coons asked 
her, tell us how we can help human rights in Turkey, this was 
her answer. And I wanted all of you to hear this because it is 
about your colleagues. She said the help that we have had that 
has enabled us to do what we have done has been the United 
States. The support of the U.S. ambassador, the support of the 
U.S. consul in Istanbul has enabled the LGBT community in 
Turkey to not avoid persecution and hostility, as my story 
about the Pride Parade being dispersed suggests, but they have 
enabled us to finally at least come out of the shadows to some 
degree and organize. And she really said that there had been no 
greater friend.
    So when we asked what we could do to help, she said the 
main thing you can do to help is just thank our diplomats and 
folks with the State Department who have been our allies.
    Talk to me a little bit about the work that you are doing 
in your bureau with respect to LGBT rights around the world 
because whether it is in Turkey or Russia or Africa or other 
countries, we see serious, serious challenges. Please tell a 
little bit about how we factor that into our diplomacy.
    Mr. Malinowski. Of course. Well, first of all, it is a very 
heartening story that you just told and I will pass that on 
personally to Ambassador Bass, who is one of our best 
ambassadors on so many different scores. And I know that he has 
been particularly principled in reaching out to the LGBT 
community and to the broader activist community in Turkey, 
which is facing a lot of challenges right now.
    I would say, first of all, it begins with recognition of 
the legitimacy and dignity of people around the world who are 
working for the human rights of LGBT people and simply 
asserting their own rights to live in safety and in dignity and 
simply reaching out, meeting with these folks, as you 
mentioned, in Turkey is an important part of it. I try to do it 
on all my trips. Other senior U.S. officials do as well or are 
seen doing it. That makes a difference.
    We provide material support to people who are on the front 
lines of the struggle. We have in our little DRL budget 
something called the Global Equality Fund, which we have now 
gotten other governments to contribute to as well. It is one of 
those emergency funds that I mentioned in my opening statement 
and that we can deliver $3,000 in 48 hours to someone who needs 
help for security, for travel, for basic support for an NGO 
that is doing good work, sometimes for legal support. There 
have been successful legal challenges in various countries 
around the world to highly restrictive, repressive anti-gay 
laws that we have provided some support to.
    And then just at a rhetorical level. And we are very, very 
careful in our public statements not to suggest that this is 
about carving out special rights for special kinds of people. 
What we are talking about is simply basic human rights that 
everybody in the world enjoys. Whether they are straight or 
LGBT, no one should be discriminated against, no one should be 
subject to violence, no one should be persecuted because of who 
they are. And I think that message increasingly resonates in 
countries even where there is nervousness about the advance of 
this issue.
    Senator Kaine. We met Sedef Cakmak--a number of us--in 
Istanbul in early January. We were with her right in the heart 
of the city near the Blue Mosque about two days before the 
bombing there that occurred in early January. A very wonderful 
advocate. And she definitely connects the feelings of 
government persecution of the LGBT community to the worries 
that other religious minorities or political opponents are 
feeling in Turkey. This is not a hearing about Turkey. I would 
like to delve into that further at another moment.
    Let me switch to another area within your bailiwick and 
that is press freedom. Again, around the world, we are seeing--
Turkey is a good example. Russia is a good example. Honduras, 
sadly. I lived in Honduras, a journalist at Radio Progreso, 
which is a Jesuan radio station in El Progreso, Honduras where 
I worked with the Jesuit community there 35 years ago. Carlos 
Mejia Orellana was killed 2 years ago and a number of other 
journalists have been killed as well.
    I think the chair alluded to some freedom of press 
questions in his opening comments. This is so fundamental. And 
again, if you see a government cracking down on a free press, 
you can pretty much bet they are going to be cracking down on 
political opponents. They are going to be trying to engage in 
other authoritarian activity. As much as we in politics 
sometimes rankle under a free press that is free and robust and 
challenging, we sure would not trade it for anything else.
    Tell us how the State Department through your bureau tries 
to advance the notion of protecting freedom of the press around 
the world.
    Mr. Malinowski. First of all, when a government cracks down 
on free press, we speak out about it and we talk to them about 
it in our high level diplomatic engagements. We have done it 
with Turkey. We have done it with Egypt where we have worked 
really, really hard to get journalists out of prison. We have 
done it in China. Sometimes we are successful. Sometimes we are 
less so. But journalists are persecuted because they are doing 
effective, hard-hitting work, and I think particularly at a 
time when the issue of anti-corruption is coming to the fore in 
many countries around the world, it is making a lot of 
governments that are corrupt nervous about the work of a free 
press that is uncovering their secrets. And oftentimes you will 
find that we are supporting that kind of work not just 
rhetorically because we have an interest in accountable, good 
governance, and without a free press, we are not going to get 
one.
    More generally, we also have programs that are specifically 
designed to help train journalists in difficult environments to 
stay safe, programs in digital safety, physical safety that 
obviously do not provide 100 percent protection, but I think 
are very helpful to journalists who are facing very real danger 
in the work that they do.
    Senator Kaine. Great. Thank you very much.
    Thank you, Mr. Chair.
    Senator Rubio. Just a quick question. You asked about the 
LGBT community in Istanbul. Is that criminalized under Turkish 
law? You were talking about government persecution. Under what 
form?
    Mr. Malinowski. I will have to get back to you on that. I 
do not know if it is one of the countries where it is 
criminalized, but I will get back to you on that.


    [The information referred to above was not received in time 
to be included in this publication.]


    Senator Rubio. Okay.
    Senator Cardin?
    Senator Cardin. Thank you very much, Mr. Chairman.
    Let me thank all of our witnesses for their extraordinary 
work that they do every day on behalf of human rights.
    Mr. Malinowski, I want to ask you a couple questions, if I 
might. First, the Russian media has been very actively engaged 
to try to rewrite history as to what happened in Sergei 
Magnitsky and his tragic arrest, torture, and death. The United 
States--the administration has used its inherent authority to 
grant certain types of sanctions against those who perpetrated 
those crimes in Russia and has also used the authority under 
the Magnitsky law that was passed.
    Can you just comment as to the basis for imposing those 
sanctions as it relates to the allegations that have been made 
by the Russian press?
    Mr. Malinowski. One thing I have learned about our 
sanctions programs in this job is how high the bar is for our 
lawyers, our investigators, the folks who determine whether a 
particular individual meets the criteria that Congress has laid 
out for application of a particular sanction. And I can tell 
you in the Magnitsky case, we rely on multiple sources of 
information in making these determinations. It is reviewed by 
many people in the United States Government who have to be 
confident that the information is credible before we put 
somebody's name on that list. The Justice Department is 
involved. The Treasury Department is involved, in addition to 
the State Department. And we are very, very confident that the 
people who are on that list deserve to be on that list based on 
hard evidence.
    Senator Cardin. I thank you for that. There have been 
several people who have been sanctioned as a result of it, and 
there has been congressional involvement working with the 
administration on this issue. It is clear with the information 
that we have received the type of conduct that they perpetrated 
in Russia to a person who was trying to bring to the attention 
of the authorities a corrupt situation and in fact became a 
victim, arrested, tortured, and lost his life. I thank you for 
clarifying that point.
    I want to move on to a tragic situation in Azerbaijan. We 
are seeing an increase in the number of political prisoners in 
that country and their oppression against those who differ with 
the government. One of those cases, Khadija Ismayilova, a 
political prisoner and Radio Free Europe and Radio Liberty 
reporter, is currently serving a 7 and a half year sentence in 
Azerbaijan on charges many human rights organizations regard as 
politically motivated. She has been a tireless reporter on 
corruption in the country and it is widely believed that she 
was targeted for her work.
    Could you just comment as to what diplomatic tools we have 
available in order to raise this issue?
    Mr. Malinowski. Well, I would say, first of all, that we 
have called and will continue to call for the release of 
Khadija Ismayilova. We are very well aware of her case.
    In the last several weeks, we have engaged very intensively 
with the Government of Azerbaijan on human rights issues. It 
has, I think, contributed to actions by the Government of 
Azerbaijan to release a number of people who we consider to be 
political prisoners, including Intigam Aliyev, an 
internationally recognized human rights lawyer, Rasul Jafarov, 
and Anar Mammadli who is the chairman of their election 
monitoring and democratic study center. We have seen some, I 
think, very positive steps by the Government of Azerbaijan in 
response to our engagement.
    But we would certainly agree with you that the good news 
that we have seen is not yet enough. There are still others in 
detention who should not be, including Khadija Ismayilova, and 
we very strongly believe that releasing the remaining political 
prisoners and more broadly expanding freedom of expression and 
freedom of the press in Azerbaijan would be good for that 
country's future and good for our relationship with Azerbaijan.
    Senator Cardin. And lastly, let me just raise the tragic 
death that we saw in Bangladesh just a few days ago of a USAID 
employee, Xulhaz Mannan, who founded the Bangladesh first LGBT 
magazine. That murder is still being investigated from the 
point of view of responsibility. We know that an ISIL-related 
group claimed responsibility. But this is just outrageous, and 
I would hope that the administration will keep a bright 
spotlight on this tragic death and make sure that we have full 
accountability as to who are responsible and that we hold the 
government to doing everything possible not only to hold the 
perpetrators responsible but to protect the civil society. The 
civil society in Bangladesh is challenged, and clearly this 
murder will have an impact on that country.
    Mr. Malinowski. It is absolutely horrific. We are outraged 
by it. It is the latest in a series of killings as you 
mentioned. This one cuts particularly close. We will do 
everything we can to encourage the Government of Bangladesh to 
investigate this and bring the perpetrators to justice. We will 
support them in doing so. And as I mentioned in my opening 
remarks, we also can use and are using some of our emergency 
assistance programs to provide support in getting people who 
are still threatened in Bangladesh to safety if they want to 
avail themselves of that kind of support.
    Senator Cardin. Thank you. I thank all the panelists for 
their commitment to these issues.
    Senator Rubio. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ms. Hogan we have a fentanyl epidemic in the United States. 
Sources now say that it is very clear that China and Mexico are 
the two principal means by which fentanyl is coming into the 
United States. The number of opioid deaths in our country has 
escalated dramatically with the single largest new addition to 
that plague being fentanyl as a killer in our country.
    What is our government saying to Mexico about the 
importation of fentanyl? It comes up right from Mexico and it 
winds up in Lawrence, Massachusetts where people die, but that 
is the story for most of our country. What is it that we are 
telling the Mexicans about this importation of fentanyl?
    Ms. Hogan. Thank you for the question. Actually it is the 
State Department that has the lead on that dialogue, so I would 
ask my colleague from the State Department to respond.
    Senator Markey. Mr. Palmieri?
    Mr. Palmieri. Senator, thank you.
    We are engaged in a broad-based effort with Mexico to 
improve counternarcotics interdiction and to improve their 
ability to eradicate poppy cultivation inside Mexico, as well 
as strengthen our border and law enforcement cooperation to 
prevent those kinds of drugs from leaving Mexico and entering--
--
    Senator Markey. Are you talking specifically about 
fentanyl? Fentanyl is the new addition. It is like a chemical 
concoction that is put together. What are you saying about 
fentanyl specifically to the Mexicans? It is a killer.
    Mr. Palmieri. We have a broad-based conversation with 
Mexico on counternarcotics. Our law enforcement agencies are 
engaged with Mexico across the full range of drug trafficking 
that emanates from Mexico into the United States.
    Senator Markey. No. I am asking are you having specific 
conversations about fentanyl with them. It is much more deadly 
than heroin or anything that has ever been seen before. What 
are you saying to them about this one specific, new addition to 
the opioid death spiral that too many families in America have 
now fallen?
    Mr. Palmieri. We are pressing the Mexican Government to do 
all it can to prevent illegal narcotics from entering the 
United States and to work collaboratively with our law 
enforcement agencies, and fentanyl is definitely one of those 
substances that we are focused on, sir.
    Senator Markey. Well, I would just urge you as strongly as 
I can to elevate fentanyl to the top priority which you have. 
It has the potential to kill tens of thousands--tens of 
thousands--of Americans over the next several years. And the 
route in is through Mexico. So this is something that I just 
urge you to elevate to the level of intense dialogue between 
our two countries so that they know that we mean business on 
that issue. It is of critical concern not just in urban America 
but in every city and town in our country. Fentanyl is the new 
drug that is killing people, and we have got to stop it. And 
the Mexicans must be our aggressive partner in this.
    On human rights in Mexico, the security forces have been 
implicated in repeated serious human rights violations, 
including extrajudicial killings, enforced disappearances and 
torture, and that the government has made little progress 
investigating or prosecuting those responsible for abuses.
    What is happening in Mexico defies belief. In September of 
2014, 43 students disappeared in Mexico. That was nearly 2 
years ago. At the time I wrote a letter urging the Secretary of 
State to do everything possible to support the Mexican 
Government by making additional investigative and forensic 
resources available. My letter also urged assistance to the 
Mexican Government in its efforts to bring all those 
responsible to justice and to ensure positive postmortem 
identifications that allow families to begin their grieving and 
healing process. This the Mexican Government has not done.
    In 2015, an interdisciplinary group of experts appointed by 
the Inter-American Commission on Human Rights went to Mexico to 
investigate the case and worked for about a year to uncover the 
truth. But then the Mexican Government refused to extend their 
mandate prematurely ending their work.
    This past weekend, they released their final report and 
found serious abuses and inconsistencies in the Mexican 
Government's investigation. The report throws the government's 
version of events into serious question and suggests that the 
government did not seek to discover the extent of official 
culpability for these crimes.
    Last Friday, the ``New York Times'' reported that the group 
of experts has endured carefully orchestrated attacks in the 
Mexican news media, a refusal by the government to turn over 
documents or grant interviews with essential figures and even a 
retaliatory criminal investigation into one of the officials 
who appointed them.
    What is our government doing to persuade the Mexican 
Government to allow the group of experts to continue its 
investigation, and what will we do now in response to their 
report?
    Mr. Palmieri. Senator, we did take note of the April 24th 
report of the independent experts from the Inter-American 
Commission on Human Rights. We commend the commission's work, 
and we do urge Mexico to consider the report and respond to the 
report's recommendations, specifically to provide assistance to 
the families and the victims, to bring the perpetrators to 
justice, and to evaluate the suggested actions to address the 
forced disappearances associated with that incident.
    Senator Markey. Well, what additional actions can we take 
in order to impress upon the Mexican Government how serious we 
are about this issue?
    Mr. Palmieri. Well, we do have an ongoing human rights 
dialogue with the Mexican Government. This is a topic that has 
been raised at many different levels and will continue to be 
raised directly with the government, sir.
    Senator Markey. I think that we have got, obviously, a huge 
problem here. 27,000 Mexicans have disappeared over the last 10 
years, that the government has done little to investigate. And 
I think that this is just an escalating problem inside of their 
country, and I think it is up to the United States, since they 
are our partner on so many other issues, to use every bit of 
leverage we have to let them know that we are dead serious 
about this issue and it just cannot be allowed to continue.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    I know there is a vote called, so we are going to wrap.
    I just have one more question, Mr. Palmieri, I wanted ask 
you. There has been a significant up-tick in the number of 
Cuban migrants just, for example, from October of last year 
through February. So just a 5-month period, 18,500 Cubans 
arrived at the Texas Laredo field office. We are also getting 
kind of similar reports from the Coast Guard. They say since 
October of last year, 2,700 Cubans have attempted to enter the 
U.S. by sea.
    But what is more concerning is the number of people--we 
talked about this briefly last week at another hearing--coming 
in I think through Ecuador and Panama and Costa Rica. And if 
you read the press reports, some of these governments--their 
body language or attitude is we are going to put them on a 
plane and fly them as close as possible to the U.S. border so 
they can cross. In essence, we do not want this problem. This 
is a major developing issue here, and much of this upsurge has 
occurred since the deal.
    What is driving this new migration? What is driving this 
new migration? What is our position towards those countries 
that are talking about moving these people? Their attitude is 
our job is to kind of facilitate them, get them through, so 
they can get to the U.S. which is where they want to go. 
Second, are we confronting that attitude that they have? And 
third, what is the best way to stop this?
    Mr. Palmieri. Thank you for that question, Senator.
    The engagement with the countries in the region focuses on 
encouraging them to ensure safe, legal, and orderly migration. 
Much of this migration is undocumented and irregular as it 
passes through the Central America region. There is no question 
that earlier this year Costa Rica and Panama worked with the 
Government of Mexico and did airlift almost 8,000 Cuban 
migrants from both countries to the northern part of Mexico 
where they crossed into the United States.
    Costa Rica took the step at that time of making clear that 
after that backlog was addressed, that they were going to be 
more aggressive in enforcing their immigration laws and 
returning people to their last point of origin. We now see an 
additional backlog of these migrants in Panama, and there is 
now, at least as reported in the press, talk of another 
possible airlift between Panama and Mexico.
    We continue to urge the countries to enforce their 
migration laws, to strengthen their border controls, and to 
address undocumented and irregular migration by returning 
people to their last point of origin. We think that is the best 
way to----
    Senator Rubio. Well, have we pronounced ourselves against 
these airlifts? Have we pronounced ourselves against these 
airlifts whether it is the one that Costa Rica did or the one 
that Panama is now doing? Because the minute the word gets out 
that if you can get into this country, they are going to put 
you on a plane and fly you close to the U.S. border so you can 
get it, you are encouraging more people to do this. So have we 
said to them do not airlift people? We have significant 
potential leverage over these countries.
    Mr. Palmieri. We have worked with all three countries to 
ensure that they are going to strengthen their border controls 
and put in place better mechanisms to prevent this undocumented 
and irregular----
    Senator Rubio. That is future, but what about the current 
backlog? Have we told them do not airlift these people?
    Mr. Palmieri. We have encouraged the countries in the 
region themselves to figure out the best solution to this surge 
of migration. And we believe the best solution is stronger 
enforcement of their own immigration laws----
    Senator Rubio. But we have not told them not to do the 
airlift.
    Mr. Palmieri. We have not told them not to do the airlift, 
sir.
    Senator Rubio. What is driving this? I mean, Cuba has been 
repressive for 60 years. What is the difference now? Is it the 
fear that the Cuban Adjustment Act is going to go away that is 
driving people to try to get in here before it goes away?
    Mr. Palmieri. We have no plans to change the Cuban 
Adjustment Act at this time, Senator. There continues to be a 
large migration flow out of Cuba. It reflects the difficult 
economic and human rights conditions in the country.
    Senator Rubio. And I understand that the administration has 
no plans to advocate for a change in the Cuban Adjustment Act, 
which was an act of Congress. But my question is, is there 
fear? What I hear is that people in Cuba think the Cuban 
Adjustment Act might go away, and now that the situation has 
been normalized, so they are trying to get into the U.S. before 
that happens.
    Mr. Palmieri. I do not know and cannot comment directly on 
the individual motivations of these Cuban migrants. But I can 
make clear that the administration is not entertaining any idea 
of a change to the Cuban Adjustment Act, and so that should not 
be a factor in their decision calculus.
    Senator Rubio. All right. Well, I want to thank all of you 
for being here today. I appreciate you participating in this, 
and I think it was informative. And I am pleased as well that 
we have so many members attend and ask great questions. Again, 
we always thank you for the work that you all do on behalf of 
our country.
    And with that, I just wanted to end by noting that the 
record will remain open until the close of business on 
Thursday, April 28th.
    And with that, the hearing is adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

Responses to Questions for the Record Submitted by Senator David Perdue 
 to Elizabeth Hogan, Acting Assistant Administrator for Latin America 
                        and the Caribbean, USAID


    Question 1a.  Despite almost $4 billion in U.S. assistance to 
Haiti, the nation suffers from high unemployment, political 
instability, and growing food insecurity due to prolonged drought. 
Haiti ranks 163 out of 188 on the U.N.s 2015 Human Development Index. 
More than half of Haitians live below the international extreme poverty 
line of $1.90 per day. For FY 2017, the President has requested $79.9 
million in Economic Support Funds and about $129.2 million in funding 
for global health programs for Haiti. The President's budget request 
describes this funding as supporting long-term growth, but Haiti is 
still struggling to bounce back from the devastating earthquake that 
struck in 2010.


   What portion of this $209.1 million will be dedicated to 
        reconstruction efforts specifically?


    Answer. Although Haiti remains an extremely poor and fragile 
country with substantial development needs, USAID has strategically 
modified its areas of focus and assistance shifting from reconstruction 
to more effectively address Haiti's needs and build the capacity of the 
Haitian government and local Haitian institutions to tackle development 
challenges. For example, with FY 2017 ESF, $3.1 million will be 
allocated towards sustaining and expanding electricity generation in 
the north of Haiti and $5.5 million will be used to continue to support 
improved livelihood opportunities in areas where the U.S. government's 
shelter related programs are operating. The remaining $200.5 million 
will contribute to USAID's longer-term development programs focusing on 
economic growth, agriculture, health, democracy and governance, and 
basic education.


    Question 1b.  In what areas will these reconstruction funds be 
concentrated?

    Answer. In general, FY 2017 funds will support activities in Haiti 
that advance democracy and human rights, nurture economic opportunity 
in areas of private sector growth and sustained agricultural 
development for food security, prevent the spread of infectious 
diseases, improve basic health services especially for women and 
children, and strengthen basic education. As referenced in part (a) 
above, in FY 2017, $3.1 million will be allocated towards 
infrastructure activities. With these funds, U.S. assistance will 
support the Government of Haiti's efforts to engage the private sector 
to take over the operation and maintenance of the mini-utility power 
plant in northern Haiti. In addition, U.S. assistance will continue to 
support improved livelihoods in geographic zones in which USAID has 
previously invested in improved shelter and community development.


    Question 1c.  Can you speak about the FY 2017 request for improving 
food security in Haiti?

    Answer. The FY 2017 request of $9 million will allow USAID to 
advance gains made through the Feed the Future Initiative. Agriculture 
is central to the Haitian economy, employing approximately 60 percent 
of the population and serving as the primary source of income in rural 
areas. Under FTF, the U.S. government has introduced improved seeds, 
fertilizer, and technology, as well as improved access to irrigation 
and markets for almost 83,000 Haitian farmers. USAID has also linked 
farmers directly with buyers, and improved farmer access to micro-
credit. Women have been involved in the entire value chain of 
agricultural products and represent around 30 percent of direct 
beneficiaries. USAID plans to continue to support these households and 
to expand these efforts to another 30,000 farmers by 2018.
    USAID's work to address environmental degradation in Haiti is 
closely linked to efforts to improve the country's food insecurity. 
More than half of all land in Haiti is steeply sloped, and 
approximately 85 percent of the country's watersheds are degraded, 
causing frequent flooding, erosion, reduced availability of groundwater 
for irrigation in the fertile plains, and depletion of the basic soil 
nutrients required for increased food production. As part of a larger 
effort to stabilize watersheds, increase tree cover, and promote 
sustainable agricultural practices in disaster prone regions of the 
country, from 2009 to 2014, USAID supported reforestation efforts 
through the planting of over 5 million seedlings with a survival rate 
of about 70 percent throughout the country. USAID plans to fund 
additional community-based reforestation and related policies.


    Question 2.  In their June 2015 report on Haiti reconstruction 
progress, the GAO reported that 3 of 17 key non-infrastructure 
activities were reduced, including providing access to basic 
healthcare. In light of the outbreak of cholera that Haiti has dealt 
with since the earthquake, what led USAID to decide to reduce basic 
health initiatives?

    Answer. USAID/Haiti takes its response to cholera very seriously, 
and is responding in coordination with the Ministry of Health, U.S. 
Centers for Disease Control and Prevention, and other donors. The 
Agency has several projects addressing cholera, including the Quality 
Health Services Project (SSQH), Sustaining Health Outcomes through the 
Private Sector (SHOPS) Plus, and the Supply Chain Management System 
(SCMS). These projects procure and distribute water treatment products, 
and support education and community-based activities to raise awareness 
around hygiene precautions to prevent and treat diarrheal diseases, 
including cholera. Since the peak of the cholera outbreak, there has 
been an 89 percent decrease in the number of cholera cases from 352,033 
reported cases in FY 2011 to 36,644 cases in FY 2015. The case fatality 
rate for hospitalized persons remained under 1 percent in 2015.
    Our support for improving access to primary health care services 
continues to be the core of our health sector strategy and programming. 
In instances where projects ended early or were reduced in scope, 
USAID's support for access to basic health care continued at the same 
level through other projects. USAID's robust health portfolio, outlined 
below, aims to both improve access to quality health services and 
strengthen the health system nationwide, with a particular focus on 
three key departments--the North, the West, and Artibonite.


    Health services delivery: USAID support is increasing access to 
essential primary health, nutrition, family planning, HIV/AIDS, and 
tuberculosis services to underserved communities. Currently, USAID 
supports 164 health facilities that provide access to primary health 
care services for nearly half of the population.


    Health systems strengthening: To ensure sustainability of these 
investments, efforts are underway to build needed leadership, 
managerial and administrative skills within the Ministry of Health. 
These leadership and management skills will improve oversight and allow 
the Government of Haiti to manage healthcare assets more transparently 
and effectively.


    Improving services and focused support for persons with 
disabilities: USAID health activities increase access to quality 
services for persons with disabilities by establishing systems and 
programs within key Ministry of Health units and non-governmental 
organizations to ensure that government and civil society have the 
capacity to provide care, rehabilitation and support for their 
reintegration into society.


    Rebuilding public health infrastructure: Working alongside other 
international donors, USAID is helping to rebuild Haiti's main public 
tertiary and teaching hospital (the General University Hospital), to 
construct a new maternity ward at St. Justinien Hospital in Cap-
Haitien, and to reconstruct the National Campus of Health Sciences. 
Additionally, USAID is renovating 12 smaller health care centers and 
schools, and improving infrastructure and accessibility for people with 
disabilities.


    Question 3.  A GAO report was issued in June 2015 on the Haiti 
Reconstruction effort (report no: GAO-15-17), which reported that USAID 
extended the timeframe for its strategy to reconstruct Haiti from its 
January 2010 earthquake by three years, to end in 2018. At the same 
time, GAO had reported that USAID projects under the Haiti 
reconstruction effort had achieved mixed results, with many projects 
not fully meeting their intended results and some infrastructure 
projects in particular years behind schedule. Almost a year has gone by 
since this GAO report. And as a whole, we've invested almost $4 billion 
in Haiti reconstruction and relief.


   Have any improvements been made in the results projects are 
        achieving and in moving infrastructure projects forward?

   What are the major achievements that USAID expects to have 
        completed by the end of the Haiti reconstruction strategy in 
        2018?


    Answer. Haiti has historically been a challenging environment, with 
chronic weaknesses of governance and recurring periods of political 
uncertainty. Despite these challenges, USAID's pace of programming in 
Haiti has seen improvements overall. For example, USAID's Cap-Haitien 
Port Rehabilitation and Public-Private Partnership Project now has an 
approved Master Plan in place. The project has begun breaking ground on 
renovations and building new warehouses. The port rehabilitation work 
and framework for a public private partnership for port operations are 
also in process. The Government of Haiti (GOH), with USAID assistance, 
conducted pre-solicitation meetings in Miami during the last week of 
April 2016, and the transaction documents are scheduled to be released 
by the GOH in July 2016. USAID released the draft request for proposals 
and expects to award the contract for replacement of piers and dredging 
of channels in spring 2017, with works expected to be completed by the 
middle of 2020. USAID has also awarded contracts for customs and 
regulatory reforms. Work on these items will continue for the next 24 
months.
    There has also been significant progress in health infrastructure 
activities. During the 2010 earthquake, Haiti's largest teaching 
hospital in the country, the Hospital of the State University of Haiti 
(HUEH), suffered severe damages and collapsed buildings. At the request 
of the GOH, USAID and the Agence Francaise de Development engaged in 
supporting reconstruction activities as co-donors. While the full 
reconstruction project is moving forward, USAID has already renovated 
temporary facilities (emergency and maternity wards) of HUEH so the 
hospital could continue to operate while under construction. 
Reconstruction of the main hospital campus is progressing; all 
foundations and structural steel have been erected and the main four-
story logistics building is nearing completion.
    The construction of a modern medical teaching facility in Port-au-
Prince is also being funded by USAID. This facility will replace and 
combine the former Faculty of Medicine and Pharmacy, School of Nursing, 
and Lab Technician School, which were all destroyed in the January 2010 
earthquake. Reconstruction activities completed so far include 
temporary space for the School of Nursing, which will be converted into 
a permanent dormitory hall upon completion of the main project site. 
Significant progress has been made on the main campus, and construction 
is scheduled to be completed by July 2016.
    USAID is also funding the reconstruction and expansion of St. 
Justinien Hospital. The current facility is significantly overcrowded 
and badly deteriorated with multiple roof leaks and cracks in walls and 
floors. The new facility will consist of approximately 2,070 square 
meters of new space including a neonatal ward, infant ward, children's 
and adolescent wards, two isolation rooms, exam rooms, and a triage 
area. The old ward has been demolished and the new foundation is 
constructed. The structural steel is being erected now, and project 
completion is expected in 2017.
    While the Agency has been involved in renovation and construction 
of larger health facilities, a series of small renovation projects have 
been initiated to help rebuild smaller scale health care infrastructure 
and improve accessibility for people with disabilities in schools. The 
project involves 12 health care centers and schools in the North, 
Northeast, West, and Artibonite Departments and will be completed in 
2016. So far, six schools have been retrofitted; pre-construction and 
construction activities are ongoing at additional sites.
    As part of the original post-earthquake strategy, in the housing 
sector, USAID has constructed over 900 permanent homes with running 
water, modern sanitation, and electricity. The construction of another 
574 units is currently in process. Of these 574, USAID is partnering 
with the Inter-American Development Bank (IDB) on 426 units that will 
be completed by the end of 2016 and 148 units with the Qatar Haiti Fund 
that are scheduled to be completed by Spring 2017. For the 574 homes, 
USAID's role is limited to site preparation, for example land leveling, 
water and sewer systems, roads and walkways, and street lighting, 
whereas the IDB and Qatar Haiti Fund will cover the costs of housing 
construction. USAID is promoting sustainability of the new settlements 
by supporting training for local residents to maintain their homes and 
building the capacity of the GOH's social housing unit to manage 
settlement areas, collect lease payments, and maintain the utilities 
and common areas. USAID has since revised its strategy to focus on 
housing finance and improvements in existing communities.
    USAID continues to see progress in non-infrastructure sectors as 
well. More than 80,000 rural households have benefited directly from 
Feed the Future interventions and the Agency will continue to work with 
these farmers into 2018. USAID is also committed to improving the 
quality of, and access to, education for Haitians through the Ann ALE 
education program, which aims to directly support 300 schools and 
improve 100,000 students' reading and writing skills through 
interactive teaching methods and community-based activities by 2019.


    Question 4.  Based on three GAO reports on Haiti reconstruction 
(GAO-12-68, GAO-13-558, GAO-15-517) and the GAO's previous work on 
disaster reconstruction, the GAO had found multiple cases of cost 
overruns and delays for such reconstruction projects.


   What lessons has USAID learned from its previous disaster work to 
        be able to make better projections for the funds it needs to 
        respond to future disasters and to better plan the uses for 
        that funding?

   How are these lessons-learned incorporated into the FY 2017 budget 
        request for USAID programs in Haiti?

    Answer. Generally, in the event of natural disasters, USAID's 
Office of Foreign Disaster Assistance (OFDA) is responsible for leading 
and coordinating the United States government's (USG) response to 
disasters overseas. As part of standard procedures, OFDA began the 
After Action Review (AAR) process for the 2010 Haiti earthquake while 
the response was still ongoing. The AAR process included soliciting 
information and recommendations from people involved in the response 
through ``hotwashes'' (immediately after the response, group discussion 
and evaluation of what worked, what did not and why), interviews, and 
an online survey. To build upon the information gathered, USAID/OFDA 
also held two AAR workshops involving USAID and USG interagency 
partners.
    USAID/OFDA identified several thematic areas for attention during 
the AAR process, including defining USAID/OFDA's role within the USG 
Interagency when USAID is named the lead federal agency, and optimizing 
internal structure and staffing processes.
    As a result, USAID/OFDA has focused on collaborating with and 
operationalizing USG Interagency partners through the expansion of the 
Humanitarian Policy and Global Engagement Division (HPGE) within USAID/
OFDA. The HPGE division leads the mapping of international response 
capacity across USG agencies, has developed an Operational Response 
Framework to guide USAID/OFDA doctrine and policy related to disaster 
response, and is continuing to collaborate with interagency partners on 
the development of an International Response Framework aimed at 
aligning expectations in an international response context. USAID/OFDA 
has also increased efforts to build relationships and awareness with 
potential USG response partners through continuous engagement and 
training programs.
    USAID/OFDA has addressed recommendations related to response 
staffing through the implementation of a strategic growth plan and of a 
Multiple Response Staffing Strategy. To further support consistency and 
preparedness, USAID/OFDA has developed a competency-based position 
management system for response teams, as well as targeted response-
based training curricula to ensure staff readiness for response 
assignments.
    In Haiti, USAID activities were implemented in accordance with the 
USG's larger strategy for reconstruction in Haiti. There have been some 
lessons learned throughout the creation and implementation of this 
strategy. For example, the USG's initial housing reconstruction 
strategy included efforts to develop new settlements to replace housing 
stock lost during the earthquake. In particular, the majority of USAID 
shelter funds were dedicated to construction of permanent detached 
single-family homes on land provided by the Government of Haiti in the 
Cap-Haitien and Port-au-Prince development corridors.
    After initial projects fell short of expectations, USAID recognized 
that this approach is not cost-effective and that the need far exceeded 
what all donor efforts could meet. To achieve greater cost efficiency 
and sustainability, USAID shifted away from new construction and has 
put a greater emphasis on providing low-income households with access 
to housing finance and better infrastructure, working in existing 
neighborhoods, and helping the private sector play a more prominent 
role in housing construction.
    USAID also shifted its approach on its port development efforts 
when final feasibility studies indicated a new port was not 
economically viable. The Agency redirected assistance from constructing 
a new ``greenfield'' port to the rehabilitation of the existing port of 
Cap-Haitien to meet the near-to medium-term demand for port services in 
northern Haiti. An approved master plan is now in place. The port 
rehabilitation work and public-private partnership for port operations 
are also in process, with replacement of piers and dredging of channels 
expected to be completed in 2020. USAID has also awarded contracts for 
customs reform and regulatory strengthening that will result in a more 
efficient and competitive port operation. This reform work is expected 
to be completed by the end of 2017.
    These lessons learned were incorporated into the Post-Earthquake 
U.S. Government Haiti Three-Year Extension Strategy To Support 
Reconstruction and Development: January 2015 to January 2018. The FY 
2017 budget request reflects these lessons learned, as the budget 
builds upon previous fiscal year budgets that take into account 
strategic shifts.


    Question 5.  This year's request of economic support funds (ESF) 
for Haiti is $79.9 million. This amount is almost half of the $134.25 
million that was allocated for Haiti in FY2009, before the earthquake 
occurred.


   Can you explain the ESF budget trend for Haiti since FY2009, and 
        why this year's requested amount is less than the pre-quake 
        funding level?


    Answer. The FY 2017 request levels are sufficient for this year, 
given remaining unexpended funds that are available under the USG post-
earthquake strategy, and our commitment to achieving lasting results 
and ensuring responsible investment of U.S. taxpayer dollars. However, 
USAID has made tremendous progress in accelerating its pace of awards 
in Haiti, having increased its staff and provided additional 
procurement resources. As a result of these changes, last fiscal year, 
for example, USAID/Haiti sub-obligated $400 million into grants and 
contracts to contribute to meeting USAID's strategic objectives for 
Haiti. These and other efforts have led to a 30 percent increase in 
monthly expenditures. USAID/Haiti expects to reduce pipeline in line 
with Agency best practices by the end of FY 2017.


    Question 6a.  A range of governments, NGOs, and international 
organizations work to promote democracy around the world.


   How does the State Department and USAID coordinate democracy 
        promotion efforts with these groups in the Western Hemisphere?


    Answer. The Department of State and USAID coordinate to ensure 
assistance efforts of Washington and overseas operating units involved 
in democracy promotion abroad are complementary and non-duplicative. In 
2006, the Office of U.S. Foreign Assistance Resources was established 
to provide leadership and coordinate foreign assistance planning and 
management across the Department and USAID. The relevant Chief of 
Mission coordinates all assistance awards obligated overseas and 
assistance awards obligated in Washington are coordinated by the 
responsible operating unit with relevant stakeholders, including the 
mission's staff. The U.S. government regularly engages with other 
funders and entities involved in promoting democracy and human rights 
in the Western Hemisphere and around the world in efforts to ensure 
complementarity.


    In partnership with governments, USAID promotes democracy by 
addressing issues of systemic transparency and corruption in 
governments.


  <diamond> In Paraguay, USAID works with public institutions including 
        the Ministry of Health, Ministry of Education, Ministry of 
        Agriculture, Ministry of Public Works, Ministry of Finance, and 
        the Supreme Court to install mechanisms for accountability and 
        anti-corruption that are necessary for a responsive democracy. 
        The project focuses on institutionalizing key reforms in the 
        areas of civil service, public financial management, and 
        internal controls in collaboration with the Civil Service 
        Secretariat, the Procurement Agency, the Executive Branch Audit 
        body, and the General Controller's Office of Paraguay.


  <diamond> In Peru, USAID provides specialized training to judges, 
        prosecutors and advocates to strengthen the administration of 
        courts and prosecutors' offices specialized in anticorruption. 
        USAID provides technical assistance to the Ministry of Justice 
        and Human Rights to design a model of institutional integrity 
        and a Code of Ethical Behavior for its officers and employees, 
        which are complemented by trainings. USAID has also helped 
        develop a manual for the Public Corruption Prosecutor to 
        calculate the compensation for damage caused by crimes of 
        corruption.


    USAID also consults with NGOs and civil society organizations 
(CSOs) to inform program design and implementation. For example, 
through a procurement mechanism known as the Broad Agency Announcement, 
USAID can co-create and co-design responses with CSOs to jointly-
identified challenges. In Guatemala, over 200 civil society 
representatives participated in the design of a program with the goal 
of fostering greater socioeconomic development through improved 
governance and local ownership in the Western Highlands region of the 
country. USAID also works directly with small CSOs to help them become 
viable institutions to advocate for democratic practices. In Mexico, 
USAID works with the Mexican government and civil society to address 
human rights concerns through the government's National Protection 
Mechanism for Human Rights Defenders and Journalists; in Fiscal Year 
(FY) 2015, this program provided assistance to approximately 400 
journalists and human rights defenders seeking protection from threats 
of violence and harassment. Because of USAID's technical assistance and 
training, provided through Freedom House, the National Protection 
Mechanism has been able to process an increased number of requests for 
assistance.


  <diamond> USAID programs in closed space countries in the Western 
        Hemisphere have demonstrably increased the effectiveness of 
        local civil society organizations that monitor and report human 
        rights abuses, perform vital roles in watchdogs when public 
        interest information is restricted, and defend remaining 
        democratic processes and spaces. Closed space programming is 
        closely coordinated within Embassies and with the Department of 
        State's Bureau of Western Hemisphere Affairs.


    Finally, USAID works with various international organizations, 
including other development agencies, United Nations organizations, and 
the World Bank, to ensure that efforts are not duplicated and to 
leverage comparative advantages in the region.


  <diamond> For example, in Honduras, USAID coordinates with the 
        Organization of American States to support the Mission to 
        Support the Fight Against Corruption and Impunity (MACCIH, 
        Spanish acronym).


    Question 6b.  How do DRL assistance programs to promote democracy 
differ from those of USAID?

    Answer. While there is commonality between USAID and the Department 
of State's Bureau of Democracy, Human Rights, and Labor programming in 
some areas of focus, differences in approach demonstrate the added 
value of each entity. Centrally located in Washington, DC, State/DRL's 
global emphasis enables it to provide grants to organizations all over 
the world while maintaining a broad, worldwide overview and approach to 
its programming. By contrast, with an on-the-ground presence of 
approximately 400 democracy, human rights, and governance officers, 
USAID's Center of Excellence on Democracy, Human Rights and Governance 
supports DRG offices worldwide to provide support for activities in 
field Missions. USAID's local staff are on the ground full-time to 
continually engage with local actors, monitor program implementation, 
and make necessary adjustments as country conditions change and 
programs generally support long-term development linked to larger 
country and regional development strategies and objectives.
    USAID and State/DRL programs are both suited to be implemented in 
closed and closing spaces. USAID's DRG programs are increasingly based 
on rigorous monitoring and evaluation components proven successful in 
other development programs, incorporating best practices and evidence-
based research into the project design such as those from robust impact 
evaluations and high-quality surveys. This is particularly important in 
difficult political environments. State/DRL manages global initiatives 
that can rapidly respond to deteriorating situations and emerging 
opportunities, and provide emergency assistance to human rights 
defenders, civil society organizations, and individuals under attack or 
threat of attack.


    Question 6c.  Does USAID work with the National Endowment for 
Democracy for democracy promotion? If so, how?

    Answer. USAID, the Department of State, and the National Endowment 
for Democracy staff interact to discuss and determine priorities in the 
DRG sector, including ways to analyze, understand and respond to new 
challenges. Most recently, USAID organized a trilateral meeting between 
the three organizations to discuss a strategic approach to a number of 
topics. USAID continues to look for ways to further enhance its 
collaboration with these entities through regular briefings on regions, 
countries or topics of interest, and on issues of mutual concern. This 
includes discussions on institutionalizing the Stand with Civil Society 
initiative, global governance initiatives, and the Open Government 
Partnership. USAID also meets periodically with the NED to discuss and 
coordinate programming, especially in countries with closed or closing 
political spaces.


    Question 6d.  How does DRL work with the regional bureaus in the 
Western Hemisphere regarding democracy monitoring and oversight? In 
your view, how can these efforts be more effective?

    Answer. DRL works closely with the regional bureau of Western 
Hemisphere Affairs regarding democracy programmonitoring and oversight. 
For example, regional offices participatein proposal review panels 
which includes monitoring and evaluation criteria. In addition, DRL 
coordinatessite visits with posts to do oversight of programs and 
shares feedback on program progress with the offices. DRL's current 
level of coordination is effective but is always looking for ways to 
improve processes.


                               __________

Responses to Questions for the Record Submitted by Senator Marco Rubio 
to Francisco Palmieri, Deputy Assistant Secretary of State for Western 
                           Hemisphere Affairs

    Question 1.  Please clarify the current number of U.S. Personnel 
allowed at U.S. Embassy in Havana. If the answer is 76, then:


   What are the current restrictions placed on putting more U.S. 
        personnel at the U.S. Embassy in Havana to get close to the 76 
        cap?

   If more American personnel were placed at the Embassy, would there 
        be a reduction in the number of Cuban locally employed staff?

   How much would it cost to replace the supervisor positions occupied 
        by Cubans with Americans?


    Answer. As a result of negotiations to re-establish diplomatic 
relations with Cuba, the number of accredited personnel allowed at U.S. 
Embassy Havana is 76. We look forward to working with Congress to 
secure the necessary funding and approvals in order to add additional 
staff. Our ability to significantly increase staffing is restricted by 
the limited expansion possibilities in the current Embassy building.
    Adding American staff to our footprint at the Embassy would not 
result in a reduction in the number of Cuban locally employed staff. 
Cuban employees fill primarily support roles in the Embassy. The 
additional needed American staff would fill positions requiring a 
security clearance, which Cuban employees cannot obtain.
    All supervisory positions at U.S. Embassy Havana are held by 
cleared U.S. citizens, in accordance with longstanding personnel 
practice and law, those positions with authority to supervise direct-
hire federal employees, including the authority to make final personnel 
decisions such as hiring, firing, and issuing formal disciplinary 
action with respect to the federal employees. While some Cuban staff 
may be administratively organized so that certain more experienced 
Cuban staff direct less experienced Cuban staff, even these experienced 
Cuban staff do not exercise the supervisory authority and 
responsibilities described above and typically associated with 
supervisory positions; they do not hire, fire, or take formal 
disciplinary actions, even with respect to other Cuban staff. Instead, 
all Cuban staff are ultimately managed and supervised by a U.S. direct 
hire employee.
    It costs approximately $220,000 to establish a new overseas U.S. 
direct hire position, with yearly costs amounting to approximately 
$430,000. The average annual cost to employ a Cuban at the Embassy is 
approximately $12,000.


    Question 2.  Since our last briefing, what has the State Department 
and the Cuban government agreed to allow equipment and personnel into 
the Embassy unmolested by the Cuban government?

    Answer. We are in regular communication with our Cuban counterparts 
on a number of issues that are important to the normalization of 
diplomatic relations between our two countries. To date, we have no 
concerns about the ability for equipment and personnel to enter the 
Embassy unmolested.


    Question 3.  How would U.S. Assistance ?change if the Colombian 
public chose not to approve what's in the final agreement?

    Answer. We strongly support President Santos' efforts to reach a 
just and lasting peace with the FARC. The negotiations are in the 
endgame. We are hopeful the parties will reach a final accord soon, 
leading to the FARC's disarmament by the end of this year.
    The President's Peace Colombia strategy focuses U.S. assistance on 
three broad pillars: (1) security, including counter-narcotics, 
counter-transnational organized crime, demining, and demobilization of 
former fighters; (2) expanding state presence and public institutions; 
and (3) justice and other assistance for victims. The President's 
strategy is flexible. A guiding principle is to focus our assistance on 
special U.S. capabilities that can catalyze Colombia's efforts to end 
the conflict, secure a just and durable peace, consolidate public 
support for the peace process, and address the conflict's long-term 
underlying drivers. Building on the success of prior year programs, the 
FY2017 $391 million State/USAID request will fund programs critical to 
strengthening Colombia's security and development, regardless of when 
the parties reach a final peace accord. Adjustments to U.S. assistance, 
if the Colombian public failed to approve the final accord, would take 
into account the Colombian government's plans to consolidate their many 
security and development gains in support of a lasting peace.


    Question 4.  A substantial increase in aid to Colombia is requested 
under a new framework referred to as Peace Colombia. A recent report by 
the Economist says that the FARC may have around $11.4 billion worth of 
assets--yet its leadership is reportedly claiming that they will be 
unable to contribute to material reparations for their victims due to 
lack of funds. In the meantime, serious human rights violations in 
areas controlled by the FARC, including severe restrictions on 
religious freedom, continue. In the same vein, the ELN, which announced 
its entry into new peace dialogues with the government, is not winding 
down its violent operations but rather has been moving aggressively 
into areas formerly controlled by the FARC and in some cases engaging 
in violent conflict with illegal criminal groups in an effort to 
consolidate its power. They continue to be responsible for serious 
violations of human rights, including attacks on church leaders, as do 
illegal groups like the Urabenos which have grown rapidly in terms of 
geographic presence and power in the last few years.


   Given these unpromising developments, will the administration 
        review its decision to transition to a Peace Colombia framework 
        in the absence of a peace agreement?


    Answer. The negotiations are in the endgame. We are hopeful the 
parties will reach a final accord soon, leading to the FARC's 
disarmament by the end of this year. The President's Peace Colombia 
strategy is flexible. If the negotiations continue or the parties fail 
outright to reach a final accord, the Colombian government will 
continue to combat illegal armed groups, drug-trafficking, and 
transnational organized crime; remove landmines; strengthen public 
institutions and foster licit economic opportunities in areas where the 
state's presence has historically been weak; and provide assistance to 
conflict victims. U.S. assistance for Colombia's efforts will continue 
to be critical and advance U.S. interests in regional security, 
counternarcotics, law enforcement, economic development, justice, and 
human rights.


    Question 5.  If not, how does it expect to implement some of these 
goals, such as ``expanding state presence and institutions to 
strengthen the rule of law and rural economies, especially in former 
conflict areas'' even as the conflict continues and in some parts of 
the country has actually intensified due to the actions of the ELN and 
illegal criminal groups?

    Answer. Colombia's efforts and U.S. support for them will continue 
to be flexible. Certain Colombian efforts, such as reintegrating 
demobilized combatants, could be deferred or deemphasized if the peace 
accord is delayed. Colombian military and law enforcement operations 
might intensify in regions where illegal armed groups continued to pose 
threats. Colombian efforts to strengthen the state's presence, build 
public institutions, promote economic opportunity, and deliver victims 
assistance would likely concentrate on more permissive areas.


    Question 6.  Please provide this committee with an update on the 
current economic situation in Venezuela. ?I would respectfully ask that 
you also include an update on the health care situation in the country.

    Answer. Venezuela faces serious economic challenges, including 
significant economic contraction, triple-digit inflation, widespread 
shortages of food, water, electricity and medicine, and depleted 
international currency reserves. Low global oil prices have exacerbated 
the economic challenges facing the Maduro administration. Waning 
domestic production, low oil prices, and government-imposed economic 
distortions are principal drivers of the overall contraction. Any 
turnaround will depend heavily on economic policy adjustments by the 
Venezuelan government.
    We continue to monitor the availability of food, medicines, and 
other essentials. We are concerned by credible and independent reports 
that upwards of 85 percent of medicines on the World Health 
Organization's list of essential medicines are not available at 
pharmacies and hospitals, while many other essential medicines are 
scarce or hard to find, such as antibiotics, aspirin, anti-seizure 
medicines, and chemotherapy drugs. There are also reported shortages of 
surgical supplies and medical equipment in clinics and hospitals. The 
Venezuelan people, including vulnerable populations such as children, 
the disabled, and the elderly, are not able to access the basic 
medicine and medical services they need.
    The United States frequently provides humanitarian assistance to 
countries around the word at the request of receiving countries. 
Venezuela has made no such request. There are appropriate mechanisms 
for international support to Venezuela. The international community and 
the United States stand ready to assist but efforts should be carefully 
coordinated.
    We stand with the international community in expressing our concern 
about the difficult conditions the Venezuelan people are facing. We 
believe the solutions in Venezuela will be found through meaningful 
dialogue among Venezuelans.


    Question 7.  The FY 2017 Economic Support Fund (ESF) of the budget 
request for Venezuela is currently at $5.5 million.


   With the current political and economic instability the country 
        faces, do you think $5.5 million is enough to help defend and 
        strengthen democratic practices, institutions and values that 
        support human rights and Venezuela civic engagement and 
        democratic governance?

   How does that number compare to the assistance provided to other 
        countries in the hemisphere?


    Answer. U.S. assistance to Venezuela seeks to defend and strengthen 
democratic practices, institutions, and values that support respect for 
human rights, access to information, and civic participation and 
engagement. It supports diverse civil society actors who promote those 
democratic checks and balances mandated by the Venezuelan constitution. 
U.S. assistance, on a nonpartisan basis, inclusively promotes the basic 
values of representative democracy and respect for human rights.
    The FY 2017 bilateral assistance request will support the diverse 
civil society actors who promote constitutionally-mandated democratic 
checks and balances. The request provides the level of resources needed 
to support civil society and human rights in Venezuela which expands 
funding by $1.2 million, or 28 percent, from the FY 2015 level of $4.25 
million to support activities that defend democratic processes and 
human rights in Venezuela by: enhancing the public's access to 
information; encouraging peaceful debate surrounding key issues; 
providing support to democratic institutions; and promoting civic 
participation. ESF funding is part of a broader approach towards 
supporting democracy and human rights in Venezuela. There is robust 
cooperation and coordination among U.S. recipients of assistance, 
including the State Department's Bureau of Democracy, Human Rights, and 
Labor, the National Endowment for Democracy, and USAID.
    The urgent importance of the United States working to advance 
respect for human rights and fundamental freedoms in Venezuela, 
including freedoms of expression and peaceful assembly must also be 
balanced by the need to be prudent and careful in our engagement of 
local Venezuelan partners.
    Regionally, the bilateral request for Venezuela for this 
programming is a significant level reflecting the human rights 
challenges in Venezuela, as compared with other countries in the 
hemisphere.


    Question 8.  The political crisis seems to be deepening in Brazil. 
The economy is in its worst recession in more than three decades, and 
Brazilians are protesting the high levels of corruption in the 
government. What are the implications of this current political and 
economic climate in Brazil for Brazil-U.S. Relations?

    Answer. As the two largest democracies in the hemisphere, Brazil 
and the United States are committed partners. The bilateral 
relationship between our countries remains strong, and we engage with 
the Brazilian government as part of our normal, routine diplomatic 
work. For instance, we continue to coordinate with Brazil to ensure a 
safe and successful 2016 Olympic Games in Rio de Janeiro. We are also 
advancing our robust collaboration with Brazil on combatting the Zika 
virus, including by conducting joint research on vaccines and links to 
associated disorders. Even as Brazil works through its political and 
economic challenges, we expect to continue cooperating closely with 
Brazil on these issues and other matters of mutual interest.


                               __________

Responses to Questions for the Record Submitted by Senator David Perdue 
to Francisco Palmieri, Deputy Assistant Secretary of State for Western 
                           Hemisphere Affairs

    Question 1a.  Despite almost $4 billion in U.S. assistance to 
Haiti, the nation suffers from high unemployment, political 
instability, and growing food insecurity due to prolonged drought. 
Haiti ranks 163 out of 188 on the U.N.s 2015 Human Development Index. 
More than half of Haitian's live below the international extreme 
poverty line of $1.90 per day. For FY 17, the President has requested 
$79.9 million in Economic Support Funds and about $129.2 million in 
funding for global health programs for Haiti. The President's budget 
request describes this funding as supporting long-term growth, but 
Haiti is still struggling to bounce back from the devastating 
earthquake that struck in 2010.


   What portion of this $209.1 million will be dedicated to 
        reconstruction efforts specifically?


    Answer. Although Haiti remains an extremely poor and fragile 
country with substantial development needs, USAID has strategically 
modified its areas of focus and assistance shifting from reconstruction 
to more effectively address Haiti's needs and build the capacity of the 
Haitian government and local Haitian institutions to tackle development 
challenges. For example, with FY 2017 Economic Support Funds (ESF), 
$3.1 million will be allocated towards sustaining and expanding 
electricity generation in the north of Haiti and $5.5 million will be 
used to continue to support improved livelihood opportunities in areas 
where the U.S. government's shelter related programs are operating.

    The remaining $200.5 million will contribute to USAID's longer-term 
development programs focusing on economic growth, agriculture, health, 
democracy and governance, and basic education.


    Question 1b.  In what areas will these reconstruction funds be 
concentrated?

    Answer. Although Haiti remains an extremely poor and fragile 
country with substantial development needs, USAID has strategically 
modified its areas of focus and assistance shifting from reconstruction 
to more effectively address Haiti's needs and build the capacity of the 
Haitian government and local Haitian institutions to tackle development 
challenges. For example, with FY 2017 ESF, $3.1 million will be 
allocated towards sustaining and expanding electricity generation in 
the north of Haiti and $5.5 million will be used to continue to support 
improved livelihood opportunities in areas where the U.S. government's 
shelter related programs are operating. The remaining $200.5 million 
will contribute to USAID's longer-term development programs focusing on 
economic growth, agriculture, health, democracy and governance, and 
basic education.


    Question 1c.  Can you speak about the FY 2017 request for improving 
food security in Haiti?

    Answer. The FY 2017 request of $9 million will allow USAID to 
advance gains made through the Feed the Future (FTF) Initiative. 
Agriculture is central to the Haitian economy, employing approximately 
60 percent of the population and serving as the primary source of 
income in rural areas. Under FTF, the U.S. government has introduced 
improved seeds, fertilizer, and technology, as well as improved access 
to irrigation and markets for almost 83,000 Haitian farmers. USAID has 
also linked farmers directly with buyers, and improved farmer access to 
micro-credit. Women have been involved in the entire value chain of 
agricultural products and represent around 30 percent of direct 
beneficiaries. USAID plans to continue to support these households and 
to expand these efforts to another 30,000 farmers by 2018.
    USAID's work to address environmental degradation in Haiti is 
closely linked to efforts to improve the country's food insecurity. 
More than half of all land in Haiti is steeply sloped, and 
approximately 85 percent of the country's watersheds are degraded, 
causing frequent flooding, erosion, reduced availability of groundwater 
for irrigation in the fertile plains, and depletion of the basic soil 
nutrients required for increased food production. As part of a larger 
effort to stabilize watersheds, increase tree cover, and promote 
sustainable agricultural practices in disaster prone regions of the 
country, from 2009 to 2014, USAID supported reforestation efforts 
through the planting of over 5 million seedlings with a survival rate 
of about 70 percent throughout the country. USAID plans to fund 
additional community-based reforestation and related policies.Questions 
for the Record Submitted toPrincipal Deputy Assistant Secretary 
Francisco PalmieriSenator David Perdue (#2)Senate Foreign Relations 
CommitteeApril 26, 2016Question:


    Question 2.  GAO report was issued in June 2015 on the Haiti 
Reconstruction effort (report no: GAO-15-17), which reported that USAID 
extended the timeframe for its strategy to reconstruct Haiti from its 
January 2010 earthquake by three years, to end in 2018. At the same 
time, GAO had reported that USAID projects under the Haiti 
reconstruction effort had achieved mixed results, with many projects 
not fully meeting their intended results and some infrastructure 
projects in particular years behind schedule. Almost a year has gone by 
since this GAO report. And as a whole, we've invested almost $4 billion 
in Haiti reconstruction and relief.


   Have any improvements been made in the results projects are 
        achieving and in moving infrastructure projects forward?


   What are the major achievements that USAID expects to have 
        completed by the end of the Haiti reconstruction strategy in 
        2018?


    Answer. Haiti has historically been a challenging environment, with 
chronic weaknesses of governance and recurring periods of political 
uncertainty. Despite these challenges, USAID's pace of programming in 
Haiti has seen improvements overall. For example, USAID's Cap-Haitien 
Port Rehabilitation and Public-Private Partnership Project now has an 
approved Master Plan in place. The project has begun breaking ground on 
renovations and building new warehouses.
    The port rehabilitation work and framework for a public private 
partnership for port operations are also in process. The Government of 
Haiti, with USAID assistance, conducted pre-solicitation meetings in 
Miami during the last week of April 2016, and the transaction documents 
are scheduled to be released by Haiti in July 2016. USAID released the 
draft request for proposals and expects to award the contract for 
replacement of piers and dredging of channels in spring 2017, with 
works expected to be completed by the middle of 2020. USAID has also 
awarded contracts for customs and regulatory reforms. Work on these 
items will continue for the next 24 months.
    There has also been significant progress in health infrastructure 
activities. During the 2010 earthquake, Haiti's largest teaching 
hospital in the country, the Hospital of the State University of Haiti 
(HUEH), suffered severe damages and collapsed buildings. At the request 
of the Government of Haiti, USAID and the Agence Francaise de 
Development engaged in supporting reconstruction activities as co-
donors. While the full reconstruction project is moving forward, USAID 
has already renovated temporary facilities (emergency and maternity 
wards) of HUEH so the hospital could continue to operate while under 
construction. Reconstruction of the main hospital campus is 
progressing; all foundations and structural steel have been erected and 
the main four-story logistics building is nearing completion. ?
    The construction of a modern medical teaching facility in Port-au-
Prince is also being funded by USAID. This facility will replace and 
combine the former Faculty of Medicine and Pharmacy, School of Nursing, 
and Lab Technician School, which were all destroyed in the January 2010 
earthquake. Reconstruction activities completed so far include 
temporary space for the School of Nursing, which will be converted into 
a permanent dormitory hall upon completion of the main project site. 
Significant progress has been made on the main campus, and construction 
is scheduled to be completed by July 2016.
    USAID is also funding the reconstruction and expansion of St. 
Justinien Hospital. The current facility is significantly overcrowded 
and badly deteriorated with multiple roof leaks and cracks in walls and 
floors. The new facility will consist of approximately 2,070 square 
meters of new space including a neonatal ward, infant ward, children's 
and adolescent wards, two isolation rooms, exam rooms, and a triage 
area. The old ward has been demolished and the new foundation is 
constructed. The structural steel is being erected now, and project 
completion is expected in 2017.
    While the Agency has been involved in renovation and construction 
of larger health facilities, a series of small renovation projects have 
been initiated to help rebuild smaller scale health care infrastructure 
and improve accessibility for people with disabilities in schools. The 
project involves 12 health care centers and schools in the North, 
Northeast, West, and Artibonite Departments and will be completed in 
2016. So far, six schools have been retrofitted; pre-construction and 
construction activities are ongoing at additional sites.
    As part of the original post-earthquake strategy, in the housing 
sector, USAID has constructed over 900 permanent homes with running 
water, modern sanitation, and electricity. The construction of another 
574 units is currently in process. Of these 574, USAID is partnering 
with the Inter-American Development Bank (IDB) on 426 units that will 
be completed by the end of 2016 and 148 units with the Qatar Haiti Fund 
that are scheduled to be completed by Spring 2017. For the 574 homes, 
USAID's role is limited to site preparation, for example land leveling, 
water and sewer systems, roads and walkways, and street lighting, 
whereas the IDB and Qatar Haiti Fund will cover the costs of housing 
construction.
    USAID is promoting sustainability of the new settlements by 
supporting training for local residents to maintain their homes and 
building the capacity of the Government of Haiti's social housing unit 
to manage settlement areas, collect lease payments, and maintain the 
utilities and common areas. USAID has since revised its strategy to 
focus on housing finance and improvements in existing communities.
     USAID continues to see progress in non-infrastructure sectors as 
well. More than 80,000 rural households have benefited directly from 
Feed the Future interventions and the Agency will continue to work with 
these farmers into 2018. USAID is also committed to improving the 
quality of, and access to, education for Haitians through the Ann ALE 
education program, which aims to directly support 300 schools and 
improve 100,000 students' reading and writing skills through 
interactive teaching methods and community-based activities by 2019.


    Question 3.  This year's request of economic support funds (ESF) 
for Haiti is $79.9 million. This amount is almost half of the $134.25 
million that was allocated for Haiti in FY 2009, before the earthquake 
occurred.


   Can you explain the ESF budget trend for Haiti since FY 2009, and 
        why this year's requested amount is less than the pre-quake 
        funding level?


    Answer. The FY 2017 request levels are sufficient for this year, 
given remaining unexpended funds that are available under the U.S. 
government post-earthquake strategy, and our commitment to achieving 
lasting results and ensuring responsible investment of U.S. taxpayer 
dollars. However, USAID has made tremendous progress in accelerating 
its pace of awards in Haiti, having increased its staff and provided 
additional procurement resources. As a result of these changes, last 
fiscal year, for example, USAID/Haiti sub-obligated $400 million into 
grants and contracts to contribute to meeting USAID's strategic 
objectives for Haiti. These and other efforts have led to a 30 percent 
increase in monthly expenditures. USAID/Haiti expects to reduce 
pipeline in line with Agency best practices by the end of FY 2017.


    Question 4.  The administration's FY 2017 budget request for State 
and USAID includes more than $1.7 billion in foreign assistance to 
Latin America and the Caribbean, a 10% increase over FY 15 levels. This 
includes a 92% increase in development assistance (DA) funding, 
primarily to support development efforts under the U.S. strategy for 
Engagement in Central America. It also includes a 102% increase in 
nonproliferation, anti-terrorism, de-mining and related programs (NADR) 
to support efforts in Columbia. There's also a 46% increase in foreign 
military financing funding (FMF), most of which would support military 
partners in Colombia and throughout Central America.


   Can you let me know which programs' funding levels decreased in 
        order to support these increases?


    Answer. The FY 2017 Request for Department of State and USAID 
totals $50.1 billion, an increase of $2.3 billion over the FY 2015 
appropriation. While the FY 2017 request represents an increase over FY 
2015, diplomatic engagement and foreign assistance needs are ever 
rising, and certain tradeoffs had to be made as the administration 
finalized the request. Of the $50.1 billion, $1.7 billion is requested 
for foreign assistance programs in the Western Hemisphere. While the FY 
2017 Request includes a $155 million (10 percent) increase above 
funding allocated to the region in FY 2015, this funding is part of the 
overall increase in funding requested by the President in FY 2017 for 
the Department of State and USAID above the FY 2015 appropriation.
    The President has made clear his commitment to providing strong 
support for our partners and programs in the Western Hemisphere, 
including those in Central America, Colombia, Mexico, and elsewhere. 
The FY 2017 Request of $1.7 billion for the Western Hemisphere reflects 
this commitment. The increases in this request will bolster efforts to 
address the underlying factors of migration from Central America and 
help support the peace process in Colombia.


    Question 5.  As you all know well, the world is facing 
unprecedented humanitarian crises--conflict and disaster have displaced 
millions of people. In June 2015, the U.N. High Commissioner for 
Refugees (UNHCR) reported that worldwide, nearly 60 million persons 
were forcibly displaced--the highest number on record. Many people 
forget that a large number of these refugees, asylum seekers, and 
internally displaced persons (IDPs are fleeing violence in the Western 
Hemisphere with almost 350,000 refugees and more than 6.5 million 
internally displaced persons (IDPs) originating from Colombia alone 
according to the U.N.CR as of this week. Despite these record highs, 
the total U.S. humanitarian assistance request is $6.156 billion--
that's 20 percent less than FY 2016. Further, the amount in the 
Migration and Refugee Assistance account in this year's request 
decreased by $267 million.


   What accounts for this significant decrease? Particularly when the 
        causes of this mass migration have yet to be solved, and so 
        many refugees and IDPs are in need of assistance?


    Answer. The administration remains dedicated to providing strong 
support for humanitarian programs worldwide. The President's FY 2017 
request reflects the administration's ongoing commitment to these 
programs. The FY 2017 request level includes $1.957 billion for the 
International Disaster Assistance Account, $1.35 billion for Food for 
Peace Title II, $2.799 billion for the Migration and Refugee Assistance 
Account, and $50 million for the Emergency Refugee and Migration 
Assistance Fund. The overall FY 2017 request for humanitarian 
assistance is $511 million higher than the FY 2016 request. In concert 
with FY 2016 resources, the request will enable the U.S. Government to 
respond to the dire humanitarian situation resulting from displacement 
from violence around the world, including Colombia and Central America, 
as well as the humanitarian needs resulting from El Nino.
    Thanks to generous support from the U.S. Congress, the U.S. 
government is the largest humanitarian donor in the world. We plan to 
continue our robust support in FY 2016 and FY 2017 while urging other 
donors to contribute to these ongoing emergencies. We will continue to 
ensure that we are using funds as efficiently as possible in order to 
meet current and unforeseen needs.


    Question 6a.  For FY 17, the State Department is requesting $3.8 
million for WHA to increase staff and update the aging facilities of 
the U.S. Embassy in Havana, and notes in the request that ``adding 
these new positions is vital to U.S. national security and to 
supporting Cuban civil society.'' At the same time, the 
administration's FY 2017 foreign aid budget request for Cuba democracy 
and human rights funding is for $15 million in Economic Support Funds 
(ESF), a 25% reduction from the $20 million provided annually in recent 
years to nongovernmental democracy and human rights programs.


   Please describe in what areas the nine additional staff that are 
        requested would work, and in particular, how they would help 
        support Cuban civil society.


    Answer. The Embassy has not created any new positions since the 
transition from an Interests Section to a full-fledged Embassy, despite 
an enormous increase in workload. The fact that our Embassy in Havana 
is severely understaffed makes it difficult to meet the U.S. 
government's objectives. To put the staffing level of our Embassy in 
Havana in context, Embassy Santo Domingo has approximately 150 U.S. 
direct hire employees compared to 54 in Havana.
    Of the nine additional staff requested, six would be assigned to 
Embassy Havana and three would join the Office of the Coordinator for 
Cuban Affairs in Washington, DC. The Havana positions would work in the 
Political, Economic, and Management sections. A mixture of reporting 
and support positons are required to deepen U.S. understanding of 
Cuba's political, social, and economic environment, oversee maintenance 
upgrades, conduct human rights monitoring and advocacy, and deepen law 
enforcement cooperation on issues such as fugitives and 
counternarcotics. Adding these positions is vital to U.S. national 
security and to supporting Cuban civil society.
    During re-establishment negotiations, we successfully negotiated 
greater freedom for our diplomats to travel in Cuba to better monitor 
developments within the country. The ability to travel outside Havana 
and interact with Cubans outside the capital is vital to our security 
and to our support of the Cuban people. We need additional staff in 
Cuba to take advantage of this enhanced ability to travel. Questions 
for the Record Submitted toPrincipal Deputy Assistance Secretary 
Francisco PalmieriSenator David Perdue (#6b and #6c)Senate Foreign 
Relations CommitteeApril 26, 2016Question:


    Question 6b.  What is the rationale for the 25% reduction in Cuba 
democracy and human rights funding? Has there been any change in the 
type of assistance provided in the aftermath of the reestablishment of 
diplomatic relations?

    Answer. The promotion of democratic principles and human rights 
remains the core goal of U.S assistance to Cuba. We agree that support 
to civil society in Cuba remains critical, and the re-establishment of 
diplomatic relations has not changed that. We will continue to 
implement democracy programs supported by Economic Support Funds. We 
believe the FY 2017 request provides a sustainable level of democracy 
support that will enable us to continue advancing our democracy and 
human rights goals in Cuba.
    In prior years, the scope of the tools available to us to interact 
with civil society in Cuba was limited. As restrictions on travel by 
Cubans and to Cuba have been eased on both sides, additional tools are 
available that enable the United States to engage directly with the 
Cuban people. For example, we are now able to conduct some forms of 
training in the United States or third countries whereas previously, 
these programs could only be carried out in Cuba.
    Also, U.S. educational, religious, and humanitarian groups now 
connect directly with the Cuban people. Other programs funded by the 
Department of State offer enhanced opportunities for professional, 
academic, and cultural exchanges with Cuba. Cuban activists are able to 
travel regularly to the United States and elsewhere.
    Under these circumstances, we also believe the FY 2017 request 
takes into consideration that one of our goals in supporting civil 
society ? worldwide ? is to provide the kind of training and capacity 
building that allows them gradually to become more self-sustaining.
    Regarding the status of prior year funding, the Department of State 
obligated all of the Cuba ESF funding in Fiscal Years 2013 and 2014. We 
are soliciting proposals for FY 2015 funds.


    Question 6c.  How would you assess the impact and effectiveness of 
U.S. democracy and human rights assistance in Cuba?

    Answer. When U.S. government-funded programs began, we supported 
the few nascent civil society groups on the island who operated 
primarily in urban environments. Since then and due in part to U.S. 
government programming efforts, we support the professionalization of 
the growing, diverse civil society groups throughout Cuba, and have 
assisted in amplifying the voice of independent media through training 
and information dissemination.
    Growing activism within Cuba by independent groups, increased 
information flow to, from and within the island, and increasing 
disillusionment with failed government policies have emboldened a 
greater number of Cubans and provided us the opportunity to engage with 
a wider range of civil society actors, including a new generation of 
activists and individuals who work to create new opportunities for an 
open and prosperous Cuba.
    U.S. government assistance in Cuba responds to the Cuban people's 
demand for human rights and democratic governance. Our programs train 
independent journalists to provide an alternative voice to state-run 
media, and equip human rights defenders to better document human rights 
abuses. Following Cuba's lifting of travel restrictions in early 2013, 
more civil society members have been able to participate in training 
opportunities outside of Cuba, increase their professional networks, 
and present the situation regarding human rights through reports and 
testimony to international fora. U.S. government assistance also 
provides crucial humanitarian assistance to alleviate the hardships for 
victims of political repression and their families, so they may 
continue to speak out for their basic fundamental and human rights.
    We support online platforms to promote the free flow of information 
and disseminate reports of human rights violations, reaching more 
Cubans than before as viewership of the platforms has dramatically 
increased as internet access expands on the island, a trend we expect 
to continue.
    We will continue to assess the impact and effectiveness of our 
programs and respond to changing conditions on the island as well as 
new strategies and needs identified by civil society groups.


    Question 7.  The administration has requested more than $391 
million in foreign assistance for Colombia in FY 2017 to support the 
country's efforts to end its 52-year internal conflict and implement a 
sustainable and inclusive peace.


   In your view, what assistance does Colombia need to ensure a 
        successful post-conflict transition?

   To what extent are you able to move ahead with programming while 
        peace negotiations are still underway?

   How would U.S. assistance efforts change if the peace negotiations 
        fail or if the Colombian public chooses not to approve the 
        peace accords?


    Answer. We strongly support President Santos' efforts to reach a 
just and lasting peace with the FARC. The negotiations are in the 
endgame. We are hopeful the parties will reach a final accord soon, 
leading to the FARC's disarmament by the end of this year.
    The President's Peace Colombia strategy focuses U.S. assistance on 
three broad pillars: (1) security, including counternarcotics, counter-
transnational organized crime, demining, and demobilization of former 
fighters; (2) expanding state presence and public institutions; and (3) 
justice and other assistance for victims.
    The President's strategy is flexible. A guiding principle is to 
focus our assistance on special U.S. capabilities that can catalyze 
Colombia's efforts to end the conflict, secure a just and durable 
peace, consolidate public support for the peace process, and address 
the conflict's long-term underlying drivers. Building on the success of 
prior year programs, the FY 2017 $391 million State and USAID request 
will fund critical programs to strengthen Colombia's efforts on 
victims' assistance, reintegrating ex-combatants, and rural 
development; counternarcotics and transnational organized crime; 
military civil engineering; and demining.
    As the negotiations progress, the Colombian government continues to 
combat illegal armed groups, drug-trafficking, and transnational 
organized crime; remove landmines; strengthen public institutions and 
foster licit economic opportunities in areas where the state's presence 
has historically been weak; and provide assistance to conflict victims. 
U.S. assistance for Colombia's efforts continue to be critical and 
advance U.S. interests in regional security, counternarcotics, law 
enforcement, economic development, justice, and human rights.
    Certain Colombian efforts, such as reintegrating demobilized 
combatants, could be deferred or deemphasized if the peace accord is 
delayed. Colombian military and law enforcement operations might 
intensify in regions where illegal armed groups continued to pose 
threats. Colombian efforts to strengthen the state's presence, build 
public institutions, promote economic opportunity, and deliver victims 
assistance would likely concentrate on more permissive areas.
    Adjustments to U.S. assistance, if the Colombian public failed to 
approve the final accord, would take into account the Colombian 
government's plans to consolidate its development and security gains, 
to ensure a lasting peace.


    Question 8.  A range of governments, NGOs, and international 
organizations work to promote democracy around the world.


   How does the State Department and the US government as a whole 
        coordinate democracy promotion efforts with these groups?

   How does DRL, if at all, work with organizations such as USAID or 
        the National Endowment of Democracy?

   How does DRL work with the regional bureaus regarding democracy 
        monitoring and oversight? In your view, how can these efforts 
        be more effective?

   How do DRL assistance programs to promote democracy differ from 
        those of USAID?

   What, if any, are the State Department's relative advantages or 
        unique strengths with regard to planning and implementing 
        democracy and governance activities?


    Answer. With more than 100 operating units within the Department of 
State and USAID in Washington and overseas that are involved in the 
promotion of democracy abroad through foreign assistance, the 
Department and USAID place a high value on coordination to help ensure 
assistance efforts are complementary and non-duplicative. The U.S. 
government regularly engages with other funders and entities involved 
in promoting democracy and human rights around the world. In 2006, the 
Office of U.S. Foreign Assistance Resources was established to provide 
leadership and coordinate foreign assistance planning and management 
across the Department and USAID. The relevant Chief of Mission 
coordinates all assistance awards obligated overseas and assistance 
awards obligated in Washington are coordinated by the responsible 
operating unit with relevant stakeholders.
    For example, proposals for new assistance awards managed by the 
Bureau of Democracy, Human Rights and Labor (DRL) undergo interagency 
review panels to ensure that potential programs are well coordinated, 
complement, and do not duplicate existing programming efforts. DRL 
invites representatives from the relevant regional bureaus (which 
represent the views from U.S. embassies), other functional bureaus as 
appropriate, and USAID (which draws its input from USAID field-
missions). With respect to democracy programs managed by other 
operating units, DRL may be consulted on the drafting of comprehensive 
strategies, solicitations, and Congressional notifications, and may 
also participate in technical review panels. DRL regularly coordinates 
and exchanges information with USAID and the NED on respective program 
portfolios.
    The promotion of human rights and democratic governance is an 
integral part of the U.S. development agenda. USAID views human rights 
and democratic governance as fundamental ends of development and as 
critically important means to the reduction of poverty. USAID employs a 
bottom-up approach to programming whereby field missions develop five-
year Country Development Cooperation Strategies (CDCS) that analyze and 
prioritize key challenges in the DRG sector. The most effective 
programmatic approaches are developed for the country context and 
activities are implemented through a combination of mission and central 
awards.
    USAID's Center of Excellence on Democracy, Human Rights, and 
Governance (DRG Center) supports DRG programs in the field by operating 
14 central funds or pre-competed implementation mechanisms (both grants 
and contracts). These capabilities include support for programs in 
elections and political party assistance, rule of law, anticorruption, 
human rights, legislative strengthening, civil society, global labor 
programs, media, and internet freedom.
    DRL programs directly support national security and foreign policy 
goals and objectives, and advance key priorities of the President and 
Secretary of State. These include promoting Internet freedom, defending 
international religious freedom, empowering women and girls and 
preventing and responding to gender-based violence, preventing 
atrocities and countering violent extremism, supporting transitional 
justice, fighting corruption and cronyism, promoting media freedom, 
protecting labor rights, advancing the human rights of members of 
marginalized populations, and supporting pillars of President Obama's 
Stand with Civil Society agenda.
    DRL has developed best practices and specialized mechanisms to work 
in closed societies and closing spaces that may have a limited or no 
U.S. government presence. This ability to conduct sensitive programs in 
a manner that meets federal requirements while keeping grantees safe is 
the basis of all DRL programs, 90 percent of which operate in 
restrictive or challenging environments. As a result, DRL has been able 
to sustain support in environments when other donors were required to 
halt.
    DRL is able to administer programs in ways that allow the programs 
to be flexible, adaptable, and responsive to complex and changing 
situations on the ground, while mitigating risk to both our 
implementing partners and local beneficiaries. DRL manages global 
initiatives that can rapidly respond to deteriorating situations and 
emerging opportunities, and provide emergency assistance to human 
rights defenders, civil society organizations, and individuals under 
attack or threat of attack. Since 2007, DRL emergency assistance 
programs have assisted more than 3,300 people and organizations in more 
than 98 countries and territories.


                               __________

 Responses to Questions Submitted by Senator Marco Rubio to Assistant 
Secretary of State, Bureau of Democracy, Human Rights, and Labor, Tomaz 
                               Malinowski


    Question 1.  The Budget includes $2.7 billion for programs that 
support rule of law and human rights, good governance, political 
competition and consensus-building and civil society capacity-building, 
and supports key Administration initiatives, including the Open 
Government Partnership and Stand with Civil Society initiative.


   Can you provide details on the specific programs that support the 
        above-mentioned initiatives?


    Answer. Within the $2.7 billion request for Democracy, Human 
Rights, and Governance (DRG) programs, $652.1 million is requested for 
civil society programming globally, which includes funds for bilateral 
and regional civil society programs as well as the Lifeline: Embattled 
Civil Society Organization (CSO) Assistance Fund, the Open Government 
Partnership (OGP), the Civil Society Innovation Initiative (CSII), the 
Legal Enabling Environment Program (LEEP), Civil Society Sustainability 
Index (CSOSI), Information Safety and Capacity Project (ISC), and the 
Emerging Global Leaders Initiative (EGLI).
    The Lifeline: Embattled CSO Assistance Fund provides emergency 
assistance to CSOs under threat or attack, subject to 
politically<dagger>motivated prosecution, or otherwise at risk due to 
repression from state or non-state actors; provides support and short-
term concentrated capacity building to CSOs for advocacy initiatives 
and preventive measures; and provides publicity for cases of 
significant crackdowns on civil society. Lifeline is managed by the 
Department of State's Bureau for Democracy, Human Rights, and Labor 
(DRL), which created the initiative with $1 million in seed funding in 
2011. It has since grown to include support from 17 other governments 
and two foundations. Since its launch, Lifeline has assisted more than 
900 CSOs in 97 countries. In one case, government officials raided the 
office of a CSO, confiscated equipment and financial documents, and 
brought the employees of the CSO in for questioning, where they 
threatened criminal action based on false accusations of embezzlement. 
Because of Lifeline assistance, the group was able to relocate, replace 
their equipment, and continue their work.
    The Open Government Partnership (OGP) was launched by President 
Obama in 2011 with seven other heads of state and civil society 
leaders. A global partnership between government and civil society 
across 69 countries designed to facilitate a ``race to the top'' by 
incentivizing best practices, OGP works to advance transparency and 
accountability through national commitments for reform and an 
independent review mechanism for tracking progress. The OGP Secretariat 
is supported in part by U.S. government funding and OGP members have 
collectively made more than 2,000 publicly-monitored commitments--
improving how governments serve more than 2 billion people worldwide. 
As a direct result, citizens are petitioning their governments online, 
citizens are participating directly in policy making, and governments 
are partnering with civil society to find new ways to expose corruption 
and improve good governance.
    The Civil Society Innovation Initiative (CSII) was announced in 
September 2014 to connect civil society through a network of 
demand<dagger>driven innovation hubs that encourage cooperation, 
innovation, research, learning, and peer-to-peer exchanges. USAID is 
partnering with the Swedish International Development Cooperation 
Agency (Sida) to create a process to ensure that civil society is an 
active partner in the design process of the hubs. To date, CDII has 
engaged over 500 CSO leaders to map existing networks and resources. 
Two global co-creation workshops and six regional co-design workshops 
brought together over 150 CSO leaders from 118 countries to design the 
hubs and participate in a ``pitch'' session in Colombia. USAID 
envisions that all six hubs will be launched in some capacity by the 
end of 2016.
    The Legal Enabling Environment Program (LEEP) was established in 
2008 and is managed by USAID. It supports the International Center for 
Not-for-Profit Law to promote a more enabling legal and regulatory 
environment for CSOs and provides technical assistance to respond 
swiftly to regulatory threats to CSOs. Over the past four years, LEEP 
has supported and/or defended civil society in approximately 50 
countries, including strengthening the capacity of local civil society 
to defend itself.
    USAID's Information Safety and Capacity (ISC) project was 
established in 2011 and provides advanced, sustained information 
security assistance to CSOs, independent media, and human rights 
activists in countries where free expression, journalistic reporting, 
online communications, and advocacy is potentially risky to personal 
and digital safety. The ISC project connects democracy and human rights 
activists to mentors who work with them to ensure they are using 
technology securely and using the best tools tailored to their own risk 
environment. To date, ISC has mentored and assisted more than 200 
organizations and organized a dozen workshops that bring groups 
together for coordination and joint planning.
    The Civil Society Organization Sustainability Index (CSOSI) began 
in 1997 and reports on the strength and overall viability of the civil 
society sector in over 70 countries in sub-Saharan Africa, Asia, the 
Middle East and North Africa, and Europe and Eurasia based on seven key 
dimensions: legal environment, financial viability, organizational 
capacity, advocacy, service provision, infrastructure, and public 
image. With support from USAID, this index and corresponding 
information is available to the public. It is used by CSOs to engage in 
policy dialogue with governments and private sector.
    Since the announcement of the Emerging Global Leaders Initiative 
(EGLI) in September 2014, 77 emerging civil society leaders have come 
to the United States on a leadership development fellowship ranging 
from six-18 months. As part of the program, fellows convene three times 
in Washington, DC, for leadership training and are placed at civil 
society organizations across the United States.


    Question 2.  The Bureau of Democracy, Human Rights and Labor (DRL) 
plays a key role in executing the will of Congress on human rights, 
democracy promotion, and religious freedom. It produces the annual 
human rights report and the annual International Religious Freedom 
Report, and vetting of security units pursuant to the Leahy human 
rights amendment.


   Does DRL feel that it has enough discretionary resources at its 
        disposal to carry out its mission?


    Answer. The Bureau of Democracy, Human Rights, and Labor (DRL) has 
sufficient resources to carry out its mission and appreciates the 
support it receives from Congress each year. New opportunities do 
arise, however, and the bureau's ability to address all priorities 
sufficiently can be stretched. Recent examples of such opportunities 
include protecting civil society, democracy, and security through the 
Community of Democracies; promoting transparency and combatting 
corruption through the Open Government Partnership; or strengthening 
multilateral efforts to promote Internet freedom through the Freedom 
Online Coalition.


    Question 3.  The Bureau of Democracy, Human Rights and Labor (DRL) 
plays a key role in executing the will of Congress on human rights, 
democracy promotion, and religious freedom. It produces the annual 
human rights report and the annual International Religious Freedom 
Report, and vetting of security units pursuant to the Leahy human 
rights amendment.


   What program areas have you identified that are neglected and 
        require additional funding that are not congressionally 
        mandated?


    Answer. The Bureau of Democracy, Human Rights, and Labor (DRL) 
continues to focus its efforts on programs that advance its core 
mission, including advancing civil society and promoting human rights. 
As with many foreign assistance programs, given broader budget 
constraints and other foreign policy and development priorities, needs 
are greater than available resources. Beyond DRL's own budget 
resources, DRL plays an important policy role informing U.S. 
Democracy,H rights, and governance (DRG) programs carried out by other 
agencies and bureaus. In the FY 2017, $2.7 billion is requested for 
U.S. DRG assistance through State and USAID. This request is $411.8 
million above the FY 2016 appropriation for such programs and would 
support the Administration's strategic goal of promoting resilient, 
open, and democratic societies.
    There are areas in which DRL could do more, including protecting 
civil society, democracy, and security through the Community of 
Democracies; promoting transparency and combatting corruption through 
the Open Government Partnership; strengthening multilateral efforts to 
promote Internet freedom through the Freedom Online Coalition; and 
strengthening efforts that assist businesses as they endeavor to 
respect human rights such as the Voluntary Principles on Business and 
Human Rights. The Bureau will work to extend its reach to these areas 
as resources allow.


    Question 4.  The Bureau of Democracy, Human Rights and Labor (DRL) 
plays a key role in executing the will of Congress on human rights, 
democracy promotion, and religious freedom. It produces the annual 
human rights report and the annual International Religious Freedom 
Report, and vetting of security units pursuant to the Leahy human 
rights amendment.


   Are there any congressionally mandated programs that require 
        additional resources to be effectively carried out?


    Answer. The Bureau of Democracy, Human Rights, and Labor has 
sufficient resources to carry out effectively congressionally mandated 
programs. As DRL works to fully implement authorities to ensure human 
rights violations and abuses are taken into account when reviewing visa 
eligibility, DRL anticipates the bureau's resource needs may grow in 
future years. Any additional future funding requirements would be 
included in future Congressional Budget Justifications.


    Question 5.  Having come from the human rights community you know 
for some time there have been conversations regarding the utility of 
various human rights dialogues and concerns that these dialogues have 
yielded little in terms of substantive outcomes and have had the 
unintended consequence of ghettoizing human rights in U.S. foreign 
policy.


   Can you share any significant deliverables during the course of the 
        Obama administration that have emerged from these dialogues, 
        specifically the U.S.-China and U.S.-Vietnam human rights 
        dialogues?


    Answer. Human rights dialogues with other governments are useful 
when the other government is willing to openly and genuinely address 
the issues discussed. Such dialogues also can be valuable opportunities 
to discuss our human rights concerns in greater detail and depth. We 
actively resist any effort by a government to use such dialogues as a 
substitute for substantive progress or to avoid bilateral discussions 
on human rights in other contexts.
    The U.S.-China Human Rights Dialogue (HRD) is just one forum among 
many where we discuss human rights concerns with the Chinese 
government. While Beijing seeks to confine human rights discussions to 
the HRD, they have not succeeded. Secretary Kerry and other Department 
principals raised human rights issue at every high-level engagement, 
including the Strategic and Economic Dialogue, the Legal Experts 
Dialogue, and other bilateral meetings. However, the HRD is another 
important channel for the United States to engage directly with the 
Chinese government on human rights in an in-depth manner--focusing on 
both systemic issues and specific political prisoner cases. This is not 
a venue where we simply agree to disagree.
    In some cases the dialogue has led to better conditions for 
political prisoners whose cases we highlighted or their release. For 
example, we repeatedly called for the release of journalist Gao Yu at 
the most recent dialogue in August 2015, and in November, she was 
released on medical parole. That said, we are greatly concerned about 
the recent significant downturn in human rights in China and to signal 
that the HRD is no substitute for progress on human rights, a dedicated 
human rights dialogue has not been planned this year.
    The annual U.S.-Vietnam Human Rights Dialogue is likewise a 
critical forum to engage in in-depth discussions. There have been some 
successes, and we believe continuation of the Dialogue has prevented 
greater backsliding on many democracy and human rights issues. On the 
positive side, the number of prisoners of conscience continues to 
decline due to the decreasing rate of new arrests. The broader trend 
has been the overall number of prisoners of conscience decreasing from 
160 in mid-2013 to fewer than 100 today. In February, Vietnam acceded 
to the U.N. Convention Against Torture and the U.N. Convention on the 
Rights of Persons with Disabilities. Vietnam also passed a new law to 
provide greater protections to LGBTI persons, including the 
decriminalization of gay marriage. In addition, Vietnam's commitments 
to allow the formation of independent labor unions as part of the 
Trans-Pacific Partnership (TPP) agreement would be significant if TPP 
is ratified and implemented and if the commitments are realized.
    Still, the overall human rights record in Vietnam remains poor. 
Since January, Vietnamese courts have convicted nine individuals for 
peaceful political expression. The National Assembly failed to ease or 
eliminate vague national security provisions in the criminal code that 
are used to prosecute peaceful dissent. Instead, it actually 
strengthened and increased penalties for some of the relevant political 
offenses. The Assembly will be considering key laws on association, 
assembly and religion or belief this year, and we are urging the 
government to ease restrictions on NGOs, religious groups, and 
demonstrations. The most recent Human Rights Dialogue concluded in 
April 2016 and we will assess its outcomes over the coming months.


    Question 6.  In a response to a Freedom House question this year 
regarding the continued violence and discrimination faced by ethnic and 
religious minorities in Burma, the State Department said that the $29.9 
million requested would go towards supporting the ongoing democratic 
transition and reforms as well as advance national reconciliation and 
the political dialogue process. While this is laudable, these aims 
outlined in this response are very broad and the response did not 
address the specific plight of ethnic and religious minorities, 
including the Rohingya, the Kachin and the Chin, who continue to suffer 
violence and discrimination.

   Can the State Department go into more detail into how the funding 
        will specifically target the situation of the ethnic 
        nationalities and religious minorities?


    Answer. The U.S. remains deeply concerned about the humanitarian 
and human rights situation in Burma, including the situation of ethnic 
and religious minorities. Since FY 2015, the U.S. has provided over $77 
million in humanitarian assistance for vulnerable Burmese, including 
Rohingya, Kachin, and Chin, and populations along the Thailand-Burma 
border. To assist Rohingya transitioning from internally displaced 
persons camps and address the needs of surrounding vulnerable Rakhine 
communities, USAID is providing $5 million to support livelihoods, 
early recovery, trust-building, and income generation among both 
groups.
    The Bureau of Democracy, Human Rights, and Labor (DRL) has 
programmed $1.25 million to date in programs that promote religious 
diversity and tolerance, document abuses and advocate against religious 
discrimination, conduct interfaith dialogue, and support community 
actors seeking to bridge religious divides in Burma. DRL is currently 
designing programs to promote a diverse, multi-ethnic and multi-
religious society in Burma that respects the rights of all people, and 
addresses inequalities faced by the Rohingya and other ethnic and 
religious minorities. DRL will support projects that address social, 
political, and economic factors that contribute to cycles of 
intolerance, violence, and the internal displacement of minorities.


    Question 7.  How will this budget assist the Mexican government in 
addressing ongoing violations of religious freedom as well as fight 
impunity and strengthen the rule of law?

    Answer. The FY 2017 budget will strengthen the rule of law and 
reduce impunity by supporting Mexico's continued transition to an oral 
adversarial criminal justice system.
    The Bureau of International Narcotics and Law Enforcement Affairs 
(INL) supports training and capacity building for investigators, 
prosecutors, judges and other justice sector actors in their roles 
under the new system, and provides support at both the federal and 
state level to develop more professional, accountable police forces. 
INL will continue to support accreditation to international standards 
in Mexico's prisons to help reduce crime while maintaining safer, more 
secure, and humane prisons. DRL plans to support projects in Mexico 
that address social factors contributing to cycles of intolerance and 
violence toward religious and ethnic minority populations. Our efforts 
in Mexico address impunity and strengthen the rule of law by empowering 
civil society organizations and journalists to promote human rights. A 
strong civil society is the cornerstone of any democracy and is 
essential to ensuring fundamental freedoms, including freedom of 
religion, so we are also committed to working with Mexican civil 
society to encourage reform.
    In addition to activities financed by our foreign assistance 
budget, the United States is committed to working with the Mexican 
government and its citizens to strengthen the rule of law, promote 
transparency, accountability, and anti-corruption efforts, and protect 
human rights, including religious freedom, in Mexico.
    The Department closely tracks reports of local political leaders 
pressuring Protestants to convert to Catholicism through forced 
displacement, arbitrary detention, and destruction of property in some 
rural and indigenous communities. We are also concerned about reports 
that priests and other religious leaders in some parts of the country 
continued to be targeted last year with threats of extortion, death, 
and intimidation, often from organized criminal groups.
    Each year, the Assistant Secretaries of DRL and the Bureau of 
Western Hemisphere Affairs (WHA) lead a Bilateral Human Rights Dialogue 
between the United States and Mexican governments, during which the two 
sides discuss cooperation on human rights issues. We hold discussions 
with civil society members ahead of this dialogue and throughout the 
year to ensure that we understand their concerns. The dialogue is an 
opportunity to work together and share best practices on a wide range 
of topics related to the rule of law, violence against women and 
persons with disabilities, journalist security, and basic freedoms of 
expression, association, and religion.


    Question 8.  Recent reports have stated that a panel of 
international experts commissioned by the Inter-American Commission on 
Human Rights (IACHR) has said that the Mexican government ``has 
hampered the inquiries on the investigation of the disappearance of 43 
Mexican students.''


   Do you believe this reporting to be accurate?

    Answer. As President Obama has said, this gruesome crime has no 
place in a civilized society. We commend the Commission and the experts 
for their work, which was requested by the Mexican government, and for 
the assistance it has provided Mexico and the victims' families in 
working to resolve this tragic case. The final detailed report includes 
over 600 pages of analysis and recommendations and has been extensively 
covered in the press, as have public statements by the experts. We 
encourage the Government of Mexico to carefully consider the report's 
recommendations, evaluate suggested actions to address the issue of 
forced disappearances, provide support to the victims' families, and 
continue their efforts to bring the perpetrators of these terrible 
crimes to justice. The Government of Mexico took an important step by 
recognizing the role that the international community could play, and 
by requesting that the Inter-American Commission on Human Rights 
(IACHR) appoint an independent group to support its investigation.
    The experts are well-known and widely respected experts on the rule 
of law, human rights, and public policy. Their report and public 
statements reinforce the critical importance of bringing to justice the 
perpetrators of these crimes to ensure accountability and bring closure 
for the victims' families, who have suffered deeply. During the course 
of the expert group's mandate, U.S. officials urged the Mexican 
government to fully facilitate the experts' review of the 
investigation. We now look forward to learning what the follow-up 
mechanism will entail, with respect to the experts' recommendations and 
work, as announced by the IACHR following its recent spring period of 
sessions.
    Beyond the case of the 43 students, the report reinforces the need 
to continue efforts in Mexico to strengthen accountability and the rule 
of law. The United States is supporting these efforts through 
strengthening communities and institutions, supporting Mexican efforts 
to establish and sustain the rule of law, advance transparency and 
anti-corruption efforts, and working with Mexico to promote and protect 
human rights.


    Question 9.  There are over 3 billion estimated internet users in 
the world as of 2014. The Internet as we know it has transformed our 
societies and economies, and it has thrived because it is open, free, 
and encourages innovation and information sharing.


   How effective has DRL been in promoting a free and open internet 
        with its current resources?

    Answer. In 2014, DRL commissioned an external evaluation by the 
Rand Corporation of its Internet freedom programming portfolio. The 
evaluation concluded that, ``The DRL Internet Freedom portfolio 
represents a resilient mix of both high-risk/high-gain and tried-and-
true approaches . . . balanced in investment allocation, geo-political 
focus, distribution of performance, and project breadth.'' Since 2008, 
DRL has invested over $145 million in those programs to promote 
Internet freedom globally through support for anti-censorship and 
secure communication technologies, digital safety, policy advocacy, and 
research. DRL's portfolio is the most comprehensive support for 
Internet freedom of any funder, private or public.
    Over the last five years, DRL has supported the creation and 
improvement of numerous anti-censorship and secure communications 
tools. These tools are used by millions of individuals each year to 
freely and safely access the global Internet. DRL's digital safety 
programs have provided over 180,000 human rights defenders with digital 
safety training, technical support, or emergency assistance. In 
addition, DRL has supported policy advocacy efforts to promote Internet 
freedom in nearly 40 key countries around the world. For example, in a 
country in Eurasia, DRL supported local civil society efforts to 
advocate against government plans to create an Internet ``blacklist'' 
and assisted with the development of a new multi-stakeholder Internet 
regulatory body.


    Question 10.  What obstacles or foreign governments has DRL 
identified that inhibit a free and open internet? How can these 
obstacles be overcome?

    Answer. More than half the world's population lives in a country 
where the Internet is censored or restricted. Repressive regimes are 
deploying new, sophisticated tactics to further limit Internet freedom. 
Many governments have begun actively manipulating online content, 
deploying malware to target human rights defenders, and launching 
digital attacks to silence users. Last year, servers that experts claim 
were associated with China's so-called ``Great Firewall'' launched a 
cross-border cyber-attack against human rights websites being hosted in 
the United States. The attack manipulated traffic intended for one of 
China's biggest web service companies, turning it into malicious code 
and re-directing it at American websites used by Chinese activists. The 
attack was dubbed the ``Great Cannon.''
    Many governments have also begun adopting restrictive policies to 
further limit freedom of expression online, including implementing 
national blacklists of banned websites, onerous online registration 
polices, and overbroad cybercrime legislation. Governments are also 
increasingly seeking to shift the burden of censorship to private 
companies and individuals by pressing them to store, provide access to, 
and remove online content.

    To promote a free and open Internet, DRL has:


 1. Invested over $145 million in Internet freedom programs to ensure 
        human rights defenders and ordinary citizens around the world 
        are able to safely access the global Internet. Our programs 
        provide individuals with the tools, information, and support 
        they need to circumvent censorship, defend against online 
        attacks, and communicate safely in closed environments. For 
        example, when the government of Burundi blocked access to 
        social media during election protests last summer, many human 
        rights defenders and journalists turned to anti-censorship 
        tools to continue reporting on the protests, documenting human 
        rights abuses and safely communicating with the outside world.

 2. Led multilateral efforts to promote Internet freedom. The United 
        States is a founding member of the Freedom Online Coalition, a 
        group of likeminded nations committed to promoting and 
        protecting human rights online. Since its founding in 2011, we 
        have doubled membership in the Coalition to 30 countries.

 3. Worked to build international consensus. The United States is part 
        of the core group that drafted and successfully negotiated a 
        series of pioneering resolutions on Internet Freedom at the 
        U.N. Human Rights Council. These resolutions, each of which has 
        passed by consensus, reaffirm that the same human rights that 
        people have offline must also be protected online.


                               __________

 Responses to Questions Submitted by Senator David Perdue to Assistant 
Secretary of State, Bureau of Democracy, Human Rights, and Labor, Tomaz 
                               Malinowski


    Question 1a.  I was disappointed to see the announcement earlier 
this month that the second round of Haiti's presidential elections was 
postponed due to allegations of fraud and subsequent threats of violent 
protests, leaving Haiti without a duly elected president or a complete 
federal government in place. Despite having agreed on a plan to move 
forward with an election by this week, the second round of elections 
has been postponed, possibly until as late as October. The U.S. has a 
tremendous stake in the future of Haiti's democracy. We have spent over 
$30 million on elections in Haiti in the past year, and the 
international community collectively has invested about $80 million.


   Can you let me know what we've used the $30 million for in support 
        of the elections? Can you tell me about the FY 2017 budget 
        request for election support in Haiti?


    Answer. We fully share your disappointment and agree it is 
essential to get elections back on track. The United States has a huge 
stake in Haiti's democracy. Through 2015, USAID had budgeted more than 
$30 million for election-related activities. These activities aim to 
strengthen Haiti's Provisional Electoral Council (CEP), and political 
party and civil society groups' capacity to organize and monitor 
regular and inclusive elections that meet international standards for 
transparency and fairness.
    To support the electoral process going forward, USAID has provided 
an additional $4.9 million in elections funding to the UN Office for 
Project Services (UNOPS) to provide transport and logistics support. 
USAID has also budgeted additional funding for the Consortium for 
Electoral and Political Processes Strengthening (NDI and IFES). This 
assistance equips the partners to respond effectively to the 
continually changing electoral and political process environment.
    As a result of the delayed elections, increased funding will likely 
be required. Until the CEP releases an electoral calendar, however, we 
cannot accurately project the total elections cost, since that will be 
significantly impacted by the CEP's decisions on the timing and 
possible grouping of Presidential, Parliamentary, and sub-municipal 
elections. Preliminary estimates prepared by UN Development Program and 
the CEP have included an additional $13 million for the next round of 
elections.
    Going forward, the U.S. government's and Haiti's technical partners 
stand by to assist efforts by civil society, the Haitian government, 
and the CEP to meet demands for increased credibility and transparency 
of the ongoing electoral process and to ensure a level playing field. 
However, each step will require sustained commitment and political will 
from the Government of Haiti and the CEP.


    Question 1b.  What is the State Department doing to help get 
Haiti's election cycle back on track?

    Answer. The Department of State is urging the Haitian government to 
complete the 2015 electoral process promptly and seat a democratically 
elected government, emphasizing that anti-democratic ``political 
solutions'' are not an acceptable outcome. We are supporting Haitian 
efforts aimed at finding consensual and constructive solutions that 
will see the February 5 political accord implemented and a conclusion 
to the electoral process as soon as possible. We are urging the 
verification commission to complete expeditiously its evaluation and 
the Provisional Electoral Council (CEP) to implement the commission's 
legal and constitutional recommendations. As interim President Privert 
has promised, we expect the CEP to announce its electoral calendar by 
June 6.


    Question 1c.  If elections get postponed again, does the State 
department have a plan in place for a U.S. response?

    Answer. Along with international partners, we are reviewing an 
array of possible responses by the United States if the electoral 
calendar is not issued on June 6, or if the deadlines announced in that 
calendar are not met.
    We have consulted closely with other donors to ensure a consistent 
and coordinated response to possible continued electoral delays. To 
date, the international donor community has generally spoken with one 
voice, urging political actors to stick with the previously agreed 
timetable. In some cases, international financial institutions' 
programs may be affected if there is a prolonged absence of a 
democratically elected government in Haiti.


    Question 1d.  If so, what is State prepared to do in order to 
influence the interim government to complete elections?

    Answer. We have indicated to the highest levels of the Haitian 
government that it is important to set early deadlines not only for the 
holding of elections, but also for the seating of those elected. The 
administration is reviewing a range of unilateral and multilateral 
actions we could take in the event that elections are not completed 
quickly. Such responses include UN Security Council action, 
Organization of American States (OAS) action, withdrawal of funding for 
elections, and pressure on individual decision-makers. Questions for 
the Record Submitted toAssistant Secretary of State Tomasz Malinowski 
by Senator David Perdue (#2a and 2b)Senate Committee on Foreign Affairs 
April 26, 2016


    Question 2a.  I recently wrote a letter to Secretary Kerry about 
this issue--some U.S. officials on the ground in Haiti believe a small 
group of candidates who were unsuccessful in the first election round 
are responsible for inciting allegations of fraud in the elections and 
sparking civil unrest in order to trigger a ``do over'' election, even 
stooping to the level of paying citizens to take the to the streets.


   How are State Department's resources being used to identify and 
        call out election disruptors?


    Answer. Some actors have mobilized supporters and championed 
allegations of fraud that to date are unsubstantiated; our Embassy 
observers and other international electoral monitors determined there 
was no massive fraud in the first round of presidential elections. The 
United States, through multiple statements and a visit to Port au 
Prince by Secretary Kerry, has made clear that electoral intimidation 
and violence are unacceptable. We expect those who organize, finance, 
or participate in electoral intimidation and violence to be held to 
account in accordance with Haitian law.
    In addition, through private meetings and public statements, the 
U.S. government has made clear that all parties must take their claims 
of fraud through the legal process, and not to the streets. Our efforts 
are focused primarily on encouraging the interim Haitian government to 
conclude the 2015 electoral process with the two candidates who won the 
most votes in the October 25 elections. Once elections are scheduled, 
we will expect Haitian security officials, with support from the UN 
security mission (MINUSTAH) as needed, to respond strongly to the 
threat or use of violence to disrupt the vote. We will also seek to 
identify the perpetrators of violence aimed at disrupting the 
elections, along with those who incited such acts, and take appropriate 
action, such as restricting visas, to target those responsible for 
inciting or committing violence.


    Question 2b.  Aside from public rhetoric and private talks, is 
State willing to use other diplomatic tools of persuasion, including 
travel restrictions and/or visa bans, for these disruptors and their 
families, who view U.S. travel ability as a status symbol?

    Answer. Yes, the Department of State is willing to use the 
diplomatic tools at our disposal to respond to disruptors of the 
electoral process. We are considering appropriate U.S. responses to 
continued delays, including visa revocation on human rights or other 
legal grounds, for those who deliberately disrupt the electoral process 
to pursue their own interests. We are prepared to back public 
statements and diplomatic pressure with concrete consequences, as 
needed.


    Question 3a.  Can you speak a bit on democracy and human rights 
efforts in Egypt, and how the FY 2017 budget request will work to 
address those issues?

    Answer. We are concerned by the deterioration of the human rights 
situation in Egypt in recent months. The President, Secretary Kerry, 
and other U.S. officials have repeatedly raised human rights concerns, 
including those related to religious freedom issues in our bilateral 
conversations with senior Egyptian officials and with civil society 
leaders. We continue to have frank discussions with Egyptian officials 
about the use of mass trials, the use of military courts to try 
civilians, arbitrary arrests, and prolonged pre-trial detention. We 
have also expressed concern about increased restrictions on the 
exercise of freedoms of expression, association, and peaceful assembly, 
as well as harassment of NGOs.
    The FY 2017 budget request complements these diplomatic efforts and 
it includes funds to work with targeted government institutions and 
non-governmental partners to enhance respect for human rights and rule 
of law, including by supporting Egyptian efforts to modernize the 
curriculum and instructional methods in initial entry training programs 
for public prosecutors. Assistance will also help strengthen good 
governance by providing expert advice on policy, regulatory, and 
management reform initiatives for national and sub-national government 
bodies, such as Ministry of Planning, Ministry of Finance and local 
councils, to support required fiscal and budgetary reforms and improve 
transparency, accountability, and service delivery. To complement these 
activities, assistance will support organizations that raise awareness 
of and advocate for improved public services and increased civic 
participation on key rights. Funding will continue to support technical 
assistance and training to government entities and the Egyptian people 
to counter trafficking in persons, combat violence against women, and 
promote a society that is more inclusive of marginalized populations.


    Question 3b.  What message do you think the consistent flow of 
foreign assistance, despite leadership, has sent to Egypt? Do you see a 
problem with how America provides continued security assistance to 
Egypt, or how that is viewed by Egyptians concerned about the 
government's human rights abuses?

    Answer. Since the January 2011 revolution, we have made clear our 
commitment both to safeguard our regional security interests and to 
support meaningful Egyptian political reform including respect for 
human rights. We are concerned by the deterioration of the human rights 
situation in Egypt over the past year, and we continue to raise our 
concerns both publicly and privately over increasing restrictions on 
freedom of expression, association and civil society, including at the 
highest levels of the Egyptian government.
    As is the case around the world, we use a wide range of tools 
including our assistance and diplomatic engagement to advance our 
interests with Egypt while also strengthening a strategic partnership 
with a country critical for regional stability. We understand the 
concerns regarding the human rights situation in Egypt, and 
continuously assess and refine our assistance to ensure we best support 
a politically, economically, and socially stable Egypt. In 2015, after 
a two-year review of our military and economic assistance, President 
Obama restructured our military aid to focus on our shared strategic 
objectives of improving Egypt's counterterrorism capability and border 
security while also providing direct economic assistance. Our economic 
assistance supports market reforms, inclusive growth, and job creation, 
providing much needed employment for a rapidly growing number of young 
people entering the workforce.
    For example, programs aim to strengthen basic skills at the 
elementary level, provide scholarships, and strengthen higher education 
institutions. We and the Egyptians share the same objective of 
deepening our strategic partnership. We remain concerned about 
restrictions on space for civil society and continue to engage with our 
Egyptian counterparts on this issue.


    Question 3c.  What do you think is the best policy option we have 
at our disposal to influence President Sisi's--and his government's--to 
halt their continued crackdown on human rights?

    Answer. With Egypt, as we do around the world, we use a wide range 
of tools to advance human rights and fundamental freedoms. Secretary 
Kerry and other senior officials have repeatedly emphasized to the 
Egyptian government that we continue to strongly support Egypt's 
security and economic development, but that long-term peace and 
stability are impossible without trust, accountability, and avenues for 
peaceful dissent. They have also emphasized that NGOs and other civil 
society organizations play a legitimate and necessary role in any 
country and are critical to advancing freedoms, supporting universal 
human rights, giving voice to citizens' views, and acting as 
appropriate checks on the government.


    Question 3d.  Do you think a change to our assistance to Egypt is 
enough leverage to be a catalyst for change?

    Answer. The United States remains committed to supporting the 
building of a stable, prosperous and democratic Egypt as an ally in an 
increasingly troubled region. With Egypt, as we do around the world, we 
use a wide range of tools including our assistance and both public and 
private diplomatic engagement to advance human rights and fundamental 
freedoms.


    Question 4.  The FY 2017 budget request seeks $35.6 million in 
operational funding for the DRL bureau, an increase of $0.7 million 
over last year's request, I understand that funds 171 positions, 
roughly > of which are here in DC. DRL also requests funds to conduct 
foreign assistance programs. However, this year's request is $75 
million for DRL activities--a 4.6% decrease since FY15.


   Can you help me understand why the funding request for the bureau 
        and roughly 128 staffers in DC has increased, but the 
        assistance funding request is down nearly 5%?


    Answer. The Bureau of Democracy, Human Rights, and Labor (DRL) is 
the foreign policy lead within the U.S. government on promoting 
democracy and protecting human rights globally. DRL produces the annual 
Human Rights Report and the annual International Religious Freedom 
Report, and is responsible for vetting of security units pursuant to 
the State Leahy Law. DRL works directly with designated human rights 
officers and others at our 294 embassies, consulates, and diplomatic 
missions around the world and centrally manages programs that focus 
activities in countries where governments commit egregious human rights 
violations, are undemocratic or in transition, and where democracy and 
human rights advocates are under pressure.
    The FY 2017 request for DRL's operational funding includes an 
increase of $674,000, which includes additional funds for overseas 
Leahy vetting as well as to cover current personnel, including cost 
adjustments for domestic inflation and locality pay adjustments.
    Democracy, Human Rights, and Governance (DRG) programs are a 
significant priority for this Administration and are critical 
components of our ability to promote resilient, open, and democratic 
societies. The FY 2017 request for DRG globally is $2.7 billion, which 
is $786.2 million (41 percent) above the FY 2015 request levels. Within 
the overall request for DRG assistance, the foreign assistance request 
for DRL is $75 million. The FY 2017 request for foreign assistance 
balances the Administration's highest foreign policy priorities, 
including DRG programs, with other requirements--for example, the need 
to respond to emerging crises.


    Question 5.  A range of governments, NGOs, and international 
organizations work to promote democracy around the world.


   How does the State Department and the US government as a whole 
        coordinate democracy promotion efforts with these groups?

   How does DRL, if at all, work with organizations such as USAID or 
        the National Endowment of Democracy?

   How does DRL work with the regional bureaus regarding democracy 
        monitoring and oversight? In your view, how can these efforts 
        be more effective?

   How do DRL assistance programs to promote democracy differ from 
        those of USAID?

   What, if any, are the State Department's relative advantages or 
        unique strengths with regard to planning and implementing 
        democracy and governance activities?

    Answer. With more than 100 operating units within the Department of 
State and USAID in Washington and overseas that are involved in the 
promotion of democracy abroad through foreign assistance, the 
Department and USAID place a high value on coordination to help ensure 
assistance efforts are complementary and non-duplicative. The U.S. 
government regularly engages with other funders and entities involved 
in promoting democracy and human rights around the world. In 2006, the 
Office of U.S. Foreign Assistance Resources was established to provide 
leadership and coordinate foreign assistance planning and management 
across the Department and USAID. The relevant Chief of Mission 
coordinates all assistance awards obligated overseas and assistance 
awards obligated in Washington are coordinated by the responsible 
operating unit with relevant stakeholders.
    For example, proposals for new assistance awards managed by the 
Bureau of Democracy, Human Rights and Labor (DRL) undergo interagency 
review panels to ensure that potential programs are well coordinated, 
complement, and do not duplicate existing programming efforts. DRL 
invites representatives from the relevant regional bureaus (which 
represent the views from U.S. embassies), other functional bureaus as 
appropriate, and USAID (which draws its input from USAID field-
missions). With respect to democracy programs managed by other 
operating units, DRL may be consulted on the drafting of comprehensive 
strategies, solicitations, and Congressional notifications, and may 
also participate in technical review panels. DRL regularly coordinates 
and exchanges information with USAID and the NED on respective program 
portfolios.
    The promotion of human rights and democratic governance is an 
integral part of the U.S. development agenda. USAID views human rights 
and democratic governance as fundamental ends of development and as 
critically important means to the reduction of poverty. USAID employs a 
bottom-up approach to programming whereby field missions develop five-
year Country Development Cooperation Strategies (CDCS) that analyze and 
prioritize key challenges in the DRG sector. The most effective 
programmatic approaches are developed for the country context and 
activities are implemented through a combination of mission and central 
awards.
    USAID's Center of Excellence on Democracy, Human Rights, and 
Governance (DRG Center) supports DRG programs in the field by operating 
14 central funds or pre-competed implementation mechanisms (both grants 
and contracts). These capabilities include support for programs in 
elections and political party assistance, rule of law, anticorruption, 
human rights, legislative strengthening, civil society, global labor 
programs, media, and internet freedom.
    DRL programs directly support national security and foreign policy 
goals and objectives, and advance key priorities of the President and 
Secretary of State. These include promoting Internet freedom, defending 
international religious freedom, empowering women and girls and 
preventing and responding to gender-based violence, preventing 
atrocities and countering violent extremism, supporting transitional 
justice, fighting corruption and cronyism, promoting media freedom, 
protecting labor rights, advancing the human rights of members of 
marginalized populations, and supporting pillars of President Obama's 
Stand with Civil Society agenda.
    DRL has developed best practices and specialized mechanisms to work 
in closed societies and closing spaces that may have a limited or no 
U.S. government presence. This ability to conduct sensitive programs in 
a manner that meets federal requirements while keeping grantees safe is 
the basis of all DRL programs, 90 percent of which operate in 
restrictive or challenging environments. As a result, DRL has been able 
to sustain support in environments when other donors were required to 
halt.
    DRL is able to administer programs in ways that allow the programs 
to be flexible, adaptable, and responsive to complex and changing 
situations on the ground, while mitigating risk to both our 
implementing partners and local beneficiaries. DRL manages global 
initiatives that can rapidly respond to deteriorating situations and 
emerging opportunities, and provide emergency assistance to human 
rights defenders, civil society organizations, and individuals under 
attack or threat of attack. Since 2007, DRL emergency assistance 
programs have assisted more than 3,300 people and organizations in more 
than 98 countries and territories.


    Question 6.  The Administration's FY 2017 budget request for State 
and USAID includes more than $1.7 billion in foreign assistance to 
Latin America and the Caribbean, a 10% increase over FY15 levels. This 
includes a 92% increase in development assistance (DA) funding, 
primarily to support development efforts under the U.S. strategy for 
Engagement in Central America. It also includes a 102% increase in 
nonproliferation, anti-terrorism, de-mining and related programs (NADR) 
to support efforts in Columbia. There's also a 46% increase in foreign 
military financing funding (FMF), most of which would support military 
partners in Colombia and throughout Central America.


   Can you let me know which programs' funding levels decreased in 
        order to support these increases?


    Answer. The total FY 2017 Request for Department of State and USAID 
totals $50.1 billion, an increase of $2.3 billion over the FY 2015 
appropriation. While the FY 2017 request represents an increase over FY 
2015, diplomatic engagement and foreign assistance needs are ever 
rising, and certain tradeoffs had to be made as the Administration 
finalized the request. Of the $50.1 billion, $1.7 billion is requested 
for foreign assistance programs in the Western Hemisphere. While the FY 
2017 Request includes a $155 million (10 percent) increase above 
funding allocated to the region in FY 2015, this funding is part of the 
overall increase in funding requested by the President in FY 2017 for 
the Department of State and USAID above the FY 2015 appropriation.
    The President has made clear his commitment to providing strong 
support for our partners and programs in the Western Hemisphere, 
including those in Central America, Colombia, Mexico, and elsewhere. 
The FY 2017 Request of $1.7 billion for the Western Hemisphere reflects 
this commitment. The increases in this request will bolster efforts to 
address the underlying factors of migration from Central America and 
help support the peace process in Colombia.


    Question 7a.  For FY 2017, the State Department is requesting $3.8 
million for WHA to increase staff and update the aging facilities of 
the U.S. Embassy in Havana, and notes in the request that ``adding 
these new positions is vital to U.S. national security and to 
supporting Cuban civil society.'' At the same time, the 
Administration's FY 2017 foreign aid budget request for Cuba democracy 
and human rights funding is for $15 million in Economic Support Funds 
(ESF), a 25% reduction from the $20 million provided annually in recent 
years to nongovernmental democracy and human rights programs.


   Please describe in what areas the nine additional staff that are 
        requested would work, and in particular, how they would help 
        support Cuban civil society.


    Answer. The Embassy has not created any new positions since the 
transition from an Interests Section to a full-fledged Embassy, despite 
an enormous increase in workload. The fact that our Embassy in Havana 
is severely understaffed makes it difficult to meet the U.S. 
government's objectives. To put the staffing level of our Embassy in 
Havana in context, Embassy Santo Domingo has approximately 150 U.S. 
direct hire employees compared to 54 in Havana.
    Of the nine additional staff requested, six would be assigned to 
Embassy Havana and three would join the Office of the Coordinator for 
Cuban Affairs in Washington, DC. The Havana positions would work in the 
Political, Economic, and Management sections. A mixture of reporting 
and support positons are required to deepen U.S. understanding of 
Cuba's political, social, and economic environment, oversee maintenance 
upgrades, conduct human rights monitoring and advocacy, and deepen law 
enforcement cooperation on issues such as fugitives and 
counternarcotics. Adding these positions is vital to U.S. national 
security and to supporting Cuban civil society.
    During re-establishment negotiations, we successfully negotiated 
greater freedom for our diplomats to travel in Cuba to better monitor 
developments within the country. The ability to travel outside Havana 
and interact with Cubans outside the capital is vital to our security 
and to our support of the Cuban people. We need additional staff in 
Cuba to take advantage of this enhanced ability to travel.


    Question 7b.  What is the rationale for the 25% reduction in Cuba 
democracy and human rights funding? Has there been any change in the 
type of assistance provided in the aftermath of the reestablishment of 
diplomatic relations?

    Answer. The promotion of democratic principles and human rights 
remains the core goal of U.S assistance to Cuba. We agree that support 
to civil society in Cuba remains critical, and the re-establishment of 
diplomatic relations has not changed that. We will continue to 
implement democracy programs supported by Economic Support Funds. We 
believe the FY 2017 request provides a sustainable level of democracy 
support that will enable us to continue advancing our democracy and 
human rights goals in Cuba.
    In prior years, the scope of the tools available to us to interact 
with civil society in Cuba was limited. As restrictions on travel by 
Cubans and to Cuba have been eased on both sides, additional tools are 
available that enable the United States to engage directly with the 
Cuban people. For example, we are now able to conduct some forms of 
training in the United States or third countries whereas previously, 
these programs could only be carried out in Cuba.
    Also, U.S. educational, religious, and humanitarian groups now 
connect directly with the Cuban people. Other programs funded by the 
Department of State offer enhanced opportunities for professional, 
academic, and cultural exchanges with Cuba. Cuban activists are able to 
travel regularly to the United States and elsewhere.
    Under these circumstances, we also believe the FY 2017 request 
takes into consideration that one of our goals in supporting civil 
society--worldwide--is to provide the kind of training and capacity 
building that allows them gradually to become more self-sustaining.
    Regarding the status of prior year funding, the Department of State 
obligated all of the Cuba Economic Support Funds (ESF) funding in 
Fiscal Years 2013 and 2014. We are soliciting proposals for FY 2015 
funds.


    Question 7c.  How would you assess the impact and effectiveness of 
U.S. democracy and human rights assistance in Cuba?

    Answer. When U.S. government-funded programs began, we supported 
the few nascent civil society groups on the island who operated 
primarily in urban environments. Since then and due in part to U.S. 
government programming efforts, we support the professionalization of 
the growing, diverse civil society groups throughout Cuba, and have 
assisted in amplifying the voice of independent media through training 
and information dissemination.
    Growing activism within Cuba by independent groups, increased 
information flow to, from and within the island, and increasing 
disillusionment with failed government policies have emboldened a 
greater number of Cubans and provided us the opportunity to engage with 
a wider range of civil society actors, including a new generation of 
activists and individuals who work to create new opportunities for an 
open and prosperous Cuba.
    U.S. government assistance in Cuba responds to the Cuban people's 
demand for human rights and democratic governance. Our programs train 
independent journalists to provide an alternative voice to state-run 
media, and equip human rights defenders to better document human rights 
abuses. Following Cuba's lifting of travel restrictions in early 2013, 
more civil society members have been able to participate in training 
opportunities outside of Cuba, increase their professional networks, 
and present the situation regarding human rights through reports and 
testimony to international fora. U.S. government assistance also 
provides crucial humanitarian assistance to alleviate the hardships for 
victims of political repression and their families, so they may 
continue to speak out for their basic fundamental and human rights.
    We support online platforms to promote the free flow of information 
and disseminate reports of human rights violations, reaching more 
Cubans than before as viewership of the platforms has dramatically 
increased as internet access expands on the island, a trend we expect 
to continue.
    We will continue to assess the impact and effectiveness of our 
programs and respond to changing conditions on the island as well as 
new strategies and needs identified by civil society groups.


                               __________




                                  <all>
</pre></body></html>
